1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19–15566
No. 19-15662
D.C. No. 4:14–md–02541–CW
SHAWNE ALSTON; MARTIN JENKINS; JOHNATHAN
MOORE; KEVIN PERRY; WILLIAM TYNDALL; ALEX
LAURICELLA; SHARRIF FLOYD; KYLE THERET; DUANE
BENNETT; CHRIS STONE; JOHN BOHANNON; ASHLEY
HOLLIDAY; CHRIS DAVENPORT; NICHOLAS KINDLER;
KENDALL GREGORY-MCGHEE; INDIA CHANEY;
MICHEL’LE THOMAS; DON BANKS, “DJ”; KENDALL
TIMMONS; DAX DELLENBACH; NIGEL HAYES;
ANFORNEE STEWART; KENYATA JOHNSON; BARRY
BRUNETTI; DALENTA JAMERAL STEPHENS, “D.J.”;
JUSTINE HARTMAN; AFURE JEMERIGBE; ALEC JAMES,
Plaintiffs-Appellees,
v.
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION, THE
NCAA; PACIFIC 12 CONFERENCE; CONFERENCE USA;
THE BIG TEN CONFERENCE, INC.; MID-AMERICAN
CONFERENCE; SOUTHEASTERN CONFERENCE;
ATLANTIC COAST CONFERENCE; MOUNTAIN WEST
CONFERENCE; THE BIG TWELVE CONFERENCE, INC.;
SUN BELT CONFERENCE; WESTERN ATHLETIC
CONFERENCE; AMERICAN ATHLETIC CONFERENCE,
Defendants-Appellants,

2a
AMERICAN BROADCASTING COMPANIES, INC.;
CBS BROADCASTING, INC.; ESPN ENTERPRISES, INC.;
ESPN, INC.; FOX BROADCASTING COMPANY, LLC.; FOX
SPORTS HOLDINGS, LLC.; TURNER BROADCASTING
SYSTEM, INC.,
Intervenors.
JOHN BOHANNON; JUSTINE HARTMAN,
as representatives of the classes,
Plaintiffs-Appellants,
v.
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION, THE
NCAA; PACIFIC 12 CONFERENCE; CONFERENCE USA;
THE BIG TEN CONFERENCE, INC.; MID-AMERICAN
CONFERENCE; SOUTHEASTERN CONFERENCE;
ATLANTIC COAST CONFERENCE; MOUNTAIN WEST
CONFERENCE; THE BIG TWELVE CONFERENCE, INC.;
SUN BELT CONFERENCE; WESTERN ATHLETIC
CONFERENCE; AMERICAN ATHLETIC CONFERENCE,
Defendants-Appellees,
AMERICAN BROADCASTING COMPANIES, INC.;
CBS BROADCASTING, INC.; ESPN ENTERPRISES, INC.;
ESPN, INC.; FOX BROADCASTING COMPANY, LLC.; FOX
SPORTS HOLDINGS, LLC.; TURNER BROADCASTING
SYSTEM, INC.,
Intervenors.
In Re National Collegiate Athletic Association Athletic
Grant-in-Aid Cap Antitrust Litigation

3a
Appeal from the United States District Court
for the Northern District of California
Claudia Wilken, District Judge, Presiding
Argued and Submitted March 9, 2020
San Francisco, California
Filed May 18, 2020
Before: Sidney R. Thomas, Chief Judge, and
Ronald M. Gould and Milan D. Smith, Jr.,
Circuit Judges.
Opinion by Chief Judge Thomas;
Concurrence by Judge Milan D. Smith, Jr.
SUMMARY*
Antitrust
The panel affirmed the district court’s order in an
antitrust action, enjoining the National Collegiate Athletic Association from enforcing rules that restrict the
education-related benefits that its member institutions
may offer students who play Football Bowl Subdivision
football and Division I basketball.
In O’Bannon v. NCAA (O’Bannon II), 802 F.3d
1049 (9th Cir. 2015), the court affirmed in large part the
district court’s ruling that the NCAA illegally re*

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

4a
strained trade, in violation of section 1 of the Sherman
Act, by preventing FBS football and D1 men’s basketball players from receiving compensation for the use of
their names, images, and likenesses, and the district
court’s injunction insofar as it required the NCAA to
implement the less restrictive alternative of permitting
athletic scholarships for the full cost of attendance.
Subsequent antitrust actions by student-athletes
were consolidated in the district court. After a bench
trial, the district court entered judgment for the student-athletes in part, concluding that NCAA limits on
education-related benefits were unreasonable restraints of trade, and accordingly enjoining those limits,
but declining to hold that NCAA limits on compensation unrelated to education likewise violated section 1.
The panel affirmed the district court’s conclusion
that O’Bannon II did not foreclose this litigation as a
matter of stare decisis or res judicata.
The panel held that the district court properly applied the Rule of Reason in determining that the enjoined rules were unlawful restraints of trade under
section 1 of the Sherman Act. The panel concluded that
the student-athletes carried their burden at the first
step of the Rule of Reason analysis by showing that the
restraints produced significant anticompetitive effects
within the relevant market for student-athletes’ labor
on the gridiron and the court.
At the second step of the Rule of Reason analysis,
the NCAA was required to come forward with evidence of the restraints’ procompetitive effects. The
district court properly concluded that only some of the
challenged NCAA rules served the procompetitive
purpose of preserving amateurism and thus improving
consumer choice by maintaining a distinction between

5a
college and professional sports. Those rules were limits
on above-cost-of-attendance payments unrelated to education, the cost-of-attendance cap on athletic scholarships, and certain restrictions on cash academic or
graduation awards and incentives. The panel affirmed
the district court’s conclusion that the remaining rules,
restricting non-cash education-related benefits, did
nothing to foster or preserve consumer demand. The
panel held that the record amply supported the findings
of the district court, which reasonably relied on demand
analysis, survey evidence, and NCAA testimony.
The panel affirmed the district court’s conclusion
that, at the third step of the Rule of Reason analysis,
the student-athletes showed that any legitimate objectives could be achieved in a substantially less restrictive manner. The district court identified a less restrictive alternative of prohibiting the NCAA from capping
certain education-related benefits and limiting academic or graduation awards or incentives below the maximum amount that an individual athlete may receive in
athletic participation awards, while permitting individual conferences to set limits on education-related benefits. The panel held that the district court did not clearly err in determining that this alternative would be virtually as effective in serving the procompetitive purposes of the NCAA’s current rules, and could be implemented without significantly increased cost.
Finally, the panel held that the district court’s injunction was not impermissibly vague and did not
usurp the NCAA’s role as the superintendent of college
sports. The panel also declined to broaden the injunction to include all NCAA compensation limits, including
those on payments untethered to education. The panel
concluded that the district court struck the right balance in crafting a remedy that both prevented anticom-

6a
petitive harm to student-athletes while serving the
procompetitive purpose of preserving the popularity of
college sports.
Concurring, Judge M. Smith wrote that because he
was bound by O’Bannon II, he joined the panel opinion
in full. He wrote separately to express concern that the
current state of antitrust law reflects an unwitting expansion of the Rule of Reason inquiry in a way that deprived the student-athletes of the fundamental protections that the antitrust laws were meant to provide
them.
*

*

*

7a

OPINION
THOMAS, Chief Judge:
We consider an appeal and cross-appeal from an
order enjoining the National Collegiate Athletic Association (the “NCAA”) from enforcing rules that restrict
the education-related benefits that its member institutions may offer students who play Football Bowl Subdivision (“FBS”) football and Division I (“D1”) basketball (collectively, “Student-Athletes”). See In re NCAA
Athletic Grant-In-Aid Cap Antitrust Litig. (Alston),
375 F. Supp. 3d 1058 (N.D. Cal. 2019). We have jurisdiction under 28 U.S.C. § 1291, and we affirm.
We conclude that the district court properly applied the Rule of Reason in determining that the enjoined rules are unlawful restraints of trade under section 1 of the Sherman Act, 15 U.S.C. § 1. We further
conclude that the record supports the factual findings
underlying the injunction and that the district court’s
antitrust analysis is faithful to our decision in
O’Bannon v. NCAA (O’Bannon II), 802 F.3d 1049 (9th
Cir. 2015).
I
The NCAA and its Compensation Rules
Founded in 1905, the NCAA regulates intercollegiate sports. Id. at 1053. Its mission statement is to
“maintain intercollegiate athletics as an integral part of
the educational program and the athlete as an integral
part of the student body and, by so doing, retain a clear
line of demarcation between intercollegiate athletics
and professional sports.” NCAA regulations govern,

8a
among other things, the payments that studentathletes may receive in exchange for and incidental to
their athletic participation as well as in connection with
their academic pursuits.
The NCAA divides its member schools into three
competitive divisions. D1 schools—some 350 of the
NCAA’s approximately 1,100 member schools—
sponsor the largest athletic programs and offer the
most financial aid. D1 football has two subdivisions,
one of which is the FBS.
In August 2014, the NCAA amended its D1 bylaws
(the “Bylaws”) to grant the so-called “Power Five” conferences—the FBS conferences that generate the most
revenue—autonomy to adopt collectively legislation in
certain areas, including limits on athletic scholarships
known as “grants-in-aid.”1 In January 2015, the Power
Five voted to increase the grant-in-aid limit to the cost
of attendance (“COA”) at each school. Since August
2015, the Bylaws have provided that a “full grant-inaid” encompasses “tuition and fees, room and board,
books and other expenses related to attendance at the
institution up to the [COA],” as calculated by each institution’s financial aid office under federal law. See
20 U.S.C. §§ 1087kk, ll. The Bylaws also contain an
“Amateurism Rule,” which strips student-athletes of
eligibility for intercollegiate competition if they “[u]se[]
1

The Power Five conferences are the Atlantic Coast Conference (the “ACC”), Big Ten Conference, Big 12 Conference, Pacific
12 Conference (the “Pac-12”), and Southeastern Conference (the
“SEC”). Student-Athletes named the Power Five as defendants,
along with Conference USA, the Mid-American Conference (the
“MAC”), Mountain West Conference, Sun Belt Conference, Western Athletic Conference, and American Athletic Conference (the
“AAC”).

9a
[their] athletics skill (directly or indirectly) for pay in
any form in [their] sport.” “[P]ay” is defined as the “receipt of funds, awards or benefits not permitted by
governing legislation.”
However, governing legislation permits a wide
range of above-COA payments—both related and unrelated to education. Without losing their eligibility, student-athletes may receive, for instance: (i) awards valued at several hundred dollars for athletic performance
(“athletic participation awards”),2 which may take the
form of Visa gift cards; (ii) disbursements—sometimes
thousands of dollars—from the NCAA’s Student Assistance Fund (“SAF”) and Academic Enhancement Fund
(“AEF”) for a variety of purposes, such as academic
achievement or graduation awards, school supplies, tutoring, study-abroad expenses, post-eligibility financial
aid, health and safety expenses, clothing, travel, “personal or family expenses,” loss-of-value insurance policies, car repair, personal legal services, parking tickets,
and magazine subscriptions;3 (iii) cash stipends of sev2

Athletic participation awards include the “Senior ScholarAthlete Award,” which is a postgraduate scholarship of $10,000 or
less that institutions may award two student-athletes per year,
and awards for achievement in special events, such as all-star or
post-season bowl games.
3

The record indicates that the NCAA does little to regulate
or monitor the use of these funds. While it controls the total pool
of money that an institution may distribute each year, it has not
capped the amount that an individual athlete may receive. The
SAF is broadly available to “assist student-athletes in meeting
financial needs that arise in conjunction with participation in intercollegiate athletics, enrollment in an academic curriculum or to
recognize academic achievement as determined by conference offices.” And the NCAA “encourage[s]” schools to allocate AEF
funds to provide “direct benefits to student-athletes that enhance
[their] welfare.”

10a
eral thousands of dollars calculated to cover costs of attendance beyond the fixed costs of tuition, room and
board, and books, but used wholly at the studentathlete’s discretion;4 (iv) mandatory medical care
(available for at least two years after the athlete graduates) for an athletics-related injury; (v) unlimited
meals and snacks; (vi) reimbursements for expenses
incurred by student-athletes’ significant others and
children to attend certain athletic competitions; and
(vii) a $30 per diem for “unitemized incidental expenses
during travel and practice” for championship events.
The NCAA has carved out many of these exceptions in the past five years. For example, before 2015,
athletic participation awards did not take the form of
cash-like Visa gift cards. And once the NCAA permitted grants-in-aid for the full COA, effective August
2015, many more student-athletes began to receive
above-COA payments, such as cash stipends, Pell
Grants, and AEF as well as SAF distributions.
This expansion of above-COA compensation has coincided with rising revenue from D1 basketball and
FBS football for the NCAA and its members. In the
2015–16 academic year, these programs generated $4.3
billion in revenue (a $300 million increase from the previous year) for the Power Five. And in 2016, the
NCAA negotiated an eight-year extension (until 2032)
of its multimedia contract for the broadcasting rights to
March Madness, the annual D1 men’s basketball tournament. Under that agreement, the NCAA will receive $1.1 billion per year (an annual increase of over
$325 million).
4

Under the Bylaws, student-athletes who have already received Pell Grants (calculated to cover the COA) may also receive
these stipends.

11a
The O’Bannon Litigation
The NCAA is no stranger to antitrust litigation
arising from its compensation rules.
In 2009,
Ed O’Bannon, a former UCLA basketball player, sued
the NCAA after learning that a college basketball video game featured an avatar that resembled him and
sported his jersey number. O’Bannon II, 802 F.3d at
1055. “The gravamen of [his] complaint” was that the
NCAA illegally restrained trade, in violation of section 1, by preventing FBS football and D1 men’s basketball players from receiving compensation for the use
of their names, images, and likenesses (“NILs”).5 Id.
After a bench trial, the district court agreed under
the Rule of Reason and entered relief for the plaintiffs.
See O’Bannon v. NCAA (O’Bannon I), 7 F. Supp. 3d
955, 962–63 (N.D. Cal. 2014), aff’d in part, rev’d in part,
O’Bannon II, 802 F.3d at 1079. The district court
acknowledged the NCAA’s evidence that college athletics’ “amateur tradition” helps maintain their popularity as a product distinct from professional sports. Id. at
999. It nevertheless concluded that this procompetitive
benefit did not justify the NCAA’s “sweeping prohibition” on NIL compensation. Id. Based on evidence
that “school loyalty and geography” primarily drive
consumer demand and a lack of proof that small payments to student-athletes would diminish college
sports’ popularity, the district court determined that

5

The O’Bannon class included “[a]ll current and former student-athletes” who had played D1 men’s basketball or FBS football “and whose [NILs] may be, or have been, included or could
have been included (by virtue of their appearance in a team roster)
in game footage or in video[]games licensed or sold by Defendants,
their co-conspirators, or their licensees.” Id. at 1055–56.

12a
the NCAA could justify, at most, restrictions on large
payments. Id. at 1000–01.
After identifying two less restrictive alternatives
(“LRAs”) to the challenged rules, id. at 1004–07, the
district court implemented those LRAs through an injunction that required the NCAA to permit its schools
to (i) “use the licensing revenue generated from the use
of their student-athletes’ [NILs] to fund stipends covering the [COA]”; and (ii) to make deferred, posteligibility cash payments in NIL revenue, not to exceed
$5,000, to student-athletes. Id. at 1007–08; see also id.
at 1008 (finding no evidence that “such a modest payment” would “undermine[]” NCAA’s “legitimate procompetitive goals”). The NCAA appealed.
A majority of a Ninth Circuit panel concluded that
the district court’s decision, the first of its kind, was
“largely correct.” O’Bannon II, 802 F.3d at 1053; id. at
1079 (Thomas, C.J., concurring in part and dissenting in
part). The panel unanimously affirmed the injunction
insofar as it required the NCAA to permit athletic
scholarships for the full COA, but a panel majority reversed and vacated the injunction’s requirement that
the NCAA allow deferred NIL payments. Id. at 1053.
In pertinent part, the panel rejected the NCAA’s
threshold argument that its amateurism rules, including those governing compensation, are “valid as a matter of law” under NCAA v. Board of Regents of the
University of Oklahoma, 468 U.S. 85 (1984). O’Bannon
II, 802 F.3d at 1061. The panel acknowledged the Supreme Court’s observation, in “dicta,” that the NCAA
has historically preserved its product by, inter alia,
prohibiting payments to student-athletes. Id. at 1063
(citing Bd. of Regents, 468 U.S. at 102). But it declined
to read that statement as perpetual blanket approval

13a
for the NCAA’s compensation rules, which were not at
issue in Board of Regents. Id. Though conceding that
the NCAA’s “amateurism rules are likely to be procompetitive,”6 id. at 1053, the panel refused to exempt
them from antitrust scrutiny, see id. at 1064 (explaining
that a procompetitive rule “can still be invalid under
the Rule of Reason”).
The panel then affirmed much of the district court’s
analysis. See id. at 1069–76. As is relevant here, it
found, based on the record, “a concrete procompetitive
effect in the NCAA’s commitment to amateurism:
namely that the amateur nature of collegiate sports increases their appeal to consumers.” Id. at 1073. As to
LRAs, it agreed that the ban on funding COA scholarships with NIL revenue was “patently and inexplicably stricter” than necessary to differentiate college
from professional sports. Id. at 1075 (“[B]y the
NCAA’s own standards, student-athletes remain amateurs as long as any money paid to them goes to cover
legitimate educational expenses.”). It clarified that
courts must invalidate such restraints but may not “micromanage organizational rules” or “strike down largely beneficial market restraints[.]” Id.
A panel majority, however, found error in the district court’s adoption of deferred NIL compensation
“untethered to [student-athletes’] education expenses”
as a viable LRA. Id. at 1076. It explained that “not
paying student-athletes is precisely what makes them
amateurs” and disagreed that “being a poorly-paid professional” is “‘virtually as effective’ for that market as
6

In O’Bannon II, “amateurism rules” refers to, inter alia, the
NCAA’s “financial aid rules” and other rules “that limit studentathletes’ compensation and their interactions with professional
sports leagues.” Id. at 1055.

14a
being a[n] amateur.” Id. To avert a “transition[]” to
“minor league status” and to heed the “Supreme
Court’s admonition that [courts] must afford the NCAA
‘ample latitude’ to superintend college athletics,” the
majority vacated this portion of the injunction. Id. at
1079 (quoting Bd. of Regents, 468 U.S. at 120). In closing, it “emphasize[d] the limited scope of [its] decision,”
explaining that “in th[at] case,” the Rule of Reason did
“not require” anything “more” of the NCAA than to
permit student-athletes to receive scholarships for the
COA. Id.7
The Alston Litigation
In March 2014, while the NCAA was litigating
O’Bannon I, FBS football and D1 men’s and women’s
basketball players filed several antitrust actions
against the NCAA and eleven D1 conferences that
were transferred to and, with one exception, consolidated before the same district court presiding over
O’Bannon I. Rather than confining their challenge to
rules prohibiting NIL compensation, Student-Athletes
sought to dismantle the NCAA’s entire compensation
framework.

7

I dissented from this vacatur, mostly on the basis of the
standard of review, because I concluded that the record supported
the entirety of the judgment. Id. at 1080. Though agreeing that
“court[s] should not eliminate the distinction between professional
and college sports,” I also disagreed that the vacated remedy
would have done so. Id. at 1082 n.4. As a practical matter, the
remedy that survived appeal required nothing of the NCAA,
which had already adopted a more generous adjustment to the
grant-in-aid limit by permitting schools to offer any D1 recruit an
athletic scholarship up to the COA, irrespective of whether his or
her NIL was or could be used or licensed.

15a
In December 2015, the district court certified three
injunctive relief classes comprised of (i) FBS football
players, (ii) D1 men’s basketball players, and (iii) D1
women’s basketball players. Each subclass consists of
student-athletes who have received or will receive a
full grant-in-aid during the pendency of this litigation.
Nearly a year after our decision in O’Bannon II,
the NCAA sought judgment on the pleadings, invoking
res judicata. It argued that O’Bannon II “requires
nothing more of the NCAA than that it permit its
member schools to provide student-athletes with their
full education-related [COA].” Because the NCAA had
already amended its rules to satisfy that requirement,
it reasoned that any post-O’Bannon antitrust challenges to its compensation rules must fail. The district
court denied the motion. It explained that StudentAthletes, unlike the O’Bannon plaintiffs, had challenged, among other things, limits on non-cash, education-related benefits. It acknowledged the possibility
that O’Bannon forecloses a type of relief—lifting restrictions on cash payments untethered to educational
expenses—but declined to read it more broadly than
that.
Cross-motions for summary judgment followed.
The district court again rejected the NCAA’s preclusion arguments. As to the merits, it adopted, at the
parties’ request, the market definition from O’Bannon
I: the market for a college education or, alternatively,
student-athletes’ labor. It then granted StudentAthletes summary judgment at the Rule of Reason’s
first step, as the NCAA did not meaningfully dispute
that the challenged rules have anticompetitive effects
in the relevant markets. At the Rule of Reason’s second step, it determined that the NCAA had raised triable issues as to whether its rules have the procompeti-

16a
tive effect(s) of maintaining the popularity of its elite
college basketball and football products or integrating
student-athletes into the wider campus community.
Last, the district court found that Student-Athletes
had proffered sufficient evidence to support their two
proposed LRAs: (i) allowing individual conferences,
but not the NCAA, to regulate student-athlete compensation; or (ii) enjoining NCAA rules that restrict
both non-cash education-related benefits and benefits
that are incidental to athletic participation.
The District Court’s Decision
After a ten-day bench trial, the district court entered judgment for Student-Athletes, in part. The
court concluded that NCAA limits on education-related
benefits are unreasonable restraints of trade, and accordingly enjoined those limits; however, the court declined to hold that NCAA limits on compensation unrelated to education likewise violate section 1. Alston,
375 F. Supp. 3d at 1109.
1. Determination that O’Bannon Is Not Pre-

clusive
At the outset of its conclusions of law, the district
court again declined to dismiss the case on res judicata
grounds. Id. at 1092–96. It identified “material factual
differences” between O’Bannon and the Alston litigation, id. at 1095, including in the identity of class members and the rules and rights at issue, see id. at 1093–94
(explaining that “[t]he crux of the O’Bannon case was
the right to student-athletes’ NIL[s],” whereas “[t]he
conduct at issue here is not connected to NIL rights”
but to limits on above-COA compensation and benefits);
id. at 1094 (noting that challenged rules either did not
exist or have “materially changed” since O’Bannon).

17a
The district court then proceeded to its Rule of Reason
analysis.
2. The Relevant Market
To begin, the district court accepted StudentAthletes’ trial theory narrowing the relevant market to
one in which Student-Athletes sell their “labor in the
form of athletic services” to schools in exchange for athletic scholarships and other payments permitted by the
NCAA. Id. at 1067, 1097.
3. Anticompetitive Effects
Next, the court reiterated its summary judgment
finding of “significant anticompetitive effects in the relevant market.” Id. at 1067, 1097. It relied on StudentAthletes’ economic analyses reflecting that schools, as
buyers of athletic services, exercise monopsony power
to artificially cap compensation at a level that is not
commensurate with student-athletes’ value. Id. at
1068. Based on these analyses, it also found that, but
for the challenged restraints, schools would offer recruits compensation that more closely correlates with
their talent. Id. at 1068–69, 1098.
The district court also highlighted additional trial
evidence demonstrating the challenged rules’ anticompetitive effects. This included testimony that, in 2013,
the Power Five began to urge the NCAA to loosen its
compensation restrictions based on a concern that existing rules incongruously allowed schools to spend on
virtually anything, including palatial athletic facilities
and seven-figure coaches’ salaries, except direct financial support for student-athletes. Id. at 1068–69. In the
district court’s view, the Power Five’s concerns constituted further proof that, absent the NCAA’s rules, student-athletes would receive higher compensation. Id.

18a
at 1069. Although the NCAA granted the Power Five
autonomy to create new forms of compensation and to
expand previously available compensation and benefits
in 2015, the district court observed that these conferences remain constrained by “overarching NCAA limits” that cap compensation at an artificially low level.
Id.
4. Procompetitive Effect
The district court then turned to the NCAA’s asserted procompetitive justifications. In pertinent part,
the NCAA argued that the challenged rules implement
“amateurism,” which drives consumer interest in college sports because “consumers ‘value amateurism.’”8
Id. at 1070 (internal citation omitted). The district
court accepted this justification with respect to the
NCAA’s limits on cash compensation untethered to education, but not as to its limits on non-cash educationrelated benefits. Id. at 1082–83, 1101–02.
As a preliminary matter, the district court found no
proof that the challenged rules directly foster consumer
demand. Id. at 1070. It acknowledged the NCAA’s
theory that its rules safeguard “amateurism” for consumers’ benefit, but the meaning of that term eluded
8

This justification is the only one raised on appeal. The district court rejected the NCAA’s other proffered justification
(abandoned on appeal): The challenged rules purportedly enhance
student-athletes’ college education by integrating them into the
wider campus community. Id. at 1083–86, 1102–03. The district
court declined to find that the challenged rules improve academic
performance or prevent a social “wedge” between athletes and
non-athletes. Id. at 1083–85, 1102–03. To the contrary, it found
that the challenged rules foster resentment by permitting expenditures on “frills, like extravagant athletes-only facilities.” Id. at
1085–86, 1103.

19a
the court.9 See id. at 1070–71 (noting former SEC
commissioner’s testimony that he “do[es not] even
know what [amateurism] means” (internal citation
omitted)). Though the NCAA defined amateurism during the litigation as “‘not paying’ the participants,” id.
at 1071 (internal citation omitted), the district court observed that this purported pay-for-play prohibition is
riddled with exceptions. See id. at 1071–74.
After cataloguing the long list of above-COA payments that the NCAA permits, the court then reached
two conclusions: (i) the challenged rules “do not follow
any coherent definition of amateurism … or even ‘pay,’”
and (ii) these payments (many of which post-date
O’Bannon) have not diminished demand for college
sports, which “remain[] exceedingly popular and revenue-producing.” Id. at 1074.
On the question of consumer demand, the district
court found Student-Athletes’ evidence regarding the
effect (or lack thereof) of above-COA compensation on
demand more compelling than the NCAA’s. For instance, in the battle of economic experts, the district
court found the NCAA’s only demand expert,
Dr. Kenneth Elzinga, unreliable because he failed to
study “standard measures of consumer demand, such as
revenues, ticket sales, or ratings,” but instead relied on
interviews with NCAA affiliates introduced to him by
defense counsel. Id. at 1075. The district court further
9

The NCAA’s “Principle of Amateurism” provides that student-athletes’ “participation should be motivated primarily by education and by the physical, mental and social benefits to be derived,” that their “participation in intercollegiate athletics is an
avocation,” and that they “should be protected from exploitation
by professional and commercial enterprises.” Id. at 1070 (internal
citation omitted).

20a
found his analysis irrelevant as he refused to study consumer response to historical changes in compensation
levels based on the false premise that the NCAA’s amateurism rules have not materially changed over time.
Id.
By contrast, the district court credited StudentAthletes’ expert Dr. Daniel Rascher’s demand analysis,
which was based on two natural experiments and, in
some respects, corroborated by defense witnesses. Id.
at 1076–78, 1100. The first experiment—comparing
consumer demand before and after the August 2015 increase to the grant-in-aid limit, which resulted in
“thousands of class members receiving significant”
above-COA payments, including SAF and AEF distributions—demonstrated “no negative impact on consumer demand.” Id. at 1076. In fact, Dr. Rascher found
that revenues from D1 basketball and FBS football,
“one of the best economic measures of consumer demand,” have increased since 2015. Id. at 1076–77; see
also id. at 1078 (noting corroborating testimony by an
NCAA Rule 30(b)(6) witness and a Big 12 Rule 30(b)(6)
witness). The second experiment—comparing demand
before and after the University of Nebraska (of the Big
Ten) began providing athletes up to $7,500 in posteligibility education-related aid-—likewise did not demonstrably reduce interest in Nebraska sports or FBS
football and D1 basketball more broadly. Id. at 1077–
78.
The district court also found Student-Athletes’
survey expert, Dr. Hal Poret, considerably more persuasive than the NCAA’s, Dr. Bruce Isaacson. Id. at
1078–80, 1100–01. Dr. Isaacson asked respondents why
they watch college sports and listed “amateurs and/or
not paid” as one possible reason, but failed to indicate
that “amateurs” means “not paid” or to otherwise de-

21a
fine “amateurs,” thus “render[ing] the responses hopelessly ambiguous.” Id. at 1078. Moreover, he measured
only consumer preference and conceded that he did not
attempt to study behavior. Id. at 1079. By contrast,
Dr. Poret tested behavior and found that consumers
would continue to view or attend college athletics (at
the same rate) even if eight types of compensation that
the NCAA currently prohibits or limits were individually implemented. Id. at 1079–80. The district court
credited this conclusion. Id. at 1079–80 & n.24.
Testimony by NCAA lay witnesses that “student”
status drives demand also failed to persuade the district court of a connection between the challenged compensation regime and demand. Id. at 1082, 1101. It
reasoned that “student-athletes would continue to be
students in the absence of the challenged rules,” id. at
1082, relying on O’Bannon II’s observation that higher
education “would still be available to student-athletes if
they were paid some compensation in addition to their
athletic scholarships,” id. at 1101 (quoting O’Bannon II,
802 F.3d at 1073). It also underscored the absence of
evidence that the NCAA had promulgated its rules
based on demand analyses. Id. at 1080, 1100–01.
Despite finding the NCAA’s procompetitive theory
largely unpersuasive, the district court “credit[ed] the
importance to consumer demand of maintaining a distinction between college sports and professional
sports.” Id. at 1082. The court then found that some
NCAA rules—the COA limit on the grant-in-aid, limits
on compensation unrelated to education, and limits on
cash awards for graduating or other academic achievements—serve that purpose by precluding “unlimited
payments unrelated to education, akin to salaries seen
in professional sports leagues.” Id. at 1082–83; see also
id. at 1101–02. But the court concluded that limits on

22a
“non-cash education-related benefits,” such as posteligibility graduate scholarships or tutoring, do not
have that effect; it reasoned that such benefits “could
not be confused with a professional athlete’s salary”
and would only “emphasize that the recipients are students.” Id. at 1083.
5. Less Restrictive Alternative
At the Rule of Reason’s third step, the district
court considered whether three potential alternatives
to the challenged restraints were less restrictive but
virtually as effective in preventing “demand-reducing
unlimited compensation indistinguishable from that observed in professional sports.” Id. at 1086. The district
court rejected two proposed LRAs, both of which
would have permitted individual conferences to limit
above-COA compensation, but would have otherwise
invalidated either (i) all NCAA compensation limits or
(ii) NCAA limits on education-related compensation
and existing caps on benefits incidental to athletics
participation, such as healthcare, pre-season expenses,
and athletic participation awards. Id. at 1086–87. The
district court found that both these alternatives would
enable professional-style cash payments, thus threatening the distinction between college and professional
sports. Id. at 1087. The court acknowledged the possibility that conferences could “discover” demandpreserving compensation levels. Id. But it rejected
these LRAs to avoid demand-reducing “miscalculations” during “the inevitable trial-and-error phase.” Id.
The district court then identified a viable LRA:
(1) allow the NCAA to continue to limit grantsin-aid at not less than the [COA]; (2) allow the
[NCAA] to continue to limit compensation and

23a
benefits unrelated to education; (3) enjoin
NCAA limits on most compensation and benefits that are related to education, but allow it to
limit education-related academic or graduation
awards and incentives, as long as the limits are
not lower than its limits on athletic performance awards now or in the future.10
Id. The court enumerated specific education-related
benefits that the NCAA would be unable to prohibit or
limit under the LRA: “computers, science equipment,
musical instruments and other items not currently included in the [COA] but nonetheless related to the pursuit of various academic studies”; post-eligibility scholarships for undergraduate, graduate, and vocational
programs at any school; tutoring; study-abroad expenses; and paid post-eligibility internships. Id. at 1088.
The district court explained that this LRA would
permit some NCAA regulation of cash graduation or
academic awards because these payments could otherwise morph into professional-like salaries. Id. It instructed that the cap on such awards should not fall below the existing limit on aggregate athletic participation awards (currently, $5,600), as receipt of the latter
“has been shown not to decrease consumer demand and
not to be inconsistent with the NCAA’s understanding
of amateurism.” Id. Under this LRA, individual conferences may continue to limit all payment types because “no individual conference dominates nearly the
entire market, like the NCAA does.” Id. The district
court further reasoned that this LRA would not “greatly impact[]” the NCAA’s “latitude to superintend col10

The district court found that the current aggregate limit on
such awards is $5,600. Id. at 1072, 1099.

24a
lege sports,” as it “would affect only a small fraction of
[its] rulemaking jurisdiction.” Id.
The district court concluded that this LRA would
be virtually as effective as the challenged rules at preserving student-athletes’ status as students (and thus
demand), analogizing it to the LRA affirmed in
O’Bannon II: Both require the NCAA to permit members “to cover legitimate education-related costs.” Id.
at 1105 (citing O’Bannon II, 802 F.3d at 1075). Finally,
it determined that, far from resulting in significantly
increased costs, the LRA’s elimination of a category of
rules would decrease the NCAA’s enforcement costs.
Id. at 1090–91, 1105.
6. Remedy
The district court implemented this LRA via a
permanent injunction. See In re NCAA Athletic GrantIn-Aid Cap Antitrust Litig., 2019 WL 1593939 (N.D.
Cal. Mar. 8, 2019). The injunction provides that the
parties may move to modify its list of education-related
benefits and that the NCAA may move to incorporate a
definition of compensation and benefits that are “related to education” if it chooses to adopt one. Id. at *1. It
also allows the NCAA to regulate how its members
provide education-related benefits. Id.; see also Alston,
375 F. Supp. 3d at 1107 (“[T]he NCAA could require
schools to pay for these items directly or to reimburse
student-athletes for [equipment] expenses if adequate
proof of purchase is shown.”). The court reiterated that
NCAA members remain free to independently restrict
pay. Alston, 375 F. Supp. 3d at 1109. And it stayed the
injunction pending resolution of a timely appeal. Id. at
1110.

25a
Post-Appeal Developments
After the NCAA timely appealed, California enacted the Fair Pay to Play Act (the “FPP Act”). See Cal.
S.B. 206 (Sept. 30, 2019), Cal. Educ. Code § 67456. The
FPP Act requires the NCAA and its member institutions to permit student-athletes enrolled in California
colleges and universities to earn compensation from the
use of their NILs. Id. § 67456(a), (g). It takes effect on
January 1, 2023. Id. § 67456(h).
In response to the FPP Act, the NCAA created a
working group that has recommended permitting NIL
benefits so long as they are tethered to education and
otherwise preserve the distinction between college and
professional sports recognized in O’Bannon II. See
Fed. and State Leg. Working Grp. Report 4 (Oct. 23,
2019), available at https://tinyurl.com/working-grpreport. In recent testimony before the Senate Commerce Subcommittee on Manufacturing, Trade and
Consumer Protection, NCAA President Dr. Mark
Emmert denied that the NCAA would be “taking any
action that is contrary to the position advocated by the
NCAA or accepted by the Ninth Circuit with respect to
the type of NIL payments that were at issue in the
O’Bannon case[.]” See Test. of Dr. Mark Emmert 6
(Feb. 11, 2020), available at https://tinyurl.com/EmmertTest-y.
II
The application of stare decisis and res judicata are
questions of law that we review de novo. See In re
Watts, 298 F.3d 1077, 1079 (9th Cir. 2002); Media
Rights Techs., Inc. v. Microsoft Corp., 922 F.3d 1014,
1020 (9th Cir. 2019).

26a
We review factual findings for clear error and legal
conclusions de novo. See O’Bannon II, 802 F.3d at
1061. Under clear error review, we must “accept the
district court’s findings of fact unless we are left with
the definite and firm conviction that a mistake has been
committed.” Id. (quoting FTC v. BurnLounge, Inc.,
753 F.3d 878, 883 (9th Cir. 2014)); see also United States
v. Alexander, 106 F.3d 874, 877 (9th Cir. 1997) (“We
must not reverse as long as the findings are plausible in
light of the record viewed in its entirety[.]”). In other
words, a decision is not clearly erroneous unless it
“strike[s] us as wrong with the force of a five-week-old,
unrefrigerated dead fish.” Prete v. Bradbury, 438 F.3d
949, 968 n.23 (9th Cir. 2006) (internal citation omitted).
Last, “[w]e review a district court’s decision to
grant a permanent injunction for an abuse of discretion”; the “factual findings underpinning the award” for
clear error; and the “rulings of law relied upon by the
district court in awarding injunctive relief” de novo.
Ollier v. Sweetwater Union High Sch. Dist., 768 F.3d
843, 867 (9th Cir. 2014) (internal citations and quotation
marks omitted).
III
The district court correctly concluded O’Bannon II
did not foreclose this litigation as a matter of stare decisis and res judicata.
A
Stare decisis binds “today’s Court” to “yesterday’s
decisions.” Danielson v. Inslee, 945 F.3d 1096, 1097
(9th Cir. 2019) (quoting Kimble v. Marvel Entm’t, LLC,
135 S. Ct. 2401, 2409 (2015)). “In determining whether
[we are] bound by an earlier decision,” we consider “not
only the rule announced, but also the facts giving rise to

27a
the dispute, other rules considered and rejected and the
views expressed in response to any dissent or concurrence.” Hart v. Massanari, 266 F.3d 1155, 1170 (9th
Cir. 2001). “Insofar as there may be factual differences
between the current case” and O’Bannon II, we “must
determine whether those differences are material to
the application of the rule or allow the precedent to be
distinguished on a principled basis.” Id. at 1172; see
also In re Osborne, 76 F.3d 306, 309 (9th Cir. 1996) (explaining that decisions “furnish[] the rule for the determination of a subsequent case involving identical or
similar material facts” (internal citation omitted)).
Antitrust decisions are particularly fact-bound.
The Supreme Court has long emphasized that the Rule
of Reason “contemplate[s]” “case-by-case adjudication.”
See Leegin Creative Leather Prods., Inc. v. PSKS, Inc.,
551 U.S. 877, 899 (2007); see also Maple Flooring Mfrs.’
Ass’n v. United States, 268 U.S. 563, 579 (1925) (“[E]ach
case arising under the Sherman Act must be determined upon the particular facts disclosed by the record,
and … opinions in those cases must be read in the light
of their facts”); Phillip Areeda & Herbert Hovenkamp,
Antitrust Law: An Analysis of Antitrust Principles
and Their Application, ¶ 1205c3 (4th ed. 2018) (“Continuing contracts in restraint of trade,” are “typically
subject to continuing reexamination,” and “even a judicial holding that a particular agreement is lawful does
not immunize it from later suit or preclude its reexamination as circumstances change.”).
O’Bannon II was a decision of “limited scope,”
which the panel majority summarized as follows:
[W]e reaffirm that NCAA regulations are subject to antitrust scrutiny and must be tested in
the crucible of the Rule of Reason. … [T]he

28a
NCAA is not above the antitrust laws, and
courts cannot and must not shy away from requiring the NCAA to play by the Sherman
Act’s rules. In this case, the NCAA’s rules
have been more restrictive than necessary to
maintain its tradition of amateurism in support
of the college sports market. The Rule of Reason requires that the NCAA permit its schools
to provide up to the [COA] to their student athletes. It does not require more.
802 F.3d at 1079 (emphasis added).
In arguing that the last two sentences of this passage foreclose the current litigation, the NCAA ignores
the inherently fact-dependent nature of a Rule of Reason analysis, which evaluates dynamic market conditions and consumer preferences; the panel majority’s
manifest effort to limit its decision to the record before
it; and the majority’s mandate that courts must continue to subject NCAA rules, including those governing
compensation, to antitrust scrutiny. See id. at 1064
(“The amateurism rules’ validity must be proved, not
presumed.”).
Far from straying outside O’Bannon II’s bounds,
the district court here sought to toe the line that the
panel majority drew. The court uncapped educationrelated benefits, but left in place NCAA limits on compensation unrelated to education, consistent with the
majority’s observation that “student-athletes remain
amateurs as long as any money paid to them goes to
cover legitimate educational expenses.” Id. at 1075
(emphasis added); see also id. at 1076 (vacating injunction only insofar as it forced NCAA to permit “cash
payments untethered to … education expenses”).

29a
The district court meaningfully and properly distinguished O’Bannon II from the current litigation as a
narrow challenge to restrictions on NIL compensation.
See id. at 1052 (introducing challenged rules as those
that “prohibit student-athletes from being paid for the
use of their [NILs]”); id. at 1055 (stating that the “gravamen of O’Bannon’s complaint was that the NCAA’s
amateurism rules, insofar as they prevented studentathletes from being compensated for the use of their
NILs, were an illegal restraint of trade”); id. at 1073
n.17 (“The correct inquiry under the Rule of Reason is:
What procompetitive benefits are served by the
NCAA’s existing rule banning NIL payments?”). Additionally, the proposed LRAs in O’Bannon were expressly limited to “licensing revenue generated from
the use” of student-athletes’ NILs. See O’Bannon I, 7
F. Supp. 3d at 1007. By contrast, this action more
broadly targets the “interconnected set of NCAA rules
that limit the compensation [student-athletes] may receive in exchange for their athletic services.” Alston,
375 F. Supp. 3d at 1062. And Student-Athletes sought
LRAs that would uncap above-COA compensation, regardless whether their NILs have, will, or could generate any revenue that would fund such compensation.
See id. at 1086.
The NCAA’s argument that it should not incur antitrust liability for relaxing its compensation limits
since O’Bannon is not persuasive. The district court
rightly concluded that this argument misses the mark:
“It is the fact that the prices of student-athlete compensation are fixed, as opposed to the amount at which
these prices are fixed, that renders the agreements at
issue anticompetitive.” Id. at 1095 (citing O’Bannon II,
802 F.3d at 1071 (“It is no excuse that the prices fixed

30a
are themselves reasonable.”) (quoting Catalano, Inc. v.
Target Sales, Inc., 446 U.S. 643, 647 (1980))).
Additionally, the NCAA’s concession that it has relaxed its compensation limits since O’Bannon only underscores that the instant litigation is materially factually different from O’Bannon. Indeed, as StudentAthletes argue, the changes to compensation limits
since O’Bannon “alter the factual assumption that
drove the result in O’Bannon: they show that noneducation-related cash payments in excess of the [COA]
are no longer a ‘quantum leap’ from current NCAA
practice[.]” See O’Bannon II, 802 F.3d at 1078 (“The
difference between offering student-athletes educationrelated compensation and offering them cash sums untethered to educational expenses is not minor; it is a
quantum leap.”)).
In O’Bannon II, the majority addressed only two
types of above-COA allowances: Pell Grants and prize
money for tennis recruits. See id. at 1058–59. It distinguished Pell Grants, which are “intended for educationrelated expenses,” from “pure cash compensation” for
athletic performance. Id. at 1078 n.24. And it declared
that “award money from outside athletic events implicates amateurism differently than allowing schools to
pay student-[athletes] directly.” Id. at 1077 n.21. Neither of these above-COA allowances is analogous to the
post-O’Bannon II forms of compensation—provided by
schools and unrelated to education—that the district
court cited to support its conclusion that the NCAA,
contrary to its theory of amateurism, does provide at
least some “pay for play.” See Alston, 375 F. Supp. 3d
at 1071–74. For example, the court found that, after the
O’Bannon record closed, student-athletes have received, inter alia, athletic participation awards in the

31a
form of Visa gift cards,11 SAF disbursements in the
thousands of dollars to pay for loss-of-value insurance,12
and personal expenses unrelated to education. Id. at
1095. Based on these innovations, the court fairly concluded that the compensation landscape has meaningfully changed since O’Bannon. See id. at 1094.
In sum, because O’Bannon II “was decided on a
narrow set of facts that are distinguishable from the
present case,” we “decline to adopt” the NCAA’s
“broad interpretation” of that decision. United States
v. Silver, 245 F.3d 1075, 1079 (9th Cir. 2001).
B
Res judicata, also known as “claim preclusion,”
“bars a party in successive litigation from pursuing
claims that ‘were raised or could have been raised in [a]
prior action.’” Media Rights Techs., 922 F.3d at 1020
(internal citation omitted). It applies when there is: (i)
an identity of claims between the prior and subsequent
actions; (ii) a final judgment on the merits; and (iii)
identity or privity between the parties. Id. at 1020–21.
The NCAA bears the burden of proving all three elements. Id. at 1021. The NCAA fails to carry its burden
with respect to the first element.
“Claim preclusion does not apply to claims that
were not in existence and could not have been sued up11

Visa gift cards function like cash, even if the NCAA declines to admit as much.
12

The NCAA characterizes this insurance as a “legitimate
expense to protect against the risk of loss that could be incurred
during athletic competition,” but the legitimacy of these payments
is irrelevant here. What matters, for stare decisis purposes, is
that the O’Bannon II panel had no occasion to consider whether
such payments accord with the NCAA’s conception of amateurism.

32a
on … when the allegedly preclusive action was initiated.” Id. (internal citation omitted). That bright-line
rule is dispositive here. Because Student-Athletes’ antitrust claim “arose from events that occurred after”
the O’Bannon record closed in August 2014—that is,
the above-described proliferation of permissible aboveCOA payments alongside a growth in revenues from
FBS football and D1 basketball—it is “not barred.”
Howard v. City of Coos Bay, 871 F.3d 1032, 1040 (9th
Cir. 2017); see also Harkins Amusement Enters., Inc. v.
Harry Nace Co., 890 F.2d 181, 183 (9th Cir. 1989)
(“Failure to gain relief for one period of time does not
mean that the plaintiffs will necessarily fail for a different period of time”); California v. Chevron Corp., 872
F.2d 1410, 1415 (9th Cir. 1989) (providing that “conduct
of the parties since the first judgment[] must be considered” in connection with successive antitrust suits). 13
IV
The district court properly granted judgment on
the Student-Athletes’ Sherman Act § 1 claim. The
Sherman Act prohibits, inter alia, agreements “in restraint of” interstate trade or commerce. 15 U.S.C. § 1.
The Supreme Court has interpreted section 1 “as ‘out13

In support of its res judicata argument, the NCAA cites
the O’Bannon II majority’s discussion of the “danger” of “future
plaintiffs” pursuing “essentially the same claim again and again.”
If anything, the cited discussion cuts against the NCAA. The majority predicted that future challenges to the district court’s $5,000
cap on deferred NIL payments would ultimately result in studentathletes, “captur[ing] the full value of their NIL” and the NCAA’s
transformation into a minor league. O’Bannon II, 802 F.3d at
1079. Far from enshrining the majority’s decision as the last word
on the legality of NCAA compensation rules, this hypothetical
rests on the premise that res judicata would not have blocked such
challenges.

33a
law[ing] only unreasonable restraints’ of trade.” See In
re Nat’l Football League’s Sunday Ticket Antitrust
Litig., 933 F.3d 1136, 1149 (9th Cir. 2019) (alteration in
original) (quoting State Oil Co. v. Khan, 522 U.S. 3, 10
(1997)). “[W]hen considering agreements among entities involved in league sports, such as here, [we] must
determine whether the restriction is unreasonable under the [R]ule of [R]eason.” Id. at 1150 n.5; see also
O’Bannon II, 802 F.3d at 1069 (“[T]he appropriate rule
is the Rule of Reason.”).
As applied here, under the Rule of Reason’s “threestep framework:” (1) Student-Athletes “bear[] the initial burden of showing that the restraint produces significant anticompetitive effects within a relevant market”; (2) if they carry that burden, the NCAA “must
come forward with evidence of the restraint’s procompetitive effects”; and (3) Student-Athletes “must then
show that any legitimate objectives can be achieved in
a substantially less restrictive manner.” O’Bannon II,
802 F.3d at 1070 (quoting Tanaka v. Univ. of S. Cal.,
252 F.3d 1059, 1063 (9th Cir. 2001)). Throughout this
analysis, we remain mindful that, although “the NCAA
is not above the antitrust laws,” id. at 1079, courts are
not “free to micromanage organizational rules or to
strike down largely beneficial market restraints,” id. at
1075. Accordingly, a court must invalidate a restraint
and replace it with an LRA only if the restraint is “patently and inexplicably stricter than is necessary to
accomplish all of its procompetitive objectives.” Id. at
1075.
A
The district court properly concluded that the Student-Athletes carried their burden at the first step of
the Rule of Reason. The district court found that the

34a
NCAA’s rules have “significant anticompetitive effects
in the relevant market” for Student-Athletes’ labor on
the gridiron and the court. See Alston, 375 F. Supp. 3d
at 1070 (“[B]ecause elite student-athletes lack any viable alternatives to [D1], they are forced to accept, to
the extent they want to attend college and play sports
at an elite level after high school, whatever compensation is offered to them by [D1] schools, regardless of
whether any such compensation is an accurate reflection of the competitive value of their athletic services.”). These findings “have substantial support in
the record,” O’Bannon II, 802 F.3d at 1070; see Alston,
375 F. Supp. 3d at 1067–70, and the NCAA does not
dispute them, see O’Bannon II, 802 F.3d at 1072.
B
The NCAA does, however, quarrel with the district
court’s analysis at the Rule of Reason’s second step,
where the NCAA bears a “heavy burden” of “competitively justify[ing]” its undisputed “deviation from the
operations of a free market.” Bd. of Regents, 468 U.S.
at 113; see also O’Bannon II, 802 F.3d at 1064 (explaining that the NCAA is not entitled to a presumption
that its restraints are procompetitive). On appeal, the
NCAA advances a single procompetitive justification:
The challenged rules preserve “amateurism,” which, in
turn, “widen[s] consumer choice” by maintaining a distinction between college and professional sports.
“Improving customer choice is procompetitive.”
Paladin Assocs., Inc. v. Mont. Power Co., 328 F.3d
1145, 1157 (9th Cir. 2003); see also O’Bannon II, 802
F.3d at 1072 (“[A] restraint that broadens choices can
be procompetitive.”). Thus, the district court properly
“credit[ed] the importance to consumer demand of

35a
maintaining a distinction between college and professional sports.” Alston, 375 F. Supp. 3d at 1082.14
The district court concluded, however, that only
some of the challenged rules serve that procompetitive
purpose: limits on above-COA payments unrelated to
education, the COA cap on athletic scholarships, and
certain restrictions on cash academic or graduation
awards and incentives. Id. at 1101–02 (recognizing that
removal of these restrictions could result in unlimited
cash payments akin to professional salaries). It explained that the remaining rules—those restricting
“non-cash education-related benefits”—do nothing to
foster or preserve demand because “[t]he value of such
benefits, like a scholarship for post-eligibility graduate
school tuition, is inherently limited to its actual value,
and could not be confused with a professional athlete’s
salary.” Id. at 1083.

14

Writing in support of Student-Athletes, amici assert that
courts may not consider a restraint’s procompetitive benefits in a
market outside the market deemed relevant for the purpose of
evaluating a restraint’s anticompetitive effects. That proposition
is not settled. See Paladin, 328 F.3d at 1157 n.11 (acknowledging
the “theory that procompetitive effects in a separate market cannot justify anticompetitive effects in the market … under analysis”
(citing United States v. Topco Assocs., Inc. 405 U.S. 596, 610
(1972)). The O’Bannon II panel had no occasion to address it, as
the parties there limited their dispute to whether the challenged
rules, as a factual matter, preserved consumer demand. See 802
F.3d at 1072–74. So, too, here: The parties have agreed that the
relevant market is the market for Student-Athletes’ labor, while
the market to be assessed for pro-competitive effects is the market
for college sports. Thus, the issue is not presented in this case.
Because the issue raised by amici is “not properly before us,” we
express no view on its merits, and leave it for another day. Pres.
Coal., Inc. v. Pierce, 667 F.2d 851, 862 (9th Cir. 1982).

36a
The record amply supports these findings. The district court reasonably relied on demand analyses, survey evidence, and NCAA testimony indicating that
caps on non-cash, education-related benefits have no
demand-preserving effect and, therefore, lack a procompetitive justification. See id. at 1076–80.
First, Dr. Rascher’s and Dr. Noll’s demand analyses demonstrate that the NCAA has loosened its restrictions on above-COA, education-related benefits
since O’Bannon without adversely affecting consumer
demand. These benefits include SAF and AEF distributions to cover fifth- and sixth-year aid, postgraduate
scholarships, tutoring, international student fees, educational supplies, academic achievement or graduation
awards, graduate school exam fees, and fees for internship programs. Id. at 1072 n.15.
Second, Student-Athletes’ survey evidence reflects
that individually implementing seven types of education-related benefits—limited or forbidden under the
challenged rules—would not diminish the survey respondents’ viewership or attendance.15
Third, NCAA witnesses confirmed that the NCAA
set limits on education-related benefits without consulting any demand studies. See id. at 1080 (“Indeed, [Kevin] Lennon, who has worked for the NCAA for more
than thirty years, testified that he does not recall any
instance in which any study on consumer demand was
considered by the NCAA membership when making
15

These benefits were: an academic incentive payment with a
maximum value of $10,000, a graduation incentive payment with a
maximum value of $10,000, a post-eligibility undergraduate scholarship, a work-study payment, off-season expenses, a graduate
school scholarship for the COA, and a post-eligibility study-abroad
scholarship.

37a
rules about compensation”); see also id. at 1074 (“Defendants have not provided any cogent explanation for
why the NCAA generally prohibits financial aid for
graduate school at another institution, or for why the
Senior Scholar Awards are limited in quantity and
amount.”).
Notwithstanding this evidence, the NCAA accuses
the district court of straying from a purported “judicial
consensus” that the NCAA expands consumer choice
by enforcing an amateurism principle under which student-athletes “must not be paid” a penny over the
COA. This sweeping procompetitive justification—the
“Not One Penny” standard, in Dr. Noll’s parlance—
lacks support in both precedent and the record.
Although both Board of Regents and O’Bannon II
define amateurism to exclude payment for athletic performance, neither purports to immortalize that definition as a matter of law. In fact, O’Bannon II recognizes
that Board of Regents’ discussion of amateurism is “dicta.” 802 F.3d at 1063. And to the extent the O’Bannon
II majority accepted the NCAA’s conception of amateurism, it did so based on the record, which demonstrated a “concrete procompetitive effect,” id. at 1073,
of limiting above-COA “NIL cash payments untethered
to [students’] education expenses,” id. at 1076.
The record in this case, by contrast, reflects no such
concrete procompetitive effect of limiting non-cash, education-related benefits. Instead, the record supports a
much narrower conception of amateurism that still
gives rise to procompetitive effects: Not paying student-athletes “unlimited payments unrelated to education, akin to salaries seen in professional sports
leagues” is what makes them “amateurs.” Alston, 375
F. Supp. 3d at 1083. The district court credited NCAA

38a
testimony that college sports resonates with fans because they are not professionalized, and that “if the college game looks to be professional sports, [fewer] people will watch it.” Id. at 1082 (internal citations omitted). But the court reasonably declined to adopt the
Not One Penny standard based on considerable evidence that college sports have retained their distinctive
popularity despite an increase in permissible forms of
above-COA compensation and benefits.
In defense of its expansive conception of amateurism, the NCAA relies on its survey of 1,100 college
sports fans, reflecting that 31.7 percent watch college
sports because, inter alia, they “like the fact that college players are amateurs and/or are not paid.” The
NCAA claims that the district court rejected this survey on “baseless grounds.” But it disregards the
court’s primary and most compelling reason for dismissing this evidence: The survey results reflect, at
most, a consumer preference for “amateurism,” but do
not capture the effects (if any) that the tested compensation scenarios would have on consumer behavior.
See id. at 1079 (“Dr. Isaacson acknowledged that measuring consumer preferences is ‘not the same thing’ as
measuring future consumer behavior, and that he did
not do any work to measure any relationship between
the two.” (internal citation omitted)). The NCAA does
not deny this flaw in its survey evidence.
The district court offered another sound reason to
reject the NCAA’s survey evidence: The survey’s use
of the phrase “amateurs and/or not paid” made its responses “hopelessly ambiguous.” Id. at 1078. In so
finding, the district court did not, as the NCAA complains, “inject ambiguity into a commonplace term.”
Amateurism does not have a fixed definition, as NCAA
officials themselves have conceded. See, e.g., id. at

39a
1070–71 (“Mike Slive, who served as commissioner of
the SEC, one of the Power Five, … testified that amateurism is ‘just a concept that I don’t even know what it
means. I really don’t.’” (internal citation omitted)); see
also O’Bannon II, 802 F.3d at 1083 (Thomas, C.J., dissenting) (referring to amateurism as a “nebulous concept prone to ever-changing definition”). Survey respondents who selected “amateurs and/or not paid”
may have very well equated amateurism with student
status, irrespective of whether those students receive
compensation for athletics. See Alston, 375 F. Supp. 3d
at 1082 (acknowledging defense witness testimony that
“consumers’ perception that student-athletes are, in
fact, students” drives consumer demand for D1 basketball and FBS football). Given this lack of clarity, the
district court reasonably concluded that the NCAA’s
survey results were of limited evidentiary value.
Finally, the district court properly considered
whether the challenged rules themselves, rather than
hypothetical alternatives, have procompetitive benefits. As both parties recognize, the proper “inquiry under the Rule of Reason is: What procompetitive benefits are served by the NCAA’s [challenged] rule[s]?”
See O’Bannon II, 802 F.3d at 1073 n.17. As we have
recounted, the district court gave reasoned consideration to the procompetitive effects achieved by each
type of challenged rule, ultimately concluding that the
NCAA “sufficiently show[ed] a procompetitive effect of
some aspects of the challenged compensation scheme,”
but not all. Alston, 375 F. Supp. 3d at 1103 (emphasis
added). By contrast, in O’Bannon, the district court
erred at step two because it considered the procompetitive benefits of hypothetical limits on large amounts of
compensation. See O’Bannon II, 802 F.3d at 1073 n.17
(“During the second step, the district court could only

40a
consider the benefits of the NCAA’s existing rule prohibiting NIL payments—it could not consider the potential benefits of an alternative rule (such as capping
large payments).”). Here, the NCAA has conceded that
its rules, in part, “prevent the receipt of unlimited pay”
unrelated to education. Dr. Isaacson also acknowledged
that the challenged rules prohibit unlimited pay. Thus,
the court did not err in assessing whether such rules
have procompetitive effects.
In short, the district court fairly found that
compensation limits preserve demand to the
they prevent unlimited cash payments akin to
sional salaries, but not insofar as they restrict
education-related benefits.16

NCAA
extent
profescertain

C
At the Rule of Reason’s third step, it is StudentAthletes’ burden to “make a strong evidentiary showing” that their proposed LRAs to the challenged
scheme “are viable.” Id. at 1074. “[T]o be viable,” an
alternative “must be ‘virtually as effective’ in serving
the procompetitive purposes of the NCAA’s current
rules, and ‘without significantly increased cost.’” Id.
(quoting Cty. of Tuolumne v. Sonora Cmty. Hosp., 236
16

The NCAA asserts that the district court proceeded from
the “simply fictional” premise that the dividing line between student-athletes and professionals is that the latter may receive “unlimited pay.” In context, the district court was using the term “unlimited pay” as shorthand for payments that run the risk of eroding consumer perception of student-athletes as students—that is,
cash payments unrelated to education and akin to professional
salaries. The NCAA’s own expert used that shorthand in surveying consumer attitudes toward an “unlimited payments scenario,”
where “a college could pay a student-athlete any amount it wanted
to, without any limit, for playing college sports.”

41a
F.3d 1148, 1159 (9th Cir. 2001)). Where “a restraint is
patently and inexplicably stricter than is necessary to
accomplish all of its procompetitive objectives, an antitrust court can and should invalidate it and order it replaced with [an LRA].” Id. at 1075.
The LRA identified by the district court would
prohibit the NCAA from (i) capping certain educationrelated benefits17 and (ii) limiting academic or graduation awards or incentives below the maximum amount
that an individual athlete may receive in athletic participation awards, while (iii) permitting individual conferences to set limits on education-related benefits. See
Alston, 375 F. Supp. 3d at 1087. The district court did
not clearly err in determining that this LRA would be
“‘virtually as effective’ in serving the procompetitive
purposes of the NCAA’s current rules,” and may be
implemented without “significantly increased cost.”
See O’Bannon II, 802 F.3d at 1074 (internal citation
omitted).
1
The district court reasonably concluded that uncapping certain education-related benefits would preserve consumer demand for college athletics just as
well as the challenged rules do. Such benefits are easily
17

Those benefits are the following: “computers, science
equipment, musical instruments and other tangible items not included in the cost of attendance calculation but nonetheless related
to the pursuit of academic studies; post-eligibility scholarships to
complete undergraduate or graduate degrees at any school; scholarships to attend vocational school; tutoring; expenses related to
studying abroad that are not included in the cost of attendance
calculation; and paid post-eligibility internships.” In re NCAA
Athletic Grant-In-Aid Cap Antitrust Litig., 2019 WL 1593939, at
*1.

42a
distinguishable from professional salaries, as they are
“connect[ed] to education”; “their value is inherently
limited to their actual costs”; and “they can be provided
in kind, not in cash.” Alston, 375 F. Supp. 3d at 1102.
And, as already detailed, the record furnishes ample
support for the district court’s finding that the provision of education-related benefits has not and will not
repel college sports fans.
The district court drew an apt analogy between the
LRA upheld in O’Bannon II and the LRA it identified
here: Both athletic scholarships for the COA and education-related benefits “cover legitimate educationrelated costs.” Id. at 1105. Indeed, in affirming the district court’s order insofar as it raised the grant-in-aid
cap to the COA, the O’Bannon II panel noted
Dr. Emmert’s testimony that this alternative would not
harm demand “because all the money given to students
would be going to cover their ‘legitimate costs’ to attend school.” O’Bannon II, 802 F.3d at 1075. In reference to this litigation, Dr. Emmert similarly announced
the NCAA’s approval of the court’s order to the extent
that it would foster competition among conferences and
schools “over who can provide the best educational experience”—”an inherently good thing.” Associated
Press, Emmert: Ruling reinforced fundamentals of
NCAA, ESPN, Apr. 4, 2019, available at
https://tinyurl.com/emmert-NCAA/.
Dr. Emmert’s comment is consistent with the record. As in O’Bannon II, the NCAA presented no evidence that demand will suffer if schools are free to reimburse education-related expenses of inherently limited value. Indeed, its evidence was to the contrary.
For instance, in testifying about a University of Nebraska program that permits student-athletes to receive up to $7,500 in post-eligibility aid (for study-

43a
abroad expenses, scholarships, and internships), the
University’s former chancellor conceded that such benefits “relate to the educational enterprise” and, thus, do
not erode demand. When asked about the propriety of
above-COA compensation, the current MAC commissioner similarly testified that the “key” is “linking”
payments to the “pursuit of the educational opportunities of the individual involved.” The LRA fashioned by
the district court achieves that link.
In light of this evidence, the district court reasonably concluded that market competition in connection
with education-related benefits will only reinforce consumers’ perception of student-athletes as students,
thereby preserving demand. See Alston, 375 F. Supp.
3d at 1089 (observing that NCAA’s “own witnesses”
testified that “consumer demand for [D1] basketball
and FBS football is driven largely by consumers’ perception that student-athletes are, in fact, students”).
Moreover, no evidence in the record substantiates
the NCAA’s concerns that certain benefits permissible
under the LRA, if uncapped, will become vehicles for
payments that are virtually indistinguishable from a
professional’s salary. These concerns are premised on
an unreasonably expansive reading of the injunction,
including its requirement that the NCAA permit reimbursement for “tangible items not included in the
[COA] calculation but nonetheless related to the pursuit of academic studies.” In re NCAA Athletic GrantIn-Aid Cap Antitrust Litig., 2019 WL 1593939, at *1.
We construe injunctions in “context” and “so as to
avoid … absurd result[s].” Gathright v. City of Portland, 439 F.3d 573, 581 (9th Cir. 2006). The context
here makes plain that it “cannot have been the district
court’s intent,” id., for uncapped benefits to be vehicles
for unlimited cash payments. Instead, it expressly en-

44a
visioned “non-cash education-related benefits” for “legitimate education-related costs,” not luxury cars or
expensive musical instruments for students who are
not studying music. Alston, 375 F. Supp. 3d at 1105
(emphasis added). Thus, properly construed, the injunction does not permit the type of unlimited cash
payments asserted by the NCAA. Further, as the district court properly concluded, it is doubtful that a consumer could mistake a post-eligibility internship for a
professional athlete’s salary, where the former is necessarily divorced from participation in college athletics.
The NCAA’s challenges to the evidence underlying
this LRA are likewise unavailing. To be sure, neither
the survey nor Dr. Rascher’s observations regarding
the Nebraska program purport to reflect the effect that
nationwide education-related benefits, implemented in
the aggregate, would have on consumer demand. But
the district court did not rely exclusively on this evidence. Under the deferential standard of review required here, we must examine the record “in its entirety.” Alexander, 106 F.3d at 877. The NCAA fails to
explain why the cumulative evidence, which included
demand analyses regarding the growth of NCAA revenue alongside the expansion of SAF and AEF payments for education-related expenses, was insufficient.
And though the record does not reflect whether an
athlete has ever received $5,600 in aggregate athletic
participation awards, the district court reasonably concluded that permitting student-athletes to receive up to
that amount in academic or graduation awards and incentives will not erode consumer demand. See Alston,
375 F. Supp. 3d at 1072 (citing Dr. Elzinga’s testimony
that a player on a successful team could obtain $5,600 in
cumulative awards under existing rules). The district
court had before it (and fairly credited) evidence that

45a
demand would withstand even higher caps on such
awards and incentives. See id. at 1080 (discussing Student-Athletes’ survey, which indicated that consumers
would continue to view and attend college sports
events even if student-athletes received academic or
graduation incentive payments of up to $10,000); see
also id. at 1074, 1102, n.42 (observing that NCAA’s
30(b)(6) witness was unable to explain the NCAA’s reason for limiting Senior Scholar-Athlete Awards to two
students per year and a value of $10,000). The NCAA’s
objection to the $5,600 cap rings especially hollow considering that it does not cap individual academic or
graduation awards drawn from the AEF or SAF. See
id. at 1072 n.15.18
Finally, the NCAA contends that the district court
engaged in improper judicial price setting by tying the
cap on academic and graduation awards and incentives
to the cap on aggregate athletic participation awards.
The Supreme Court has remarked that courts are “ill
suited” to identify terms of dealing between competitors, including a product’s “proper price.” Verizon
Commc’ns Inc. v. Law Offices of Curtis V. Trinko,
LLP, 540 U.S. 398, 408 (2004). But the district court
did not fix the value of these academic awards: The
task of setting their value to protect demand, by adjusting the aggregate value of athletic participation
awards, remains in the NCAA’s court. See Alston, 375
F. Supp. 3d at 1107.
18

The $5,600 cap on academic achievement awards and the
$5,000 cap on deferred NIL compensation that the panel majority
struck down in O’Bannon II may be “remarkably close” as a numerical matter, but they are different where it counts: Unlike deferred NIL compensation, academic achievement awards are
plainly education-related and, thus, reinforce the demandpreserving perception of student-athletes as students.

46a
2
The district court did not clearly err in finding that
this LRA will not result in significantly increased costs.
The district court reasoned that enjoining NCAA caps
on most education-related benefits will actually save
the NCAA resources that it would have otherwise
spent on enforcing those caps. Id. at 1090. Commonsense supports that determination, as does the record.
Moreover, though the injunction permits the
NCAA to regulate, to an extent, academic and graduation awards and incentives, and conferences to regulate
all education-related benefits, there is no reason to believe that such regulation, if pursued, will result in significantly increased costs. The NCAA does not dispute
that it and its conferences have existing rulemaking
and enforcement infrastructure to achieve such regulation. See id. at 1090 n.32 (noting NCAA’s recent creation of enforcement body to adjudicate violations of
“complex” NCAA rules, including the “prioritiz[ation
of] academics and the well-being of college athletes”
(internal citation omitted); see also id. (noting that conferences are legislative bodies under the Bylaws).
The court’s findings at step three are supported by
the record, and certainly not clearly erroneous.
V
The final question remaining is whether the district
court’s injunction goes too far or not far enough in enjoining the NCAA’s unlawful conduct. In the NCAA’s
view, the injunction is impermissibly vague, in violation
of Federal Rule of Civil Procedure 65(d) (“Rule 65(d)”),
and usurps the association’s role as the “superintend[ent]” of college sports, O’Bannon II, 802 F.3d at

47a
1074. On cross-appeal, Student-Athletes urge that the
district court should have enjoined all NCAA compensation limits, including those on payments untethered
to education. In our view, the district court struck the
right balance in crafting a remedy that both prevents
anticompetitive harm to Student-Athletes while serving the procompetitive purpose of preserving the popularity of college sports. Thus, we neither vacate nor
broaden the injunction, but affirm.
A
Rule 65(d) reflects the “basic principle” that “those
against whom an injunction is issued should receive fair
and precisely drawn notice of what the injunction actually prohibits.” Fortyune v. Am. Multi-Cinema, Inc.,
364 F.3d 1075, 1086–87 (9th Cir. 2004) (internal citation
omitted). “[W]e will not set aside injunctions under
Rule 65(d) ‘unless they are so vague that they have no
reasonably specific meaning.’” Id. at 1087 (internal citation omitted). The challenged injunction clears this
hurdle.
The district court enjoined the NCAA from limiting enumerated “compensation and benefits related to
education,” In re NCAA Athletic Grant-In-Aid Cap
Antitrust Litig., 2019 WL 1593939, at *1 (listing computers, science equipment, musical instruments, etc.).
The NCAA does not claim confusion as to the meaning
of any of these items. Instead, it stakes its Rule 65(d)
objection on the injunction’s reference to “other tangible items not included in the [COA] but nonetheless related to the pursuit of academic studies.” Id. When
read in context, following a list of specific types of education-related equipment, this language is reasonably
specific. And unlike in Columbia Pictures Industries,
Inc. v. Fung, a copyright infringement case on which

48a
the NCAA relies, the injunction here does not make
cryptic reference to “general[]” or “wide[spread]” understanding and knowledge of technical terms. 710
F.3d 1020, 1048 (9th Cir. 2013).
Nor did the district court impermissibly wrest control of college sports from the NCAA by empowering
itself to determine the types of benefits that qualify as
“related to” education, instead of “leaving th[at] task”
to “the institutions experienced in and responsible for
providing education.” The NCAA does not (nor can it
reasonably) dispute that the benefits enumerated in the
injunction are plainly related to academics. What is
more, the injunction invites the NCAA to promulgate a
definition of “related to education,” based on its institutional expertise, subject to the court’s approval. See In
re NCAA Athletic Grant-In-Aid Cap Antitrust Litig.,
2019 WL 1593939, at *1. This allowance does not constitute judicial usurpation by a long shot.
In sum, we uphold the injunction against the
NCAA’s challenges.
B
If the district court had concluded, as StudentAthletes contend, that NCAA limits on compensation
unrelated to education unreasonably restrain trade,
then it should have enjoined those limits. See 15 U.S.C.
§§ 4, 25 (conferring jurisdiction on federal courts to
“prevent and restrain violations” of antitrust law ); see
also Ford Motor Co. v. United States, 405 U.S. 562,
577–78 (1972) (“Antitrust relief should unfetter a market from anticompetitive conduct.” (emphasis added)).
The problem for Student-Athletes is that the court did
not conclude as much; instead, it determined that

49a
NCAA limits on education-related compensation are
the only challenged rules that flunk the Rule of Reason.
Although the district court found that all the challenged rules have an anticompetitive effect, Alston, 375
F. Supp. 3d at 1067–70, a finding of anticompetitive
harm at step one does not end the inquiry. A defendant
may escape antitrust liability despite inflicting harm if
a court determines that the restraint has a procompetitive effect, and a proposed LRA eliminating that restraint is not viable. See, e.g., O’Bannon II, 802 F.3d at
1070, 1076–79 (finding that rules prohibiting NIL compensation had significant anticompetitive effects, but
vacating portion of injunction requiring deferred compensation for NILs after concluding that this alternative was not a viable LRA).
As previously stated, the district court concluded,
at step two, that the NCAA satisfied its burden of
showing that “[r]ules that prevent unlimited payments”—”unrelated to education” and “akin to salaries
seen in professional sports leagues”—serve the procompetitive end of distinguishing college from professional sports. Alston, 375 F. Supp. 3d at 1083. And at
step three, it rejected Student-Athletes proposed
LRAs, which would have eliminated such limits, reasoning:
[A]t least some conferences would allow their
schools to offer student-athletes unlimited cash
payments that are unrelated to education.
Such payments could be akin to those observed
in professional sports leagues. Payments of
that nature could diminish the popularity of college sports as a product distinct from professional sports.

50a
Id. at 1087. Contrary to Student-Athletes’ understanding, this analysis reflects the judgment that limits on
cash compensation unrelated to education do not, on
this record, constitute anticompetitive conduct and,
thus, may not be enjoined.
This judgment was adequately reasoned and rests
on neither factual nor legal error. The district court
acknowledged the theoretical possibility that “conference officials, as rational economic actors, would not act
contrary to their members’ aggregate economic interests” by paying demand-reducing levels of compensation. Id. But it reasonably perceived a risk of “miscalculations” by conferences during an “inevitable trialand-error phase.” Id. The district court did not clearly
err in declining to assume that conferences, in reality,
would act rationally.
The record indicates that the Power Five schools
have exercised their autonomy in recent years to expand benefits unrelated to education and that conferences and schools have provided largely discretionary
SAF and AEF payments for a wide range of expenses
unrelated to education—both without harming consumer demand. But the district court reasonably concluded
that this evidence may not reliably indicate that individual conferences would regulate payments in a demand-preserving manner absent any restrictions: The
autonomy structure permits the Power Five to collectively adopt compensation-related legislation, in line
with O’Bannon II’s guidance that some degree of “mutual agreement” is necessary to make the college sports
product available. See 802 F.3d at 1069 (quoting Bd. of
Regents, 468 U.S. at 102). And the NCAA currently
limits the use of SAF funds to payments that are distinguishable from a professional’s salary in that they
“meet[] financial needs that arise in conjunction with

51a
participation in intercollegiate athletics, enrollment in
academic curriculum or to recognize academic achievement.”
Student-Athletes’ claims of legal error are likewise
unpersuasive. They cite no support for their position
that a court “should not simply import the [LRA] as its
injunction.” Indeed, O’Bannon II holds otherwise:
“Where, as here, a restraint is patently and inexplicably stricter than is necessary to accomplish all of its
procompetitive objectives, an antitrust court can and
should invalidate it and order it replaced with a [viable
LRA].” Id. at 1075 (emphasis added).
Finally, Student-Athletes argue that the NCAA
may no longer rely on O’Bannon II’s conclusion that
NCAA limits on cash payments untethered to education are critical to preserving the distinction between
college and professional sports now that it has “endorse[d]” the very “same NIL benefits” at issue there.
This argument is premature. As it stands, the NCAA
has not endorsed cash compensation untethered to education; instead, it has undertaken to comply with the
FPP Act in a manner that is consistent with O’Bannon
II—that is, by loosening its restrictions to permit NIL
benefits that are “tethered to education.” Fed. and
State Leg. Working Grp. Report 4 (Oct. 23, 2019),
available at https://tinyurl.com/working-grp-report; see
also Test. of Dr. Mark Emmert 6 (Feb. 11, 2020), available at https://tinyurl.com/Emmert-Test-y. Accordingly, we disagree that the NCAA’s response to the FPP
Act militates in favor of enjoining all NCAA compensation limits.19
19

Student-Athletes further contend that the FPP Act and
similar proposed legislation in other states indicate a “consensus”
that student-athletes’ receipt of payments unrelated to education

52a
VI
To repeat my observation in O’Bannon II: “The
national debate about amateurism in college sports is
important. But our task as appellate judges is not to
resolve it. Nor could we. Our task is simply to review
the district court judgment through the appropriate
lens of antitrust law and under the appropriate standard of review.” O’Bannon II, 802 F.3d at 1083 (Thomas, C.J., concurring in part and dissenting in part).
For the foregoing reasons, we hold that the district
court properly concluded that NCAA limits on education-related benefits do not “play by the Sherman Act’s
rules.” Id. at 1079. Accordingly, we affirm its liability
determination and injunction in all respects.
AFFIRMED.

will not dampen consumer interest in college sports. However, the
Act’s legislative history suggests that concerns about fundamental
fairness, rather than considerations regarding demand, drove its
enactment. See, e.g., S.B. 206 Assembly Floor Analysis 2 (Sept. 4,
2019), available at https://tinyurl.com/SB-206-AFA.

53a
M. SMITH, Circuit Judge, concurring:
Because I am bound by our decision in O’Bannon v.
NCAA (O’Bannon II), 802 F.3d 1049 (9th Cir. 2015), I
join the panel opinion in full. I write separately to express concern that the current state of our antitrust
law reflects an unwitting expansion of the Rule of Reason inquiry in a way that deprives the young athletes in
this case (Student-Athletes) of the fundamental protections that our antitrust laws were meant to provide
them.
Student-Athletes are talented, hardworking individuals who have dedicated their young lives to excelling in specific sports. As amici describe, StudentAthletes work an average of 35–40 hours per week on
athletic duties during their months-long athletic seasons, and most work similar hours during the off-season
to stay competitive. At the same time, most of them do
their best to succeed academically, managing to devote
on average another 40 hours per week to classes and
study. Nevertheless, their coaches and others in the
Division 1 ecosystem make sure that Student-Athletes
put athletics first, which makes it difficult for them to
compete for academic success with students more focused on academics. They are often forced to miss
class, to neglect their studies, and to forego courses
whose schedules conflict with the sports in which they
participate. In addition to lessening their chances at
academic success because of the time they must devote
to their sports obligations, Student-Athletes are often
prevented from obtaining internships or part-time paying jobs, and, as a result, often lack both income and
marketable work experience. Meanwhile, the grueling
hours and physical demands of college sports carry significant health risks, such as sleep deprivation, stress,
broken bones, and even potential brain damage. De-

54a
spite their best efforts, however, fewer than 5% of Student-Athletes will ever play at a professional level, and
most of those lucky few will stay in the pros only a few
short years. In short, the college years are likely the
only years when young Student-Athletes have any realistic chance of earning a significant amount of money or
achieving fame as a result of their athletic skills.
For all their dedication, labor, talent, and personal
sacrifice, Student-Athletes go largely uncompensated.
They may receive tuition for an academic experience
that they cannot take full advantage of, minimal living
expenses, and some lavish perks that do nothing for
their present or future financial security. However,
that is not because their athletic services have little
value. On the contrary, the NCAA and Division 1 universities make billions of dollars from ticket sales, television contracts, merchandise, and other fruits that
directly flow from the labors of Student-Athletes. A
number of Division 1 head football coaches take home
multimillion-dollar salaries that exceed those of many
NFL coaches. Moreover, contrary to the NCAA’s representations about the importance of “amateurism,” the
evidence in this case shows that college sports viewership has only increased since we reduced some limitations on student-athlete compensation in O’Bannon II.
See Panel Op. at 11–13.
My reaction to our application of federal antitrust
law to the case of the Student-Athletes is similar Justice Alito’s reaction to the majority’s view in Collins v.
Virginia, 584 U.S. ___, 138 S. Ct. 1663 (2018). Said he:
“An ordinary person of common sense would react to
the Court’s decision the way Mr. Bumble famously responded when told about a legal rule that did not comport with the reality of everyday life. If that is the law,
he exclaimed, ‘the law is a ass—a idiot.’” Id. at 1681

55a
(Alito, J., dissenting) (quoting C. Dickens, Oliver Twist
277 (1867)).
The treatment of Student-Athletes is not the result
of free market competition. To the contrary, it is the
result of a cartel of buyers acting in concert to artificially depress the price that sellers could otherwise receive
for their services. Our antitrust laws were originally
meant to prohibit exactly this sort of distortion.
The Sherman Act and related antitrust laws were
designed to preserve our economic freedom. United
States v. Topco Assocs., Inc., 405 U.S. 596, 610 (1972).
Under those laws,
the freedom guaranteed each and every business, no matter how small, is the freedom to
compete—to assert with vigor, imagination,
devotion, and ingenuity whatever economic
muscle it can muster. Implicit in such freedom
is the notion that it cannot be foreclosed with
respect to one sector for the economy because
certain private citizens or groups believe that
such foreclosure might promote greater competition in a more important sector of the economy.
Id. The Sherman Act thus “protect[s] the economic
freedom of participants in the relevant market.” Am.
Ad Mgmt., Inc. v. Gen. Tel. Co. of Cal., 190 F.3d 1051,
1057 (9th Cir. 1999) (quoting Associated Gen. Contractors of Cal., Inc. v. Cal. State Council of Carpenters,
459 U.S. 519, 538 (1983)). Those protections extend to
sellers of goods and services—such as StudentAthletes—to the same extent they do buyers, consumers, or competitors. Mandeville Island Farms, Inc. v.
Am. Crystal Sugar Co., 334 U.S. 219, 235 (1948). “The
Act is comprehensive in its terms and coverage, pro-

56a
tecting all who are made victims of the forbidden practices by whomever they may be perpetrated.” Id. (emphasis added).
Section 1 of the Sherman Act, at issue here, prohibits agreements that unreasonably restrain trade.
15 U.S.C. § 1; Standard Oil Co. of N.J. v. United States,
221 U.S. 1, 58 (1911). In evaluating alleged violations of
Section 1 that fall outside the bounds of several nowestablished per se rules, courts apply the Rule of Reason to determine the effect of a given restraint on competition. “[T]he inquiry mandated by the Rule of Reason is whether the challenged agreement is one that
promotes competition or one that suppresses competition.” Nat’l Soc’y of Prof’l Eng’rs v. United States, 435
U.S. 679, 691 (1978). Importantly, it is not the purpose
of the Rule of Reason analysis “to decide whether a policy favoring competition is in the public interest, or in
the interest of the members of an industry. Subject to
exceptions defined by statute, that policy decision has
been made by the Congress.” Id. at 692.
The Rule of Reason entails a three-step analysis, of
which the starting point is to identify the market in
which the restraint occurs. See Big Bear Lodging
Ass’n v. Snow Summit, Inc., 182 F.3d 1096, 1104–05
(9th Cir. 1999). At Step One, the “plaintiff bears the
initial burden of showing that the restraint produces
significant anticompetitive effects within” that market.
O’Bannon II, 802 F.3d at 1070 (quoting Tanaka v.
Univ. of S. Cal., 252 F.3d 1059, 1063 (9th Cir. 2001)). If
the plaintiff meets that burden, at Step Two, “the defendant must come forward with evidence of the restraint’s procompetitive effects.” Id. (quoting Tanaka,
252 F.3d at 1063). Finally, at Step Three, “the plaintiff
must … show that any legitimate objectives can be

57a
achieved in a substantially less restrictive manner.” Id.
(quoting Tanaka, 252 F.3d at 1063).
Despite confining the Step One analysis of anticompetitive effects to the defined market, courts have
not consistently limited the scope of the Step Two analysis in the same way. Some, including our court, have
permitted defendants to offer procompetitive effects in
a collateral market as justification for anticompetitive
effects in the defined market. In NCAA v. Board of
Regents of Univ. of Oklahoma (Board of Regents), 468
U.S. 85 (1984), for example, the Supreme Court considered whether preserving demand for tickets to live college football games could justify anticompetitive restraints in the market for live college football television. Id. at 95–96, 115–17. The district court defined
the relevant market at Step One as “live college football television.” Id. at 95. The NCAA had restrained
competition in this market by fixing the price of telecasts, negotiating exclusive contracts with two television networks, and artificially limiting the number of
televised games. Id. at 96. Among other alleged procompetitive justifications, all of which the Court ultimately rejected, the NCAA argued that its television
plan promoted consumer demand for live attendance at
college football games. Id. at 115. The Court rejected
this argument for three reasons: (1) individual schools
could protect live attendance at the specific game being
televised by negotiating a regional blackout, without
acting in concert with other schools; (2) no evidence
supported the NCAA’s theory that limiting televised
games actually promoted live attendance, especially
since games would still be broadcast at all hours of the
day; and (3) the NCAA’s live attendance theory was
“not based on a desire to maintain the integrity of college football as a distinct and attractive product, but

58a
rather on a fear that … ticket sales for most college
games are unable to compete in a free market”—”a justification that is inconsistent with the basic policy of the
Sherman Act.” Id. at 115–17. The Supreme Court did
not, however, say that the live attendance justification
failed because courts categorically cannot consider procompetitive benefits outside the defined market.
Our relevant precedents follow a similar analysis.
In O’Bannon II, we held that preserving consumer demand for college sports was a legitimate procompetitive justification for anticompetitive restraints on compensation for student-athletes’ names, images, and
likenesses in the market among colleges for studentathletes’ services. 802 F.3d at 1069–73. The district
court had defined the relevant market at Step One as
the “college education market,” “wherein colleges compete for the services of athletic recruits by offering
them scholarships and various amenities, such as coaching and facilities.” Id. at 1070. The NCAA had restrained competition in this market by preventing
member schools from paying student athletes for the
use of their names, images, and likenesses. Id. Contrary to two of the NCAA’s proffered justifications, we
accepted the district court’s factual determinations that
the restraint did “not promote competitive balance,”
and did “not increase output in the college education
market.” Id. at 1072. We also rejected the NCAA’s argument that, by preserving the character of college
sports, the restraint “‘widen[ed]’ the choices ‘available
to athletes.’” Id. (quoting Board of Regents, 468 U.S. at
102). “As the district court found, it is primarily ‘the
opportunity to earn a higher education’ that attracts
athletes to college sports rather than professional
sports, and that opportunity would still be available to
student-athletes if they were paid some compensation

59a
in addition to their athletic scholarships.” Id. at 1073.
Yet, without tying the Step 2 analysis to the “college
education market,” we held that the NCAA had
demonstrated that the restraint served the procompetitive purpose of preserving “the amateur nature of collegiate sports [that] increases their appeal to consumers.” Id. Accordingly, we proceeded to Rule of Reason
Step Three, wherein we upheld the district court’s less
restrictive alternative of allowing grant-in-aid up to the
full cost of attendance, but we vacated the district
court’s less restrictive alternative of allowing “small”
amounts of deferred cash compensation as incompatible
with amateurism. Id. at 1074–79.
Other courts, however, have rejected procompetitive justifications outside of the defined market. For
example, in Smith v. Pro Football, Inc., 593 F.2d 1173
(D.C. Cir. 1978), a former NFL player challenged rules
governing the draft of graduating college players under
which “no team was permitted to negotiate prior to the
draft with any [eligible] player … and no team could
negotiate with (or sign) any player selected by another
team in the draft.” Id. at 1176. The D.C. Circuit affirmed the finding that the draft had anticompetitive
effects. The draft eliminated competition by “inescapably forc[ing] each seller of football services to deal with
one, and only one buyer, robbing the seller, as in any
monopsonistic market, of any real bargaining power.”
Id. at 1185.
At Step Two of the Rule of Reason analysis, the
NFL asserted that the draft rules were procompetitive
because they promoted “competitive balance” among
the league’s teams, in turn “producing better entertainment for the public, higher salaries for the players,
and increased financial security for the clubs.” Id. at
1186. The court rejected those justifications because

60a
they did not have procompetitive effects in the market
for players’ services. “The draft is ‘procompetitive,’ if
at all, in a very different sense from that in which it is
anticompetitive.” Id. “[W]hile [the draft] may heighten athletic competition and thus improve the entertainment product offered to the public, [it] does not increase competition in the economic sense of encouraging others to enter the market and to offer the product
at lower cost.” Id. The court concluded that the draft’s
anticompetitive and procompetitive effects were “not
comparable,” and thus it was “impossible to ‘net them
out’ in the usual rule-of-reason balancing.” Id.
Despite its ruling in Board of Regents, the Supreme Court has not squarely addressed the proper
scope of the Step Two analysis. And, although we conducted a similar analysis in O’Bannon II, neither have
we. In my view, the underlying purpose of the Sherman Act—promoting competition—counsels in favor of
conducting a more limited Rule of Reason analysis, as
the court in Smith did. Realistically, the Rule of Reason analysis is judicially administrable only if it is confined to the single market identified from the outset. If
the purpose of the Rule of Reason is to determine
whether a restraint is net procompetitive or net anticompetitive, accepting procompetitive effects in a collateral market disrupts that balancing. It weakens antitrust protections by permitting defendants to rely on
a broader array of justifications that promote competition, if at all, in collateral markets where the restraint
under analysis does not occur.
Jurists faced with weighing the anticompetitive effects in one market with the procompetitive effects in
another cannot simply “net them out” mathematically.
Smith, 593 F.2d at 1186. Rather, courts employing a
cross-market analysis must—implicitly or explicitly—

61a
make value judgments by determining whether competition in the collateral market is more important than
competition in the defined market. As the Supreme
Court has warned, this is not what the antitrust laws
invite courts to do. “If a decision is to be made to sacrifice competition in one portion of the economy for
greater competition in another portion this too is a decision that must be made by Congress and not by private forces or by the courts. Private forces are too
keenly aware of their own interests in making such decisions and courts are ill-equipped and ill-situated for
such decisionmaking.” Topco, 405 U.S. at 611.
Consider this case. The district court accepted the
relevant market as that for Student-Athletes’ “labor in
the form of athletic services in men’s and women’s Division I basketball and FBS football,” in which StudentAthletes “sell their athletic services to the schools that
participate in Division I basketball and FBS football in
exchange for grants-in-aid and other benefits and compensation permitted by NCAA rules.” In re NCAA
Athletic Grant-In-Aid Cap Antitrust Litig. (Alston),
375 F. Supp. 3d 1058, 1067 (N.D. Cal. 2019). At Step
One, the district court found that Student-Athletes had
established significant anticompetitive effects in the
market for their athletic services. The court concluded
that the NCAA rules “have the effect of artificially
compressing and capping student-athlete compensation
and reducing competition for student-athlete recruits
by limiting the compensation offered in exchange for
their athletic services.” Id. at 1068.
At Step Two, the court did not limit its consideration to the procompetitive effects of the compensation
limits in the market for Student-Athletes’ athletic services. Rather, it found that certain of the compensation
limits are procompetitive because they drive consumer

62a
demand for college sports by distinguishing collegiate
from professional athletics. Id. at 1083. In other
words, the court found that limiting Student-Athletes’
pay in the market for their services was justified because that restraint drove demand for the distinct
product of college sports in the consumer market for
sports entertainment. The court did not require that
the NCAA prove that this impact on consumer demand
had a corollary procompetitive impact on the market
for Student-Athletes’ services, that it “increase[d] output” or “‘widen[ed]’ the choices ‘available to athletes.’”
O’Bannon II, 802 F.3d at 1072 (quoting Board of Regents, 468 U.S. at 102). The court did not require that
the NCAA prove its compensation rules, within the defined market, “increase competition in the economic
sense of encouraging others to enter the market to offer the product at lower cost.” Smith, 593 F.2d at 1186.
It was enough for the NCAA to meet its Step Two burden that it could show (however feebly) a procompetitive effect in a collateral market.
Although the district court correctly applied our
precedents, the result of this analysis seems to erode
the very protections a Sherman Act plaintiff has the
right to enforce. Here, Student-Athletes are quite
clearly deprived of the fair value of their services. Alston, 375 F. Supp. 3d at 1068. As the district court
found, while the NCAA and its conferences generate
billions in revenue from college sports, they “have monopsony power to restrain student-athlete compensation in any way and at any time they wish, without any
meaningful risk of diminishing their market dominance.” Id. at 1063, 1070. Under the Rule of Reason
analysis we affirm today, so long as the NCAA cites
consumer demand for college sports, we allow it to artificially suppress competition for collegiate athletes’

63a
services by limiting their compensation. Instead of requiring the NCAA to explain how those limits promote
schools’ competition for athletes, we leave StudentAthletes with little recourse under the antitrust laws.
Student-Athletes are thus denied the freedom to compete and, in turn, “of compensation they would receive
in the absence of the restraints.” Id. at 1068.
Our Rule of Reason framework has shifted toward
this cross-market analysis without direct consideration
or a robust justification. It may be that scholars or litigants can develop a purely economic, mathematicallydefensible method for cross-market analysis that does
not depend on policy judgments that our antitrust laws
never meant to delegate to the courts. But we do not
currently have such a method, and it may equally be
the case that no such method is possible or desirable.
Lacking a robust justification, I fear that our crossmarket Rule of Reason analysis frustrates the very
purpose of the antitrust laws, in this case to the great
detriment of Student-Athletes. I hope our court will
reconsider this issue in a case that squarely raises it.

65a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
No. 14-md-02541 CW
IN RE: NATIONAL COLLEGIATE ATHLETIC
ASSOCIATION ATHLETIC GRANT-IN-AID
CAP ANTITRUST LITIGATION
Filed March 8, 2019
FINDINGS OF FACT AND
CONCLUSIONS OF LAW
INTRODUCTION
Plaintiffs are current and former student-athletes
who played men’s Division I Football Bowl Subdivision
(FBS) football and men’s and women’s Division I basketball during the relevant period. Defendants are the
National Collegiate Athletic Association (NCAA) and
eleven of its conferences1 that participate in FBS football and Division I basketball.
Plaintiffs challenge the current, interconnected set
of NCAA rules that limit the compensation they may
1

Conference Defendants are: Pac-12 Conference (Pac-12),
The Big Ten Conference, Inc. (Big Ten), The Big 12 Conference,
Inc. (Big 12), Southeastern Conference (SEC), and The Atlantic
Coast Conference (ACC) (collectively, the Power Five Conferences); American Athletic Conference (AAC), Conference USA,
Inc., MidAmerican Conference (MAC), Mountain West Conference, Sun Belt Conference, and Western Athletic Conference
(WAC).

66a
receive in exchange for their athletic services. Plaintiffs contend that these limits on compensation, which
are set and enforced by agreement of Defendants, violate federal antitrust law, because Plaintiffs would receive greater compensation in exchange for their athletic services in the absence of these artificial limits.
Defendants respond that the limits are procompetitive for two reasons. First, the limits help preserve the
demand for college sports because consumers value
amateurism as Defendants define it. Second, the rules
promote integration of student-athletes into their academic communities, which in turn improves the college
education they receive in exchange for their services.
The Court resolved certain of the issues relevant to
Plaintiffs’ claims on summary judgment, and presided
over a nonjury trial on the remaining issues.
The Court finds and concludes that Defendants
agreed to and did restrain trade in the relevant market,
affecting interstate commerce, and that the challenged
limits on student-athlete compensation produce significant anticompetitive effects. The Court further finds
that the only procompetitive effect that Defendants established, namely preventing unlimited cash payments,
unrelated to education, similar to those observed in
professional sports, can be achieved through less restrictive means. Specifically, the Court finds that an
alternative compensation scheme that would allow limits on the grant-in-aid scholarships at not less than the
cost of attendance and limits on compensation and benefits unrelated to education, but that would generally
prohibit the NCAA from limiting education-related
benefits, would be virtually as effective as the challenged rules in achieving the only procompetitive effect
that Defendants have shown here. The only education-

67a
related compensation that the NCAA could limit under
this alternative would be academic or graduation
awards or incentives, provided in cash or cashequivalent. The limit imposed by the NCAA could not
be less than its current or future caps on athletics participation awards.
Based on the findings of fact and conclusions of law
set forth below, the Court will enter separately a permanent injunction barring the restraints that the Court
finds to be overly and unnecessarily restrictive.
FINDINGS OF FACT2
I.

BACKGROUND

The NCAA, then known as the Intercollegiate Athletic Association (IAA), was founded in 1905 to regulate
college football. Today, the NCAA and its members
collectively issue rules that govern many aspects of
athletic competitions among NCAA member schools.
Joint Stipulation of Facts (Stip. Facts) ¶ 1, Docket No.
1098.
The NCAA comprises three Divisions. Id. ¶ 2. Of
the NCAA’s eleven hundred schools, approximately
three hundred and fifty schools compete in Division I.
Id. ¶ 5. Division I itself is divided, for the purposes of
football competition, into two subdivisions, one of which
is the FBS. Id. ¶ 6. There are thirty-two conferences in
Division I. Id. ¶ 7. Conferences may enact and enforce
2

Defendants moved to strike portions of Plaintiffs’ closing
brief, Docket No. 1125, on the ground that they improperly rely on
expert testimony to support substantive assertions of fact. The
Court will resolve this motion by way of a separate order. The
findings of fact in this order do not rely on evidence that is inadmissible.

68a
conference-specific rules, but these must be consistent
with the NCAA’s own rules. Id.
The NCAA rules governing participation in Division I generally are enacted by the Division I Board of
Directors. Id. ¶¶ 11, 12. The rules that Plaintiffs challenge here govern a small subset of the conduct that
the NCAA regulates.
The NCAA generates approximately one billion
dollars in revenues each year. See Defs.’ Ex. 0532
(D0532); Pls.’ Ex. 0030 (P0030). Its revenues have increased consistently over the years. See P0030. Most
of the NCAA’s revenues are derived from the Division
I men’s basketball post-season tournament known as
March Madness, and the media and marketing rights
relating to it. Trial Transcript (Tr.) (McNeely) at 2134;
D0532 at 0006. The total value of the current multiyear media contracts for March Madness, which extend
to 2032, is $19.6 billion. See P0045 at 0001-02. Each
year, the NCAA distributes about half of its revenues
to the conferences. Joint Ex. 0021 (J0021); P0030.
Division I conferences negotiate their own contracts and generate their own revenues from regularseason basketball and regular- and post-season FBS
football. See, e.g., Dr. Daniel Rascher Direct Testimony
Declaration ¶¶ 169-172, Docket No. 865-3. The FBS
conferences have a multi-year media contract with
ESPN for the College Football Playoff, the total value
of which is $5.64 billion. See P0045 at 0006-07. The five
conferences with the largest revenues, known as the
Power Five Conferences, each generate hundreds of
millions of dollars in revenues per year, in addition to
the money that the NCAA distributes to them. See
P0031; P0032; P0033; P0036; see also P0037 (showing
that SEC made more than $409 million in revenues

69a
from television contracts alone in 2017, with its total
conference revenues exceeding $650 million that year).
The revenues of the Power Five have increased over
time and are projected to continue to increase. See
P0031; P0032; P0033; P0036; P0037. Conferences distribute most of their revenues to their member schools.
Among the areas that the NCAA regulates are the
compensation and benefits that can be afforded to student-athletes. The 1906 bylaws of the IAA, as the
NCAA was originally known, expressly prohibited student-athletes from receiving any compensation whatsoever, even athletics scholarships, in exchange for their
participation in college sports. In 1956, the NCAA enacted a new set of rules permitting schools to award
athletics scholarships, known as “grants-in-aid,” to student-athletes. Stip. Facts ¶ 25, Docket No. 1098. These
rules imposed a limit on the size of the grant-in-aid that
schools were permitted to offer. Id. The limit precluded student-athletes from receiving any financial aid beyond that needed for commonly accepted educational
expenses, which were tuition, fees, room and board,
books, and cash for incidental expenses such as laundry.
In 1976, the cash for incidental expenses was disallowed by way of an amendment to the definition of the
grant-in-aid that limited the scope of commonly accepted educational expenses to include only “tuition and
fees, room and board and required course-related
books.” Stip. Facts ¶ 26, Docket No. 1098. Cash for incidental expenses related to school attendance, such as
laundry, supplies, and transportation, was not included
in the grant-in-aid limit. This definition of a grant-inaid remained in place until August 2015. See Stip.
Facts ¶ 10, Docket No. 1093.

70a
On August 7, 2014, the NCAA adopted a new legislative process for the Power Five, which is referred to
as the Autonomy structure.3 It allows those five conferences collectively to adopt legislation in specific areas, which include limits on grants-in-aid. Soon afterward, in January 2015, the Power Five voted to increase the overall limit on grants-in-aid, from the limit
then in place, to a higher limit based on the cost of attendance at each school. See O’Bannon v. Nat’l Collegiate Athletic Ass’n, 802 F.3d 1049, 1054-55 (9th Cir.
2015) (O’Bannon II), cert. denied, 137 S. Ct. 277 (2016).
This became effective on August 1, 2015. The revised
“full grant-in-aid” comprises “tuition and fees, room
and board, books and other expenses related to attendance at the institution up to the cost of attendance[.]”
Division I Bylaw 15.02.6; Stip. Facts ¶ 10, Docket No.
1093. Cost of attendance is calculated by each school in
accordance with federal regulations. J1517 at 0002;
Stip. Facts ¶¶ 3-6, Docket No. 1093. It is generally several thousand dollars higher than the prior grant-in-aid
limit because it includes cash for incidental expenses
related to the cost of attendance. See Stip. Facts ¶ 5,
Docket No. 1093.
Compensation and benefits in addition to the full
grant-in-aid, some related and some unrelated to education, are also allowed and regulated by the NCAA.
These include benefits the NCAA denominates “incidental to athletics participation,” as well as money from
the NCAA’s Student Assistance Fund and Academic
Enhancement Fund, government grants, and payments
from outside entities. Other compensation is generally
prohibited.
3

See NCAA Constitution, Article 5.3.2.1.2; Stip. Facts ¶ 17,
Docket No. 1098.

71a
In 2009, a group of Division I male basketball and
FBS football student-athletes brought an antitrust
class action against the NCAA and its licensees to challenge the association’s rules preventing them from being paid by schools or other entities for the sale of licenses to use their names, images, and/or likenesses
(NIL) in videogames, live game telecasts, and other
footage.4 See O’Bannon v. Nat’l Collegiate Athletic
Ass’n, 7 F. Supp. 3d 955, 962-63 (N.D. Cal. 2014)
(O’Bannon I), aff’d in part, vacated in part, 802 F.3d
1049 (9th Cir. 2015). The rules challenged by the
O’Bannon plaintiffs related to the release, use, and licensing of NIL. The then-applicable maximum limit on
the grant-in-aid was discussed and implicated in the relief ordered by the Court, but the plaintiffs did not specifically challenge it in O’Bannon I. Some of the rules
challenged in the present case were challenged in
O’Bannon; others were not.
This Court held in O’Bannon I that the NCAA
rules challenged there violated Section 1 of the Sherman Act, 15 U.S.C. § 1. Id. at 963. The Court found
that the plaintiffs met their burden to show that the
NCAA had fixed the price of the student-athletes’ NIL
rights, which had significant anticompetitive effects in
4

The class in O’Bannon was defined as including “[a]ll current and former student-athletes residing in the United States
who compete on, or competed on, an NCAA Division I (formerly
known as ‘University Division’ before 1973) college or university
men’s basketball team or on an NCAA Football Bowl Subdivision
(formerly known as Division I-A until 2006) men’s football team
and whose images, likenesses and/or names may be, or have been,
included or could have been included (by virtue of their appearance in a team roster) in game footage or in videogames licensed or
sold by Defendants, their co-conspirators, or their licensees.”
O’Bannon II, 802 F.3d at 1055-56.

72a
the relevant market. Id. at 971-73, 988-93. On the
question of procompetitive justifications of the restraints, the Court found that the NCAA’s challenged
restrictions on student-athlete compensation played “a
limited role in driving consumer demand for FBS football and Division I basketball-related products.” Id. at
1001. The Court also found that the challenged rules
might facilitate the integration of student-athletes with
their academic communities. Id. at 1003.
The O’Bannon plaintiffs proposed alternatives they
asserted were less restrictive than the NCAA rules
they challenged. This Court found that two of these
proposed alternatives, which relied specifically on the
use of revenue derived from NIL licensing, constituted
“less restrictive means of achieving” the challenged
rules’ limited procompetitive effects. Id. at 982-84;
1004-07.
Accordingly, this Court issued an injunction barring the NCAA from enforcing any rules that would
prohibit its member schools and conferences from offering their FBS football and men’s Division I basketball
recruits compensation for the use of their NIL in addition to a full grant-in-aid as then defined. The Court
permitted the NCAA to implement rules capping the
amount of compensation that could be paid to studentathletes while they are enrolled in school as long as the
amount of the cap was not lower than the cost of attendance for students at that school. Id. at 1007-08.
The Court also required the NCAA to allow member
schools to deposit a limited share of NIL licensing revenue in trust for their student-athletes. Id. at 1008.
The Ninth Circuit affirmed the liability finding and the
remedy prohibiting the NCAA from limiting payment
of a share of NIL revenues to less than the cost of attendance. It vacated the remedy allowing a trust fund

73a
payment. O’Bannon II, 802 F.3d at 1074-79. By the
time the O’Bannon injunction went into effect, the
NCAA had already increased, through the Autonomy
structure, the grant-in-aid limit to the cost-ofattendance amount for all Division I student-athletes,
regardless of NIL use or revenue.
Plaintiffs in the present case are student-athletes
who played Division I FBS football and men’s and
women’s basketball between March 5, 2014, and the
present.5 Order Granting Motion for Rule 23(b)(2)
Class Certification (Class Cert. Order) at 1, Docket No.
305. The Court certified three injunctive relief classes
in the consolidated action under Federal Rule of Civil
Procedure 23(b)(2), each consisting of student-athletes
who would be offered or receive a full grant-in-aid during the pendency of this action.6 Id. at 4-5, 31.
5

The first of the actions that became a part of this consolidated case, Alston v. NCAA, Case No. 14-cv-01011, was filed on
March 5, 2014. Additional actions were filed in that year and in
2015. The United States Judicial Panel on Multidistrict Litigation
transferred actions filed in other districts to this Court pursuant to
28 U.S.C. § 1407. Plaintiffs in all of the actions, except Jenkins v.
NCAA, Case No. 14-cv-02758, filed a consolidated amended complaint. Docket No. 60.
6

The Division I FBS Football Class is defined as “[a]ny and
all NCAA Division I Football Bowl Subdivision (‘FBS’) football
players who, at any time from the date of the Complaint through
the date of the final judgment, or the date of the resolution of any
appeals therefrom, whichever is later, received or will receive a
written offer for a full grant-in-aid as defined in NCAA Bylaw
15.02.5, or who received or will receive such a full grant-in-aid.”
Class Cert. Order at 5, Docket No. 305. The Division I Men’s
Basketball Class and the Division I Women’s Basketball Class are
defined similarly. Id. In the Jenkins action, the Court certified
the men’s football and basketball classes; women’s basketball class
certification was not sought in that case. Id.

74a
II. AGREEMENT IN RESTRAINT
INTERSTATE COMMERCE

OF

TRADE AFFECTING

On summary judgment, the Court found that the
existence of an agreement (i.e., a contract, combination,
or conspiracy) restraining trade and affecting interstate commerce was undisputed. Defendants did not
contest evidence showing that (1) the compensation
limits that Plaintiffs challenge are enacted by agreement of Defendants and other NCAA members
through the NCAA’s legislative process and are embodied in NCAA rules published in the NCAA Division
I Manual; (2) Defendants enforce these rules by requiring all NCAA members to comply with them, and by
punishing violations; (3) the challenged rules affect interstate commerce, because they regulate transactions
between Plaintiffs and their schools in multiple states
nation-wide; and (4) these transactions are commercial
because they regulate an essential component of Division I basketball and FBS football. Order Granting in
Part and Denying in Part Cross-Motions for Summary
Judgment (Summary Judgment Order) at 15, Docket
No. 804.
The Court also found on summary judgment that
the challenged NCAA rules restrain trade in that they
limit the compensation that student-athletes may receive for their athletic services. These limits cap athletics-based grants-in-aid at the cost of attendance, but
they also allow and fix the prices of numerous and varied additional benefits and compensation on top of a
grant-in-aid that have a monetary value above the cost
of attendance.7 Some of these rules regulate compensa7

The rules that Plaintiffs challenge here are listed and described in Plaintiffs’ Opening Statement at 13-15 and Appendices
A-C, Docket No. 868-3.

75a
tion that relates to education; others regulate compensation incidental to athletics participation and unrelated to education, including monetary awards that reward performance in athletics. The compensation limits are artificially set through an exercise of Defendants’ monopsony power, and Plaintiffs would receive
more compensation in exchange for their athletic services in the absence of the challenged limits. This
Court had made similar findings in O’Bannon I, which
were affirmed on appeal in O’Bannon II. O’Bannon I,
7 F. Supp. 3d at 971-73; O’Bannon II, 802 F.3d at 106469. Horizontal price-fixing among competitors is usually a per se violation of antitrust law. However, because
“a certain degree of cooperation” is necessary to market athletics competition, the Court applies the Rule of
Reason. See O’Bannon II, 802 F.3d at 1069 (citation
and internal quotation marks omitted).
III. RULE OF REASON: MARKET DEFINITION
The Court’s first step in applying the Rule of Reason is to determine the relevant market. On summary
judgment, at the request of both parties and in the absence of a genuine issue of material fact, the Court
adopted the market definition from the O’Bannon
case.8 The relevant market there was that for a college
8

After the Court had entered summary judgment on market
definition, Defendants argued that the Court should have considered or adopted an alternative market definition that their economics expert, Dr. Kenneth Elzinga, discussed in his report, namely a “multi-sided market for college education in the United
States” in which colleges operate as multi-sided platforms that
balance their pricing to numerous constituencies. Elzinga Report
at 26-28; see also Order Reaffirming Exclusion of Certain Expert
Testimony by Dr. Elzinga at 9, Docket No. 1018. The Court rejected this argument on the ground that it was untimely, because
Defendants did not offer any alternative definition of the relevant

76a
education combined with athletics, or, alternatively, the
market for the student-athletes’ athletic services. See
Summary Judgment Order at 18, Docket No. 804. In
O’Bannon I, the Court had found that the plaintiffs’ antitrust claims could be analyzed as a monopoly or, alternatively, as a monopsony. 7 F. Supp. 3d at 991. Under the theory of monopsony, sometimes referred to as
a buyers’ cartel, schools were characterized as buyers
and student-athletes as sellers in a market for recruits’
athletic services and licensing rights. Id. The NCAA
did not challenge the market definitions on appeal and
the Ninth Circuit adopted them. O’Bannon II, 802
F.3d at 1070.
At trial in this case, Plaintiffs based their claims on
a theory of monopsony only. Dr. Rascher, Plaintiffs’
economics expert, defined the relevant market here as
comprising national markets for Plaintiffs’ labor in the
form of athletic services in men’s and women’s Division
I basketball and FBS football, wherein each class member participates in his or her sport-specific market. See
Rascher Report ¶¶ 30-130, 148-85. In these markets,
the class-member recruits sell their athletic services to
the schools that participate in Division I basketball and
FBS football in exchange for grants-in-aid and other
benefits and compensation permitted by NCAA rules.
Dr. Rascher found that Defendants have monopsony
power in all of these markets and exercise that power
to cap artificially the compensation offered to recruits.
Id. ¶ 37.

market or point to any admissible evidence to raise a genuine issue
of material fact with respect to market definition during summary
judgment proceedings; and on the ground that Dr. Elzinga’s expert opinions about a multi-sided relevant market were unreliable
and inadmissible. See generally id.

77a
Dr. Rascher’s definition of these markets is based
on economic analyses similar to those performed in the
O’Bannon case. His analyses here are predicated on
updated data and take into account women’s Division I
basketball, which was not at issue in O’Bannon. Id.
¶¶ 148-53. Dr. Rascher’s economic analyses show that
the most talented athletes are concentrated in the respective markets for Division I basketball and FBS
football; possible alternatives, such as the National Association of Intercollegiate Athletics (NAIA) or the National Christian College Athletic Association
(NCCAA), have not proved to be viable substitutes;
none of the major professional sports leagues in class
members’ sports provide competitive options for most
college-aged talent; high barriers to entry into the
market preclude any viable alternatives emerging for
class members’ athletic services; and the geographic
scope of the markets is nationwide. Id. ¶¶ 154-85. In
sum, class members cannot obtain the same combination of a college education, high-level television exposure, and opportunities to enter professional sports
other than from Division I schools.
IV. RULE OF REASON: ANTICOMPETITIVE EFFECTS
On summary judgment, the Court found that the
challenged restraints produce significant anticompetitive effects in the relevant market. The absence of a
genuine dispute with respect to the existence of an
agreement among Defendants that is intended to, and
does, limit student-athlete compensation in the relevant
market, is in and of itself sufficient to find that this
agreement has a strong potential for significant anticompetitive effects. Plaintiffs offered evidence of significant anticompetitive effects, however, which Defendants did not meaningfully dispute. The Court had

78a
also found significant anticompetitive effects with respect to the rules challenged in O’Bannon I, which the
Ninth Circuit affirmed in O’Bannon II. O’Bannon I, 7
F. Supp. at 973, 993; O’Bannon II, 802 F.3d at 1057-58,
1070-72.
The economic analyses of Plaintiffs’ experts established that the challenged rules have the effect of artificially compressing and capping student-athlete compensation and reducing competition for student-athlete
recruits by limiting the compensation offered in exchange for their athletic services. The compensation
that student-athletes receive under the challenged
rules does not correlate meaningfully with the value of
their athletic services, based on indicators of their talent.9 This is consistent with the absence of rigorous
competition among schools with respect to studentathlete compensation. In a market free of the challenged restraints, competition among schools would increase in terms of the compensation they would offer to
recruits, and student-athlete compensation would be
higher as a result. Student-athletes would receive offers that would more closely match the value of their
athletic services. See Lazear Report ¶¶ 11-50.
Plaintiffs’ experts’ analyses also show that Defendants are able to artificially compress and limit studentathlete compensation as described above because they
possess monopsony power in the relevant market. See
Rascher Report ¶¶ 30-130, 148-85; id. ¶ 37 (“Defendants
and their co-conspirators have monopsony power in all
three markets—that is, they have the power to collectively depress input prices without fear of loss of reve9

Dr. Edward Lazear, Plaintiffs’ economics expert on summary judgment, relied on ratings of talent based on a system for
rating athletes by 247sports.com. Lazear Report ¶ 29.

79a
nue in excess of the immediate cost savings”). Because
of the absence of viable alternatives to Division I basketball and FBS football, and because of reduced competition among conferences due to the challenged compensation limits, the market for recruits in these sports
is highly or perfectly concentrated under the current
NCAA compensation limits. By contrast, if each conference were free to set its own compensation limits in
competition with other conferences, the market concentration would decrease from highly or perfectly concentrated, to “moderately concentrated” for FBS football
and “unconcentrated” for Division I basketball.
Rascher Report ¶¶ 155-57.
This evidence shows that student-athletes are
harmed by the challenged compensation limits, because
these rules deprive them of compensation they would
receive in the absence of the restraints.
At trial, Plaintiffs offered additional proof of the
anticompetitive effects of the NCAA’s limits on compensation. It shows that changes had been made, starting in August 2014, to the amounts and types of permissible student-athlete compensation. The changes
were caused, in part, by the desire of the Power Five,
those conferences with the highest revenues in Division
I, to divert some of their relatively significant resources away from expenditures that only indirectly
benefit student-athletes (such as expenditures on opulent athletic facilities and multi-million dollar coaches’
salaries) and toward student-athlete compensation.
See, e.g., P0056 at 0001-02; Rascher Direct Testimony
Declaration ¶ 212. Dr. Harvey Perlman, chancellor of
the University of Nebraska, agreed with the statement
that, “[i]n short, we recruit by shifting funds from regulated benefits for student athletes to unregulated

80a
frills[.]” Perlman Deposition Transcript (Dep. Tr.) at
60-61.
In a presentation in 2013, the presidents and chancellors of the Power Five had asked the Division I
Board of Directors for autonomy in a variety of subject
areas, for the following reasons: (1) the recognition of
criticisms and accusations “of exploiting student athletes for our own financial gain”; (2) the desire to avoid
“unintended consequences” if “ill-advised reforms are
imposed” as a result of these criticisms; (3) a wish to
move away from efforts to “create ‘a level playing
field,’ ” because “[t]oo often, our efforts to improve the
lives of student athletes have been deflected because of
cost implications that are manageable by our institutions but not by institutions with less resources”; and
(4) a sense that efforts to “ ‘ level the playing field’ ” led
the Power Five to “spend these resources in almost any
way we want EXCEPT to improve support for student
athletes.” P0056 at 0001-02. This is evidence that these
conferences were prevented from making the increases
in student-athlete compensation that they would have
made absent the anticompetitive effects of the challenged restraints.
After the new Autonomy structure became effective on August 7, 2014, in January 2015, the Power Five
voted to increase the overall limit on grant-in-aid athletics scholarships from the limit in place at the time of
the O’Bannon I trial to the higher, cost-of-attendance
limit, effective on August 1, 2015.10 The Power Five
10

This Court issued its O’Bannon I injunction on August 8,
2014, to take effect on August 1, 2015. Case No. 09-cv-3329, Docket Nos. 292, 298. On July 31, 2015, the Ninth Circuit stayed the
injunction. Case No. 09-cv-3329, Docket No. 418. On September
30, 2015, while the injunction was stayed, the Ninth Circuit issued
its opinion affirming in part this Court’s decision; the judgment

81a
also created new forms of permissible compensation for
student-athletes, and expanded the scope of previously
permissible benefits or compensation. These changes
permitted student-athletes to borrow against their future professional earnings to purchase loss-of-value insurance (Division I Bylaw 12.1.2.4.4); expanded reimbursement or payment of travel expenses for certain
family members to attend certain events (Division I
Bylaw 16.6.1.1); provided unlimited food (Division I Bylaw 16.5.2.5); and required schools to pay for medical
care for athletics-related injuries for at least two years
after graduation (Division I Bylaw 16.4.1).
Although the Power Five’s Autonomy legislative
enactments have resulted in greater compensation for
student-athletes, such compensation is still capped by
overarching NCAA limits that prevent the Power Five
and all NCAA members from expanding compensation
beyond a point determined by the NCAA through its
traditional rulemaking process.11
became effective on December 28, 2015, when the Ninth Circuit
issued its mandate. See O’Bannon II, 802 F.3d at 1079; Case No.
09-cv-3329, Docket Nos. 437, 463. Thus, the Autonomy structure
change to the full grant-in-aid limit became effective before the
injunctive relief ordered by this Court in O’Bannon I ever went
into effect. The Autonomy structure change differs from the relief
ordered in O’Bannon; it permits grants-in-aid up to the cost of attendance for any Division I athlete (in any sport) and is not limited
to compensation for the use or licensing of NIL. By contrast, the
relief ordered in O’Bannon I, in relevant part, prohibited the
NCAA from precluding its members from compensating Division I
men’s basketball and FBS football student-athletes for the licensing or use of their NIL, at an amount lower than the cost of attendance. Compare Division I Bylaw 15.02.6 “Full Grant-in-aid”
with Case No. 09-cv-3329, Docket No. 292 (injunction).
11

See, e.g., Trial Tr. (Lennon) at 1618 (the Power Five’s ability to modify athletics financial aid caps is limited by NCAA Bylaw

82a
In light of the foregoing, the Court finds that Defendants, through the NCAA, have monopsony power
to restrain student-athlete compensation in any way
and at any time they wish, without any meaningful risk
of diminishing their market dominance. This is because
the NCAA’s Division I essentially is the relevant market for elite college football and basketball. And, because elite student-athletes lack any viable alternatives
to Division I, they are forced to accept, to the extent
they want to attend college and play sports at an elite
level after high school, whatever compensation is offered to them by Division I schools, regardless of
whether any such compensation is an accurate reflection of the competitive value of their athletic services.
Moreover, the compensation that class members receive under the challenged rules is not commensurate
with the value that they create for Division I basketball
and FBS football; this value is reflected in the extraordinary revenues that Defendants derive from these
sports.
The challenged rules thus have severe anticompetitive effects and student-athlete are harmed as a result
of the challenged rules, because the rules deprive them
of compensation that they would otherwise receive for
their athletic services.

15.01.6); id. at 1620 (the Power Five’s ability to award expenses
and benefits is limited by NCAA Bylaw 12.1.2.1.4); id. at 1629 (the
NCAA Board of Directors has the authority to override Autonomy
legislation).

83a
V. RULE OF REASON: ASSERTED JUSTIFICATIONS FOR THE
CHALLENGED RESTRAINTS12
Consumer Demand for Amateurism
Defendants argue that the challenged compensation limits are procompetitive because “amateurism is a
key part of demand for college sports” and “consumers
value amateurism.” Defs.’ Closing Brief at 7, 10, Docket No. 1128. The corollary is that if consumers did not
believe that student-athletes were amateurs, they
would watch fewer games and revenues would decrease
as a result. Defendants rely on the notion that it is the
“principle” of amateurism that drives consumer demand, and that the challenged restraints are procompetitive because they “implement” or “effectuate” that
principle. Id. at 37. They did not offer evidence to establish that the challenged compensation rules, in and
of themselves, have any direct connection to consumer
demand.
Defendants nowhere define the nature of the amateurism they claim consumers insist upon. Defendants
offer no stand-alone definition of amateurism either in
the NCAA rules or in argument. The “Principle of
Amateurism,” as described in the current version of the
NCAA’s constitution, uses the word “amateurs” to describe the amateurism principle, and is thus circular. It
12

Two additional pro-competitive justifications had been offered previously: increased output and competitive balance.
These were rejected by the Court on summary judgment. They
also were rejected in O’Bannon I and the NCAA did not address
them on appeal, so the rejection was accepted in O’Bannon II. See
Summary Judgment Order at 23 n.7, Docket No. 804; see also
O’Bannon II, 802 F.3d at 1072. Some testimony offered by Defendants at this trial seemed aimed at resurrecting these justifications. The Court will not consider these arguments again.

84a
does not mention compensation or payment. The constitution says, “Student-athletes shall be amateurs in
an intercollegiate sport, and their participation should
be motivated primarily by education and by the physical, mental and social benefits to be derived. Student
participation in intercollegiate athletics is an avocation,
and student-athletes should be protected from exploitation by professional and commercial enterprises.”
NCAA Constitution Article 2.9. No connection between the “Principle of Amateurism” and the challenged compensation limits is evident. Mike Slive, who
served as commissioner of the SEC, one of the Power
Five, from 2002 to 2015, testified that amateurism is
“just a concept that I don’t even know what it means. I
really don’t.” Slive Dep. Tr. at 23, 45. He repeated,
“You know, the term amateur I’ve never been clear on
what is meant either by in your question or otherwise,
what is really meant by amateurism[.]” Id. at 43.
The definition of amateurism that Defendants point
to is one that cannot be found in the Division I manual.
Defendants and their witnesses often describe amateurism by reference to what they say it is not: namely,
amateurism is not “pay for play.” See, e.g., Defs.’ Closing Brief at 36 n.214, Docket No. 1128 (“Amateurism is,
by definition, ‘not paying’ the participants.”); Trial Tr.
(Lennon) at 1275-77 (justifying challenged compensation limits on the ground that they prevent “pay for
play”). Defendants do not explain the origin or meaning of the term “pay for play.” The NCAA constitution
and the Division I Bylaws do not define, or even mention, “pay for play.”
The concept of “pay” is addressed only in certain
bylaws that govern student-athlete compensation and
eligibility. In these bylaws, “pay” is defined only indirectly; it is defined by listing a variety of forms of com-

85a
pensation that could be considered pay, and indicating
that each form of compensation constitutes prohibited
“pay,” unless it falls within one of many exceptions or is
otherwise permitted by the NCAA. Thus, whether any
form of compensation constitutes “pay” in violation of
NCAA rules cannot be determined except by studying
all of the relevant bylaws and all of their exceptions and
cross-references. Erik Price, the Pac 12’s Rule 30(b)(6)
witness, testified, “Well, I think the NCAA, the way
Bylaw 12 is written is a series of things that you cannot
do, and by then still remain an amateur. It doesn’t exactly have a beautiful definition of [amateurism].” Pac
12 Rule 30(b)(6) witness (Erik Price) Dep. Tr. at 60; see
Division I Bylaw 12.1.2 (listing items that would cause a
student-athlete to lose “amateur status” and eligibility
for intercollegiate competition); Division I Bylaw
12.1.2(a) (prohibiting a student-athlete from using his
or her athletic skills “for pay in any form” in his or her
sport); but see Division I Bylaw 12.1.2.4 (“Exceptions to
Amateurism Rule”).
“Pay” under NCAA rules does not necessarily
track the plain meaning of the word, whereby something of monetary value is provided in exchange for
something else. Indeed, a review of the bylaws shows
that many forms of payment, often in unrestricted cash,
from schools and other sources, are allowed by the
NCAA as “not pay,” and thus as not inconsistent with
amateurism. Much of this permissible compensation
appears on its face to be akin to “pay” under the plain
meaning of the word. In some instances it is provided
to student-athletes in exchange for their athletic performance, making it similar to what a reasonable person could consider to be “pay for play.”
As noted, the NCAA allows grants-in-aid up to the
cost of attendance, which are intended to pay for the

86a
student-athletes’ education-related expenses. It also
allows monetary awards it describes as “incidental to
athletics participation” on top of a grant-in-aid, which
reward participation or achievement in athletics, such
as qualifying for a bowl game in FBS football. See Division I Bylaw 16.1.4.1 and Figures 16-1, 16-2, 16-3; Trial Tr. (Lennon) at 1275. These performance awards,
which are not related to education and can be provided
on top of a full cost-of-attendance grant-in-aid, are allowed at several hundred dollars for each award, but
the rules permit student-athletes to qualify for multiple
of these awards, meaning that they could receive several thousand dollars in cash-equivalent compensation
if they perform well enough in their sport. See Rascher
Direct Testimony Declaration ¶¶ 72, 205; Dr. Kenneth
Elzinga Direct Testimony Declaration ¶¶ 95-96, Docket
No. 883-1 (a student-athlete on a team that won a national championship could receive $5,600 total in athletics participation awards when combined); Hostetter
Dep. Tr. at 207. These awards can be provided to student-athletes in the form of Visa gift cards that can be
used like cash.13 See Hostetter Dep. Tr. at 224-27.
13

At the time of O’Bannon I, student-athletes could receive
performance awards in the form of store-specific gift cards but can
now receive these awards in the form of Visa gift cards. See
Hostetter Dep. Tr. at 224-27. Performance awards also can be
provided in the form of “gift suites,” which involve allowing student-athletes access to a location where they can select from a variety of gifts. See Elzinga Direct Testimony Declaration ¶ 95.
Gifts available through gift suites include prepaid debit cards from
stores such as Best Buy, iPad minis, speakers, watches, and headphones. See, e.g., James Dep. Tr. at 168 (received a watch and a
$452 Best Buy gift card at gift suite, which he used to buy his
mother a television); Jemerigbe Dep. Tr. at 206 (received iPad
mini, iTunes gift card, headphones, and speaker through gift
suites).

87a
Robert Bowlsby, the Big 12 Conference’s Rule 30(b)(6)
witness, explained that “these things [gift cards] were
all previously geared towards being mementos of the …
games” and “it’s … taken … another turn, and the gift
cards are representative of that.” Big 12 Conference
Rule 30(b)(6) witness (Robert Bowlsby) Dep. Tr. at 160.
On their face, athletics participation awards seem to
violate other Division I bylaws, including those that
prohibit cash or cash-equivalent payment or compensation that incentivizes athletic performance (Division I
Bylaws 12.1.2.1.4.1 and 12.1.2.1.5); nevertheless, these
awards do not constitute a prohibited form of payment
or compensation only because the NCAA has chosen to
permit them.
Without affecting their status as amateurs, Division I student-athletes can also receive money from
their schools, from monies provided by the NCAA each
year through the conferences, by way of the Student
Assistance Fund (SAF) and the Academic Enhancement Fund (AEF), on top of a full cost-of-attendance
grant-in-aid.14 In 2018, the NCAA made available for
distribution more than $84 million in SAF money, and
more than $48 million in AEF money. This money is
disbursed by schools to assist student-athletes in meeting financial needs, improve their welfare or academic
support, or recognize academic achievement.15 Division
14

Division I Bylaw 16.11.1.8 (“A student-athlete may receive
money from the NCAA Student Assistance Fund.”); Division I
Bylaw 15.01.6.1 (“The receipt of money from the NCAA Student
Assistance Fund for student-athletes is not included in determining the permissible amount of financial aid that a member institution may award to a student-athlete.”).
15

The Division I Bylaws address only the uses of SAF monies
that are impermissible. Neither schools nor conferences report to
the NCAA detailed information (i.e., by student-athlete or by ex-

88a
I Revenue Distribution Plan, J0021 at 0004, 0014. It
can be provided in cash or as a benefit, and it is not limited to education-related expenses. The schools are not
constrained in the amount of these funds they can disburse to an individual student-athlete; they are limited
only in the aggregate by the amount that the NCAA
distributes through these funds each year. Since 2015,
SAF disbursements to individual student-athletes has
reached to the tens of thousands of dollars above a full
cost-of-attendance grant-in-aid,16 and in some cases,
pense) to show how SAF funds were allocated; conferences report
to the NCAA only amounts and types of uses of SAF monies in the
aggregate. Trial Tr. (Lennon) at 1634-35. SAF monies have been
used for expenses related to education, including postgraduate
scholarships; fees for internship programs; international student
fees, taxes, and insurance; school supplies and electronics (such as
laptops, cameras, tablets); graduate school application fees; graduate school exam fees; tutoring; and academic achievement or graduation awards. J0002 at 0010; J0020 at 0001; P0043 at 0001; J0019
at 0001. SAF monies also have been used for benefits that are not
related to education, such as loss-of-value insurance premiums,
Trial Tr. (Lennon) at 1340; medical expenses; professional program
testing; career assessments; travel expenses for both the studentathlete and family members; clothing; magazine subscriptions; and
grocery reimbursement. J0002 at 0010; J0020 at 0001. AEF monies have been used for education-related benefits, such as academic
achievement or graduation awards; summer school; fifth- or sixthyear aid; tutoring; academic support services; international student fees and taxes; professional program testing; and supplies
(expendable or educational). J0021 at 0004-05. They have also
been used for benefits that are not related to education, such as
insurance premiums; medical, dental, or vision expenses (not covered by another insurance program); clothing; travel; and capital
improvements/equipment. Id.; Stip. Facts ¶ 15, Docket No. 1094.
16

See P0104 (showing SAF payments above the cost of attendance (COA) provided to in-state students at Ohio State University, with the highest above-COA payment being $14,740);
P0105 (showing SAF payments above COA provided to out-ofstate students at Ohio State University, with the highest above-

89a
$50,000 for premiums for loss-of-value insurance
against the loss of future professional earnings, Trial
Tr. (Lennon) at 1340.
Schools can also make thirty-dollar per diem payments to student-athletes for un-itemized incidental
expenses while they are travelling for certain events.
Division I Bylaw 16.8.1.1. Schools can pay travel expenses for certain family members to attend certain
events. Division I Bylaw 16.6.1. In January 2015,
without changing any bylaws, the NCAA began to pay
up to $3,000 for family members of student-athletes
who reach the Final Four but do not advance to the
basketball championships, and up to $4,000 to attend
the basketball championships. See P0148. Also in January 2015, the College Football Playoff committee began to pay up to $3,000 for each competing athlete’s
family members to travel to that event. Id.
Cost-of-attendance grants-in-aid themselves provide cash for expenses, as well as providing tuition,
room, board, and books at no cost to the studentathlete. Any athletics aid in excess of the fixed expenses of tuition, room, board and books is provided to the
student-athlete in the form of a cash stipend. The cash
stipend can total several thousand dollars for some students. Defendants do not monitor how student-athletes
spend their stipend. NCAA Rule 30(b)(6) witness
(Kevin Lennon) Dep. Tr. at 35, 37; Hostetter Dep. Tr.
at 85-86. Schools may provide full cost-of-attendance
grants-in-aid to student-athletes who have already received federal Pell grants, which also are calculated to
COA payment being $49,015); P0106 (showing SAF payments
above COA at nineteen schools, with the highest above-COA payment being $61,000); Rascher Direct Testimony Declaration ¶¶ 75,
78-81; Trial Tr. (Lennon) at 1338-40; Trial Tr. (Rascher) at 111.

90a
cover the cost of attendance. Any athletics aid in excess of tuition, room, board, and books, therefore, pays
student-athletes a second time for the same cost-ofattendance expenses that the Pell grant is intended to
cover.17
Each school may award two post-eligibility graduate school scholarships per year of $10,000 each that
can be used at any institution (Senior Scholar Awards).
Division I Bylaw 16.1.4.1.1.
This is an exception to the NCAA’s prohibition on
post-eligibility financial aid to attend graduate school at
a different institution. Defendants have not provided
any cogent explanation for why the NCAA generally
prohibits financial aid for graduate school at another
institution, or for why the Senior Scholar Awards are
limited in quantity and amount. The record suggests
that these limitations are arbitrary. For example,
when asked whether increasing the current limit on
Senior Scholar Awards from two students per school to
five students per school would render the awards inconsistent with amateurism, the NCAA’s Rule 30(b)(6)
witness, Kevin Lennon, provided no meaningful response other than to justify the current limit on the basis that the membership decided that limiting the
17

Division I Bylaw 15.1.1. Pell grants are awarded by the
government based on financial need measured by the difference
between a student’s ability to pay and the cost of attendance. The
maximum amount of a Pell grant is $6,000. Noll Direct Testimony
Declaration ¶¶ 78-79. When a student-athlete receives athletics aid
permitted by the NCAA in addition to a Pell grant, the athletics
aid may exceed the student’s need as determined by federal regulations. See J1518 at 0001-02. This is an exception to the general
practice that requires schools to adjust non-federal aid awards to
ensure that the total aid does not exceed a student’s financial need.
Id.

91a
awards to two students per school constituted a “reasonable cap.” Trial Tr. (Lennon) at 1551-53. Lennon
agreed that if the membership wanted to increase the
awards “from two to three … they’d certainly be permitted to raise that[.]” Lennon Rule 30(b)(6) Dep. Tr.
at 179.
In addition to the payments in excess of cost of attendance allowed from schools to student-athletes described above, the NCAA has allowed, and in recent
years increased, payments that student-athletes may
receive from outside entities without being found ineligible to play. For example, since 2015, international
student-athletes have been allowed to receive unlimited payment from their national Olympic governing
body in exchange for their performance at certain international competitions. And student-athletes continue to receive unlimited funds from the U.S. Olympic
Committee for their performance in the Olympics; this
also is not “pay.” NCAA Rule 30(b)(6) witness (Mark
Lewis) Dep. Tr. at 50-51 (a swimmer received $115,000
for participating in the Olympics, permissible under
NCAA rules).
A given student-athlete is permitted to receive, in
combination, all of the foregoing compensation and
benefits for which he or she qualifies, on top of a full
cost-of-attendance grant-in-aid, regardless of what the
total amount of such compensation may turn out to be.
Yet this compensation, some of which is unrelated to
education and some of which is provided in cash or a
cash-equivalent, is not considered to be “pay” and student-athletes who receive it remain amateurs.
These payments and benefits are, without a doubt,
justifiable and well-deserved. They are relevant to the
analysis of Defendants’ consumer-demand procompeti-

92a
tive justification for two reasons. First, the rules that
permit, limit, or forbid student-athlete compensation
and benefits do not follow any coherent definition of
amateurism, including Defendants’ proffered definition
of no “pay for play,” or even “pay.” The only common
thread underlying all forms and amounts of currently
permissible compensation is that the NCAA has decided to allow it.
Second, whatever understanding consumers have
of amateurism, they enjoy watching sports played by
student-athletes who receive compensation and benefits such as these, because this compensation has been
paid and increased while college athletics has become
and remains exceedingly popular and revenueproducing. This belies Defendants’ position that the
challenged current restrictions on student-athlete compensation are necessary to preserve consumer demand.
Indeed, as discussed in more detail below, increases in
compensation since 2015 have not reduced consumer
demand, suggesting that all of the current limits on
student-athlete compensation are not necessary to preserve consumer demand.
Defendants’ only economics expert on the issue of
consumer demand, Dr. Elzinga, failed to show that the
challenged compensation limits are necessary to preserve consumer demand. First, Dr. Elzinga’s opinions
on consumer demand are unreliable. He did not study
any standard measures of consumer demand, such as
revenues, ticket sales, or ratings. See Trial Tr. (Noll) at
285-287. The “narrative” evidence that formed the
primary basis of his demand analysis was not representative. Trial Tr. (Elzinga) at 477-78, 445-47 (acknowledging that his economic analysis did not include
interviews of fans, coaches, student-athletes, broadcasters, or conference commissioners). Instead, he in-

93a
terviewed people connected with the NCAA and its
schools, who were chosen for him by defense counsel.
Id. at 446-47.
Second, Dr. Elzinga’s analysis of consumer demand
is not relevant because he failed to study the effect of
changes to student-athlete compensation on consumer
demand. Dr. Elzinga explained his failure to study this
issue by opining that “no test of the effect of amateurism” is possible “because there is no period during
which the NCAA did not have and enforce amateurism
standards.” See Elzinga Direct Testimony Declaration
¶ 20. Dr. Elzinga also posits that studying the effects
on consumer demand of changes to compensation would
be unnecessary in any event because the principle of
amateurism has been “materially consistent over the
years.” Id. ¶ 23. He explains that “[t]he central tenet
of amateurism is not a specific dollar amount (as in $X =
amateur, but $X +ߝ = professional),” rather, it is
whether student-athletes are “being paid to play.” Id.
¶¶ 14, 34-35; see also id. ¶ 14 (“[T]he difference between
amateurism and professionalism isn’t captured in some
wooden and mechanical way by the number of dollars a
student-athlete receives. True student-athletes are
amateurs in the sense that they are not being paid to
play.”) (emphasis omitted).
The record directly undercuts the premises of Dr.
Elzinga’s analysis. Dr. Elzinga’s assertion that there is
“no period” during which the NCAA did not “have and
enforce amateurism standards” is contradicted by undisputed facts, which show that “NCAA did not have
any rule-making or enforcement authority over its
members until the 1950s.” Stip. Facts ¶ 23, Docket No.
1098. And, as discussed above in the Background section, the NCAA’s implementation of amateurism has
changed materially on multiple occasions throughout its

94a
history.18 Further, Dr. Elzinga’s contention that amateurism does not depend on a specific dollar amount is
contradicted by the NCAA. The NCAA’s Rule 30(b)(6)
witness, Kevin Lennon, testified that specific dollar
limits on student-athlete compensation incidental to
athletics participation, such as performance awards, are
set precisely for the purpose of distinguishing between
permissible compensation and “pay for play.” Trial Tr.
(Lennon) at 1275. In other words, the amounts are set
for the purpose of distinguishing between amateurism
and non-amateurism. Dollar amounts (and changes to
such amounts), therefore, cannot be said to be irrelevant to the analysis of this procompetitive justification.
As described above, such amounts can reach the hundreds and thousands of dollars.
For these reasons, the Court is not convinced by
Dr. Elzinga’s testimony.
The only economic analysis in the record that specifically speaks to the effects of compensation amounts
on consumer demand is that by Dr. Rascher. Dr.
Rascher analyzed two natural experiments to determine whether increases in student-athlete compensation would have an impact on consumer demand. He
concluded that increased student-athlete compensation
does not negatively affect consumer demand for Division I basketball and FBS football. The Court finds Dr.

18

In addition to the changes described in the Background
section above, the fact that the NCAA currently permits studentathletes to receive the other forms of compensation discussed in
this section in addition to a full grant-in-aid scholarship, such as
compensation “incidental to athletics participation, including performance awards, also distinguishes today’s concept of the amateur student-athlete from that in effect in earlier years.

95a
Rascher’s analysis and opinions to be reliable and persuasive.
The first natural experiment involved comparing
consumer demand before and after the increase to the
grant-in-aid limit to the cost of attendance, which was
voted on in January 2015 and implemented in August
2015. As explained earlier, this change to the grant-inaid limit, on its own, resulted in a significant increase in
permissible compensation per student-athlete, because
it allowed grants-in-aid to provide cash for expenses
that previously could not be covered, such as supplies
and transportation. Rascher Direct Testimony Declaration ¶¶ 52, 54; Noll Direct Testimony Declaration ¶ 12.
Some schools adjusted their cost-of-attendance calculations so that the value of a full cost-of-attendance
grant-in-aid would be greater. See, e.g., Trial Tr. (Lennon) at 1365 (“some” schools’ financial aid offices “revisited their calculation[s]” regarding the cost of attendance after the increase of the grant-in-aid limit to cost
of attendance). Moreover, because the NCAA rule that
permits schools to award full grants-in-aid to studentathletes in addition to a Pell grant was not adjusted after the change to the grant-in-aid limit in 2015, the
amount of cash provided above the cost of attendance
increased even more for student-athletes who are
awarded both a Pell grant and a full grant-in-aid scholarship. See Noll Direct Testimony Declaration ¶¶ 78-79.
Dr. Rascher’s conclusions are also supported by the
fact that the NCAA has increased its SAF and AEF
distributions since 2015. See P0039 at 0001; D0695 at
0001. As noted, a student-athlete can receive unlimited
money through the school, from the NCAA’s SAF and
AEF, on top of a full cost-of-attendance grant-in-aid.
Since 2015, SAF cash to individual students has
reached to the tens of thousands of dollars above a full

96a
cost-of-attendance grant-in-aid. See P0104; P0105;
P0106; Rascher Direct Testimony Declaration ¶¶ 75, 7881. The schools are not constrained in terms of the
amount of these funds they can disburse to an individual student-athlete. Stip. Facts ¶¶ 3-12, Docket No. 1094.
Thus, Dr. Rascher found that total permissible student-athlete compensation has increased since August
2015, resulting in thousands of class members receiving
significant benefits and compensation on top of full
cost-of-attendance grants-in-aid since O’Bannon I was
decided. Rascher Direct Testimony Declaration ¶ 52.19
This has had no negative impact on consumer demand;
to the contrary, Dr. Rascher found that NCAA, conference, and school revenues from Division I basketball
and FBS football have increased since 2015. Rascher
Direct Testimony Declaration ¶¶ 45, 47, 52, 54-55;
P0139, P0030, P0032-P0039; P0048, P0049; P0137. The
revenues of the schools in the Power Five alone for
basketball and FBS football increased from a very
large amount in 2014-2015 disclosed under seal, to an
even larger amount in 2015-16. Rascher Direct Testimony Declaration ¶ 47; see also P0045; J0017 at 0012-13
(showing that generated revenues have increased since
2014 for schools in the Power Five and other schools
not in the Power Five). Revenues are one of the best
economic measures of consumer demand. Rascher Direct Testimony Declaration ¶ 51.
Dr. Rascher acknowledged that some of the media
revenues he examined are derived from multi-year contracts that were executed before 2015 and have escalat19

Again, this is not intended to suggest that student-athletes
should not receive these payments, but that the increases in compensation described above have not negatively affected consumer
demand.

97a
ing clauses (i.e., the payments under the contracts will
increase each year for their duration without the need
to renegotiate). Trial Tr. (Rascher) at 32. Nonetheless,
some of the most valuable and longest-term contracts
were executed after 2015.20 This supports the finding
that consumer demand was not negatively affected after more student-athlete compensation became permissible in 2015. Dr. Rascher also testified that multi-year
contracts that were executed before 2015 show that the
increase in student-athlete compensation in 2015 did
not negatively impact consumer demand given that
these contracts were not renegotiated after the compensation change in 2015.21 Trial Tr. (Rascher) at 32.
20

For example, in 2016, the NCAA extended its agreement
with CBS/Turner for the March Madness tournament; the previous contract was to run through 2024. The 2016 extension increased substantially the average annual fees owed to the NCAA
relative to the prior iteration of the contract. D0532 at 0023;
Rascher Direct ¶ 47; P0045 at 0001-02. The total value of the 2016
extension, which covers eight years, from 2024 to 2032, is $8.8 billion. P0045 at 0002. The prior iteration, which covers fourteen
years, from 2010 to 2024, is valued at $10.8 billion. P0045 at 0001.
Additionally, the 2016 extension is through 2032; witnesses who
have experience negotiating media contracts in the context of college sports have described this as a major extension on the ground
that contracts of greater potential value to broadcasters are typically executed for a longer timeframe. See Trial Tr. (Aresco) at
1009 (characterizing the 2016 extension as a “major extension”); id.
at 998 (in the context of media contracts in college sports, “[t]he
more attractive the product, the longer [the networks would] want
to go” with the length of a contract).
21

Some defense witnesses speculated that networks or sponsors could choose to renegotiate broadcast rights fees under provisions for “changed circumstances” if they believed that Division I
basketball and FBS football changed from amateur to professional.
See, e.g., NCAA Rule 30(b)(6) witness (Mark Lewis) Dep. Tr. at
247. This testimony, however, is not supported. Defendants have
not pointed to any instance in which networks or sponsors have

98a
The second natural experiment is based on the
University of Nebraska Post-Eligibility Opportunities
(PEO) program, which was created after the O’Bannon
I trial and allows post-eligibility aid from the university, on top of a grant-in-aid, of up to $7,500 for education-related endeavors, including graduate school, as
well as study abroad, or an internship. Perlman Dep.
Tr. 127-28. This natural experiment shows two things.
First, at least one school has the desire to offer posteligibility benefits such as these provided on top of a
grant-in-aid. Second, there is no evidence that the creation of this program has reduced consumer demand for
Nebraska sports or Division I basketball or FBS football in general. The evidence is to the contrary: Nebraska’s chancellor testified that this program is consistent with amateurism because it advances “the kinds
of activities that higher education are involved with”
and that Nebraska’s “Athletic Director talks about it at
every opportunity, public and private[.]” Perlman Dep.
Tr. at 127-28; see also Trial Tr. (Rascher) 19-20;
Rascher Direct Testimony Declaration ¶¶ 206-07; Trial
Tr. (Elzinga) at 434-37.
Dr. Rascher’s analysis and opinions, therefore,
support a finding that, because the described increases
chosen to renegotiate licensing rights fees as a result of changes in
student-athlete compensation or otherwise, and the record shows
no renegotiations or fees adjustments after the grant-in-aid limit
was increased to cost of attendance on August 1, 2015. See, e.g.,
Big 12 Rule 30(b)(6) witness (Robert Bowlsby) Dep. Tr. at 121,
125-28. No evidence was presented that student-athlete compensation or amateurism have even been discussed with media partners in this context, suggesting that these issues are not of concern to media partners and that renegotiation based on these issues is unlikely. See, e.g., Conference USA Rule 30(b)(6) witness
(Judy McLeod) Dep. Tr. 149-50; Big 12 Rule 30(b)(6) witness (Robert Bowlsby) Dep. Tr. 125-28.

99a
to student-athlete compensation did not lead to a decrease in consumer demand, similar future increases in
compensation would not reduce demand.
Some defense witnesses corroborated Dr.
Rascher’s conclusions. See, e.g., NCAA Rule 30(b)(6)
witness (Mark Lewis) Dep. Tr. at 112 (negotiated media contracts for NCAA, testified that increase of
grant-in-aid limit to cost of attendance did not affect
consumer demand for FBS football and Division I basketball); Big 12 Rule 30(b)(6) witness (Robert Bowlsby)
Dep. Tr. at 67-68 (he is not aware of “any impact on
revenue” based on “greater meals and snacks,” and
“with respect to Big 12 members’ ability to provide cost
of attendance scholarships”).
Defendants try to show that consumer demand is
dependent on maintaining current restrictions on student-athlete compensation by presenting the opinions
of a survey expert, Dr. Bruce Isaacson, who concluded
that “amateurism” is an “important” factor in consumers’ decision to watch or attend college sports, and is an
“important reason for the popularity of college sports.”
Dr. Bruce Isaacson Direct Testimony Declaration ¶¶ 24,
26, 160, 13, Docket No. 883-3. Dr. Isaacson surveyed
1,086 consumers of college football and basketball, id.
¶¶ 111, 114, on-line to determine the reasons why they
watch college sports. One of the reasons that respondents could select was that student-athletes are “amateurs and/or not paid.” He also asked whether consumers would favor or oppose certain compensation scenarios.
Dr. Isaacson’s survey results and the inferences he
draws from them do not establish or reliably indicate
that a relationship exists between the challenged com-

100a
pensation limits and consumer demand for Division I
basketball and FBS football.
First, the Court is not persuaded that the selection
by some respondents of the “amateurs and/or not paid”
option as a reason for viewing college sports sheds any
light on the question of whether the challenged compensation limits, or increases in them, would cause
those respondents to view fewer college sports events.
Dr. Isaacson did not define “amateurs” or “not paid” in
his survey, or determine what either of those terms
meant to respondents. Trial Tr. (Isaacson) at 1907-09.
Worse, the use of the phrase “amateurs and/or not
paid” renders the responses hopelessly ambiguous.
(emphasis added). The phrase includes the response
“amateurs or not paid,” implying that a respondent
could believe that an athlete could be an amateur
though not unpaid. Dr. Isaacson “intend[ed] [the
terms] to be synonymous” but admits that he provided
no indication to respondents in his survey that they
were so intended. Id. at 1908-09.
Even so, Dr. Isaacson’s conclusion that “amateurism” is an “important” factor in consumers’ decision to
watch or attend college sports is an overstatement, because only 31.7% selected the “amateur and/or not
paid” option as a reason why they watch or attend college sports, meaning that the great majority of respondents, 68.3%, gave other reasons. Isaacson Direct
Testimony Declaration ¶¶ 153, 24, 26; Trial Tr. (Isaacson) at 1903-04. More respondents selected the options
“I like it when certain colleges win or lose” and “my
friends or family watch games, or attend games in person” than the “amateurs and/or not paid” option (which
was the third most common selection). This suggests
that these more-frequently selected reasons are more
“important” factors for viewing college sports than

101a
“amateurism and/or not paid.” Moreover, the respondents who selected the “amateurs and/or not paid” option selected an average of more than four other reasons they watch college sports. Trial Tr. (Isaacson) at
1902.
Second, Dr. Isaacson did not show that opposition
or support for the hypothetical compensation scenarios
he asked about would serve as a reliable indicator of
how consumers would actually behave if the scenarios
were implemented. Trial Tr. (Isaacson) at 1893; Dr.
Hal Poret Direct Testimony Declaration ¶ 28. Dr.
Isaacson tested four compensation scenarios: (1) academic incentive payment; (2) graduation incentive
payment; (3) offseason expenses; and (4) unlimited
payments. Isaacson Direct Testimony Declaration
¶ 126. He also tested a fifth “control” scenario that was
not related to compensation. Id. ¶ 130. Dr. Isaacson’s
survey did not ask whether respondents would view
fewer or more Division I basketball and FBS football
events if additional compensation were provided to
student-athletes.
Dr. Isaacson acknowledged that
measuring consumer preferences is “not the same
thing” as measuring future consumer behavior, and
that he did not do any work to measure any relationship between the two.22 See Trial Tr. (Isaacson) at
1894-96; see also id. (testified at his deposition that his
“survey does not attempt to measure future behavior”);
see also Poret Direct Testimony Declaration ¶ 28 and
Poret Rebuttal Testimony ¶¶ 2-3 (opposition to a sce-

22

The NCAA offered in O’Bannon a survey by Dr. J. Michael
Dennis that did ask respondents about their future behaviors.
This survey suffered from other defects. See O’Bannon I, 7 F.
Supp. 3d at 975-76; O’Bannon II, 802 F.3d at 1059.

102a
nario does not translate to a change in behavior if the
scenario were implemented).23
By contrast, Plaintiffs’ survey expert, Dr. Hal
Poret, did attempt to measure the potential impact on
future consumer behavior of providing additional compensation.24 He conducted a survey of 2,696 people who
watch or attend college basketball or football to assess
the extent to which certain scenarios involving increased compensation, if permitted by conferences and
schools, would cause them to watch or attend these
sports events more or less often. Poret Direct Testimony Declaration ¶¶ 4, 17 and n.2, 18. Unlike Dr. Isaacson, Dr. Poret specifically asked respondents to indicate whether scenarios whereby compensation provided by conferences or schools would include some compensation that is not currently permitted or is currently limited would affect their viewership or attendance
and, if so, to indicate the extent. Id. ¶¶ 44-47. Dr. Poret
tested scenarios involving (1) a healthcare fund; (2) an
academic incentive payment of up to $10,000 per school
year; (3) a one-time graduation incentive payment of up
to $10,000; (4) a post-eligibility undergraduate scholarship; (5) a work-study payment; (6) off-season expenses;
23

Moreover, Dr. Isaacson acknowledged that he was “not
providing an opinion on whether or not opposition to a particular
benefit relates to amateurism. I’m going to leave that to you and
the NCAA and the conferences.” See Trial Tr. (Isaacson) at 1912.
24

The Court finds that Dr. Poret’s survey results and the
conclusions he draws therefrom regarding future consumption of
Division I basketball and FBS football are based on a methodology
that is sufficiently reliable. Dr. Poret showed that his use of controls and other aspects of his survey’s design allowed him to assess
reliably the potential impact on future consumer behavior of implementing the scenarios he tested. Poret Rebuttal Testimony
¶¶ 12-26; Trial Tr. (Poret) at 1713-16; 1725-26; 1729; 1781-82; 1784.

103a
(7) a graduate school scholarship for the cost of attendance; and (8) a post-eligibility study abroad scholarship.
Poret Direct Testimony Declaration ¶ 24. Dr. Poret
concluded, based on the survey responses, that viewership and attendance would not be negatively impacted
if the scenarios he tested were implemented individually. Id. ¶ 59; Trial Tr. (Poret) at 1792, 1795. Dr. Poret’s
survey, therefore, supports the finding that the current
limits on student-athlete compensation, to the extent
they relate to the scenarios that he tested, are not necessary to preserve consumer demand.
Defendants presented no evidence that NCAA bylaws limiting compensation are enacted based on any
analysis of consumer demand.25 Limits on studentathlete compensation and benefits are set through “a
deliberative process” of NCAA members, Trial Tr.
(Lennon) at 1309, and are based on the “delicate balancing that the membership … engage[s] in,” Trial Tr.
(Lennon) at 1552. That deliberative process and delicate balancing do not appear to include considering any
possible effects on consumer demand. Indeed, Lennon,
who has worked for the NCAA for more than thirty
years, testified that he does not recall any instance in
which any study on consumer demand was considered
25

Some witnesses referred to studies conducted by third parties at the request and for the use of conferences. See Trial Tr.
(Scott) at 1167, 1153-57; D0541 (third-party study commissioned by
the Pac-12, dated January 2014); Trial Tr. (Scott) 1149-53, 1172;
D0683 (third-party study commissioned by the Big Ten, dated
September 21, 2009); Trial Tr. (Smith) at 1412-18; D0239 (thirdparty study commissioned by the Big Ten, dated June 3, 2008).
There is no evidence that these or any other studies were considered by the NCAA when enacting any bylaws limiting compensation. These studies were admitted for a limited purpose and not
for the truth of the matter asserted therein because their contents
constitute hearsay within hearsay.

104a
by the NCAA membership when making rules about
compensation. Trial Tr. (Lennon) at 1550-51. Lennon
did not offer much insight as to what the NCAA membership does consider when it decides where to set a
compensation cap, and the explanations that he did
provide suggest that the caps are set arbitrarily.
Defendants also rely on the testimony of lay witnesses to try to establish a connection between the
compensation limits and consumer demand. These lay
witnesses presented their own personal opinions and
those of unidentified other people with whom they have
spoken. This testimony posits that consumers oppose
increasing compensation to student-athletes and support what the witnesses described as amateurism. The
witnesses imply that these consumers would watch
fewer games if they did not believe that studentathletes were amateurs. But there is no way to know
what that concept means to the consumers these witnesses reported on.
Some lay defense witnesses testified that, absent
the challenged NCAA limits in their current form, conferences would set limits, or not, based upon different
values and resources, and that could diminish the consumer appeal of national tournaments or rivalries or
lead to conference realignment. See, e.g., Trial Tr.
(Scott) at 1141-1143. But, at present, there is wide variation among conferences and their members in Division I in terms of the compensation they permit their
student-athletes to receive within the current NCAA
limits.26 Further, resources, budgets, revenues, and
26

For example, the Ivy League does not offer any athleticsbased scholarships. Military academies offer no athletics scholarships but pay their students as salaried employees. Some conferences, like the Big 12, require their members to offer athletics

105a
performance among schools and conferences that continue to play each other in Division I already vary significantly, and the disparities that exist are longstanding.27 There is no evidence that this lack of uniformity
detracted from the popularity of national tournaments
or rivalries. Rascher Direct Testimony Declaration
¶¶ 97-98. The variety in compensation models and resources across schools and conferences may, in fact,
promote the popularity of national tournaments. See
Trial Tr. (Elzinga) at 546 (agreeing that a “david/goliath story” is appealing to consumers in the national NCAA men’s basketball tournament, March
Madness, because it provides “differentiation” due to
the schools’ varying economic models and strengths);
id. at 483.28 Moreover, this testimony is further unscholarships up to the maximum allowed by the NCAA. Some
schools in other conferences cap athletics-related compensation at
the cost of attendance (in other words, these schools do not permit
students to, for example, receive a full cost-of-attendance grant-inaid on top of a Pell grant). Rascher Direct Testimony Declaration
¶¶ 41, 96; Big 12 Handbook J0005 at 0017.
27

See e.g., Trial Tr. (Aresco) at 1054-55 (disparities in revenue
and branding opportunities currently exist between conferences,
and schools with fewer resources still play schools with greater
resources); Bowlsby Dep. Tr. at 38-39 (agreeing that the concept of
“competitive equity is largely a mirage” because “in reality, there
hadn’t been much balance in the past”); Slive Dep. Tr. at 39 (“the
effort to ensure a level playing field was an unattainable concept”).
28

See also Lynn Holzman Dep. Tr. 129-30 (NCAA Vice President for Women’s Basketball, testifying that under current
NCAA rules for March Madness, “institutions with different resources, institutions that provide athletic scholarships and some
that don’t end up being matched up and play against one another.
So if there’s an institution that permissibly is providing a benefit
or something to student-athletes, under the current construct of
the championship, an institution that does not provide the same
thing, in my opinion, would be okay for them to play one another”).

106a
dermined by the fact that other rules that assist in
promoting equity among conferences, such as the limits
on total scholarships, are not being challenged in this
litigation and would not be modified through any of the
proposed alternatives.29
Further, even if modifications to the NCAA’s current compensation scheme resulted in some conferences realigning their membership because of differences in values, the argument that this would harm college sports as a product is unconvincing. Changes in
conference membership have happened frequently in
the last two decades. See Trial Tr. (Elzinga) at 485-87
(it is a “well-established fact” that “dozens and dozens
of teams have” changed conferences over the years and
conference changes “have increased in the past two
decades”); Stip. Facts ¶ 10, Docket No. 1098.
The record does not support a finding that media or
other commercial agreements would be renegotiated or
terminated if conferences realigned. Some of the conference media agreements in the record contain clauses
that permit the networks to renegotiate fees or terminate the agreement in the event that certain schools
leave the conference. There is no evidence that any
agreement was renegotiated or terminated in the past
as a result of realignment. Instead, when the Big East
experienced a significant realignment and ultimately
became the AAC in July 2013, ESPN did not terminate
its contract with the Big East/AAC; in fact, the existence of this contract was described as one of the reasons why the Big East/AAC was able to “recover” from
29

See Trial Tr. (Aresco) at 1025-26 (the “larger schools” cannot “take 200 of the best student athletes” because “there are
scholarship limits, 85 per school. And that was imposed in 1992.
And it was to enhance the competition in college football”).

107a
the realignment. Trial Tr. (Aresco) at 1023, 1048; J1509
at 0003-05.
Defense lay witnesses also testified that consumer
demand for Division I basketball and FBS football is
driven by consumers’ perception that student-athletes
are, in fact, students. See, e,g., Bowlsby Dep. Tr. at 1213 (“This really isn’t about amateurs or not amateurs.
This is … about the concept of student athlete.”);
NCAA Rule 30(b)(6) witness (Mark Lewis) Dep. Tr. at
166 (he would draw the line to limit pay in the context
of consumer demand as follows: “the line is if it’s now
not about … going to school, but now it’s about paying
somebody to play a sport”); Trial Tr. (Blank) at 954, 869
(fans of college sports “love seeing their fellow students
out there playing”); Trial Tr. (Blank) at 949-50 (viewership of college sports is based on student-athletes being
“students at the university”); Trial Tr. (Smith) at 141112 (same); Trial Tr. (Smith) at 1394-95, 1407-08 (the
“collegiate fan is more aligned to the educational experience that college sports provide”). Michael Aresco,
the commissioner of the AAC who previously worked
for CBS and ESPN, noted that the programming of televised college sports focuses on “the college experience,” which includes the campus, academics, and community service. See Trial Tr. (Aresco) at 1032. This
testimony does not establish that the challenged rules
have a connection to consumer demand, however, because student-athletes would continue to be students in
the absence of the challenged rules. Fellow students,
alumni, and neighbors of the schools would continue to
identify with them.
The Court does credit the importance to consumer
demand of maintaining a distinction between college
sports and professional sports. In addition to the fact
that college sports are played by students actually at-

108a
tending the college, student-athletes are not paid the
very large salaries that characterize the professional
sports leagues that many student-athletes aspire to,
the National Basketball Association and the National
Football League.
Some lay witnesses, particularly those who have
professional experience with third-party networks such
as CBS or ESPN, testified that the value of media
rights contracts has a relationship to the popularity of
college sports as being distinguishable from professional sports. Trial Tr. (Aresco) at 1004, 1032-35; see also
NCAA Rule 30(b)(6) witness (Mark Lewis) Dep. Tr. at
65-66 (“the people that are our fans who create that
consumer demand would feel differently if college
sports looked like professional sports”); id. at 99 (“if the
college game looks to be professional sports, less people
will watch it” and “there won’t be the same demand”
and “revenue will decline”).
The Court credits this testimony and finds that
some of the challenged compensation limits may have
some effect in preserving consumer demand to the extent that they serve to support the distinction between
college sports and professional sports. That distinction
cannot be based on student-athletes not receiving any
compensation and benefits on top of a grant-in-aid; this
is because student-athletes currently can receive thousands or tens of thousands of dollars in such compensation, related and unrelated to education, while remaining NCAA amateurs. Accordingly, it follows that the
distinction between college and professional sports
arises because student-athletes do not receive unlimited payments unrelated to education, akin to salaries
seen in professional sports leagues.

109a
Rules that prevent unlimited payments such as
those observed in professional sports leagues, therefore, are procompetitive when compared to having no
such restrictions. Such rules include those challenged
that are necessary to limit compensation and benefits
unrelated to education. The same is true with respect
to the challenged limit on grants-in-aid; because the difference between the fixed costs of tuition, room, board,
and books and the cost of attendance is paid to studentathletes in cash, removing the limit on the grant-in-aid
could result in unlimited cash payments.
However, rules that limit or prohibit non-cash education-related benefits do not serve to foster consumer
demand by maintaining a distinction between college
and professional sports. The value of such benefits, like
a scholarship for post-eligibility graduate school tuition,
is inherently limited to its actual value, and could not be
confused with a professional athlete’s salary. Further,
the relationship of the benefits to education would
serve to emphasize that the recipients are students,
and not professional athletes. A subset of these education-related rules, namely those that limit cash or cashequivalent benefits, such as academic or graduation
awards or incentives, have a procompetitive effect to
the extent that they prevent unlimited cash payments
similar to those observed in professional sports. As will
be discussed in more detail below in the section on less
restrictive alternatives, the current challenged rules
that limit education-related benefits and compensation
are more restrictive than necessary to accomplish this
procompetitive effect.
Integration
Defendants’ second remaining procompetitive justification is that the challenged limits promote the inte-

110a
gration of student-athletes with their academic communities, which improves the college education student-athletes receive.30 Within this rubric, Defendants
present evidence that student-athletes benefit from receiving a college education, that the challenged limits
help to incentivize academics and that the limits help
integrate student-athletes into their academic communities where otherwise a “wedge” might be created.
Defendants have not shown that the challenged
rules have an effect on improving or promoting integration. While the evidence shows that student-athletes
benefit from receiving a college education, it does not
support the notion that any such benefits arise out of,
or are caused by, the challenged compensation limits.
Defendants rely on the expert testimony of Dr.
James Heckman to support the proposition that student-athletes benefit from their college education.
Plaintiffs quarrel with Dr. Heckman’s methodology,31
but accepting his opinion that student-athletes benefit
from attending college, this opinion says nothing about
whether the challenged compensation rules cause the
benefits that he observed. Indeed, Dr. Heckman con30

In this context, Defendants also argue that academic integration itself plays a role in preserving consumer demand for college sports. This is merely a restatement of the argument that the
challenged limits preserve consumer demand because consumers
value amateurism. Indeed, the evidence that Defendants offer to
support both of these arguments overlaps. The Court considers
this argument to be part of the consumer demand justification.
31

Dr. Heckman’s analysis was based on data whose temporal
scope did not capture the class period in this litigation, and did not
include any information about whether the student-athletes actually received an athletics scholarship (and if so, the amount of such
scholarship) or any of the other types of compensation that are at
issue in this case.

111a
ceded as much at trial. See Trial Tr. (Heckman) at 56466. Dr. Heckman also conceded that additional compensation could improve outcomes for student-athletes,
which contradicts the notion that the challenged compensation limits have a positive effect on studentathlete outcomes. Trial Tr. (Heckman) at 597 (if a student-athlete received “another $10,000” then the “student is clearly better off. No question about it”).
Defendants also proffer lay witness testimony on
the benefits of college education. None of this shows a
connection between the challenged compensation limits
and the benefits of the education. Some studentathletes testified that they gained skills and learning
opportunities, but they did not attribute these benefits
to the caps on their grant-in-aid athletic scholarships.
See, e.g., Trial Tr. (Hartman) at 825-27.
Dr. Heckman’s opinion that student-athletes would
be incentivized to spend time on athletics to the detriment of academics if they received additional compensation is undermined by evidence suggesting that additional compensation can have a positive impact on academic achievement. See, e.g., NCAA Research: Trends
in Graduation Success Rates and Federal Graduation
Rates at NCAA Division I Institutions (Nov. 2017),
J0018 at 0026-29; see also Trial Tr. (Petr) 1884-85
(showing that graduation rates for student-athletes in
Division I basketball and FBS football have increased
since 2015, when permissible athletics-related compensation increased).
Defendants point to policies that assist with student-athletes’ involvement in academics and other aspects of university life, but these policies are not related to the challenged compensation limits. See, e.g., Trial Tr. (Blank) at 887-89 (student-athletes at Wisconsin

112a
are not limited in their selection of major or to athleteonly dorms, and are permitted to miss only a certain
number of classes in a season); Trial Tr. (Smith) at
1398-99 (Ohio State requires student-athletes to live on
campus for two years); Trial Tr. (Hatch) at 1997 (same
at Notre Dame); Division I Bylaw 17.1 (governing required time off); Emmert Dep. Tr. at 209-15 (proposals
to reduce athletics time demands).
Defendants next contend that the challenged rules
help prevent a “wedge” between student-athletes and
other students that could result if student-athletes received compensation that was not available to ordinary
students. Defendants again rely on Dr. Heckman, who
opined that academic achievement incentives would isolate student-athletes “from the rest of the student
body” and affect the “camaraderie in these various institutions.” Trial Tr. (Heckman) at 631-33. Defendants
also point to testimony, by university administrators
and former student-athletes, that additional compensation for student-athletes would create tensions and resentment between student-athletes and non-athletes,
as well as among student-athletes to the extent that
any additional compensation is not provided equally.
See, e.g., Trial Tr. (Hatch) at 2000-01; Trial Tr. (Smith)
at 1409-10; Jemerigbe Dep. Tr. at 294-95.
This testimony is outweighed by the fact that income disparities inevitably exist as a result of family
background or wealth derived from other sources. See
e.g. Trial Tr. (Blank) at 920-21 (Wisconsin students
come from different socioeconomic backgrounds).
Moreover, levels of student-athlete compensation vary
already. The amount of a cost-of-attendance grant-inaid is calculated by each school with the discretion to
adjust it on an individual-student basis. J1517 at 0002;
Stip. Facts ¶¶ 3-6, Docket No. 1093; NCAA Rule

113a
30(b)(6) witness (Mark Lewis) Dep. Tr. at 164. Another
reason why compensation can vary among studentathletes is that the NCAA permits them to receive
their grant-in-aid on top of federal Pell grants, which
the government awards to some but not all studentathletes. Also variable is the payment of SAF and
AEF benefits, which are not limited on an individualstudent basis, and the awards incidental to athletics
participation, including performance awards paid in Visa gift cards. Athletes who perform well in the Olympics can receive unlimited compensation for their performance; such compensation has reached six figures.
NCAA Rule 30(b)(6) witness (Mark Lewis) Dep. Tr. at
50-51. And athletes in certain sports, such as tennis,
can receive up to $10,000 in prize money per year prior
to enrolling in college and still compete as amateurs.
See Division I Bylaw 12.1.2.4.2.1. At least for some,
these disparities are not problematic. See, e.g., Trial Tr.
(Jenkins) at 735-736 (he did not resent a football teammate who received more than a million dollars from a
baseball professional league as a recruitment bonus).
In O’Bannon I, the Court found that the challenged
limits may help integrate student-athletes with their
academic communities by preventing a wedge, which
may improve their college education. See 7 F. Supp. 3d
at 980-81. The Ninth Circuit affirmed that finding, although it noted that on appeal the NCAA focused its
argument regarding procompetitive justifications entirely on the amateurism justification. O’Bannon II,
802 F.3d at 1072. Nonetheless, support for the Court’s
finding with respect to integration in O’Bannon I was
weak, and it is weaker now. Evidence was presented at
this trial that did not exist at the time of the O’Bannon
trial showing that the challenged rules are not necessary to prevent a wedge between student-athletes and

114a
other students. This is the natural experiment resulting from the increase to the cost of attendance for
grants-in-aid. As discussed above, since 2015, studentathletes have been allowed to receive thousands of dollars in increased compensation and benefits from full
cost-of-attendance grants-in-aid and other payments.
Rascher Direct Testimony Declaration ¶¶ 52, 54, 75, 7881; Noll Direct Testimony Declaration ¶ 12; P0104;
P0105; P0106. Yet, there is no evidence that, since
2015, student-athletes have experienced more separation. The NCAA’s Rule 30(b)(6) witness, Kevin Lennon, has acknowledged that there is no evidence that
the recent increase in student-athlete compensation has
created a wedge. Trial Tr. (Lennon) at 1355-58 (agreeing that there is no evidence that increased compensation that student-athletes have received because of the
increase of the grant-in-aid limit to cost of attendance
and because of benefits that became permissible or expanded recently, such as premiums for loss-of-value insurance against loss of future professional wages, unlimited food, and travel expenses for family members
for certain events, has created a wedge).
In fact, the challenged limits may serve to increase
separation among students, not decrease or prevent it.
According to Dr. Perlman, the University of Nebraska
chancellor, the challenged compensation limits result in
schools spending their recruitment resources on “unregulated frills” in facilities that benefit studentathletes exclusively, which promotes separation. See,
e.g., Perlman Dep. Tr. at 60-61; see also Bilas Dep. Tr.
at 105-06 (Kentucky’s “opulent” facility for basketball
players “functions to segregate them from the normal
student population”); Emmert Dep. Tr. at 24-29 (expenditures on training facilities, stadiums, and studentathlete living quarters are not limited by NCAA). Lim-

115a
its on compensation may constrain student-athletes’
financial ability to engage in social activities with other
students. See, e.g., Trial Tr. (Alston) at 680 (additional
compensation would have permitted him to “mingle”
more with nonathletes). Accordingly, the evidence
here does not support the notion that the challenged
rules promote integration by preventing a wedge.
Finally, Defendants proffer Dr. Heckman’s opinion
that a “substantial change” to what he terms the “Collegiate Model” would alter the incentives of “participants/stakeholders in the college sports world,” and
would result in a “new equilibrium.” Heckman Direct
Testimony Declaration ¶ 14. This opinion does not appear to be related to the integration theory. Further,
Dr. Heckman did not conduct any empirical, econometric, or quantitative analysis to distinguish “substantial”
changes from those that are not; when asked at trial to
describe exactly what would qualify as a “large” or
“substantial” change, he referred to dollar amounts
that “have been put out in the literature” or that others
had mentioned during trial, but he declined to adopt
any such numbers as what he believes, based on his
own work, is “large” or “substantial.” Trial Tr. (Heckman) at 607-11.
Because Defendants have not met their burden to
show that the challenged limits are procompetitive due
to an effect on promoting integration, by preventing a
wedge or otherwise, the Court finds that Defendants
have not shown that the challenged rules are justified
based on this theory.

116a
VI. RULE OF REASON:
ALTERNATIVES
CHALLENGED RESTRAINTS

TO

THE

The Court finds that the current rules, read together, are more restrictive than necessary to prevent
demand-reducing unlimited compensation indistinguishable from that observed in professional sports.
Plaintiffs propose three alternatives to the challenged
restraints as less restrictive.
First, they propose an alternative that would prohibit the NCAA from placing any limits on compensation or benefits, whether or not related to education,
given in exchange for athletic services. This would
permit individual conferences to set limits on such
compensation or benefits.
Second, they propose an alternative that would allow the NCAA to continue limiting the compensation or
benefits given in exchange for athletic services except
for (1) benefits that are related to education, and (2) the
seventeen benefits incidental to athletics participation
that the NCAA currently allows and caps. These are
listed in Plaintiffs’ Opening Statement, Appendix C,
Docket No. 868-3. While these could no longer be
capped by the NCAA, limits on these two types of
compensation and benefits could nonetheless be maintained or set by individual conferences.
Third, Plaintiffs propose an alternative that would
allow the NCAA to continue to limit the compensation
or benefits given in exchange for athletic services, but
would not allow NCAA limits on compensation and
benefits related to education. Again, limits on education-related benefits could be set by individual conferences.

117a
For all of the proposed alternatives, any permissible limits could be enforced by the NCAA, the conferences, or the schools. Schools, of course, could continue
to set their own limits on their offers.
First and Second Proposed Alternatives
The Court finds that Plaintiffs’ first proposed alternative, which would eliminate all NCAA limits on
compensation, would not be as effective as the current
rules in preserving consumer demand for Division I
basketball and FBS football; that alternative leaves
open the possibility that at least some conferences
would allow their schools to offer student-athletes unlimited cash payments that are unrelated to education.
Such payments could be akin to those observed in professional sports leagues. Payments of that nature could
diminish the popularity of college sports as a product
distinct from professional sports. The Court notes that
Plaintiffs’ survey expert Dr. Poret did not test a proposed scenario of cash compensation greater than
$10,000 in value.
Plaintiffs and their experts strenuously argue and
opine, perhaps correctly, that if this alternative were
adopted, conference officials, as rational economic actors, would not act contrary to their members’ aggregate economic interests, and would not choose to pay
amounts of cash compensation unrelated to education
that would be demand-reducing for Division I sports.
Whether by survey or trial and error, these actors
would eventually discover the level of cash compensation to student-athletes that would encourage competition for recruits but would not reduce the demand for
their product. Be that as it may, the inevitable trialand-error phase could result in miscalculations by one
or more conferences as to levels of cash pay that would

118a
not reduce demand for the product, and this could produce unintended consequences.
It is to be hoped that gradual change will be instructive. If it were persuaded to do so, the NCAA
could conduct market research and allow gradual increases in cash compensation to student-athletes to determine an amount that would not be demand-reducing.
Plaintiffs’ second proposed alternative likewise
would not be as effective in achieving the procompetitive effect of the challenged rules to the extent that it
would remove the NCAA caps on athletics participation awards and other compensation and benefits that
are unrelated to education. It would prohibit NCAA
caps on cash or cash-equivalent awards or incentives.
Without such limits, conferences could suddenly decide
to allow the award of any sum of cash to some or all
student-athletes. This could lead to unlimited cash
payments and the same effect as the first alternative.
Third Proposed Alternative as Modified:
Prohibiting Limits on Most EducationRelated Payments
The Court finds that a less restrictive alternative
to the current set of challenged NCAA limits would be
to (1) allow the NCAA to continue to limit grants-in-aid
at not less than the cost of attendance; (2) allow the association to continue to limit compensation and benefits
unrelated to education; (3) enjoin NCAA limits on most
compensation and benefits that are related to education, but allow it to limit education-related academic or
graduation awards and incentives, as long as the limits
are not lower than its limits on athletic performance
awards now or in the future. This is Plaintiffs’ third
proposed alternative, as modified by the Court. It

119a
would be less restrictive than the current compensation
rules, allowing for additional compensation and benefits
related to education. It would therefore be less harmful to competition in the relevant market, but would not
provide a vehicle for unlimited cash payments, unrelated to education.
The types of education-related benefits that could
not be capped by the NCAA would include those that it
currently prohibits or limits in some fashion. These include computers, science equipment, musical instruments and other items not currently included in the
cost of attendance calculation but nonetheless related
to the pursuit of various academic studies. Also included would be post-eligibility scholarships to complete
undergraduate or graduate degrees at any school;
scholarships to attend vocational school; expenses for
pre- and post-eligibility tutoring; expenses related to
studying abroad that are not covered by the cost of attendance; and paid post-eligibility internships. See Trial Tr. (Lennon) at 1559-1565, 1571-72; NCAA Rule
30(b)(6) witness (Kevin Lennon) Dep. Tr. 195-213; Division I Bylaw 13.2.1.1(k). There may be other educationrelated benefits that the NCAA, in an exercise of its
good faith judgment, would allow. Payment for these
benefits would be limited to their actual value and could
be provided in kind. For that reason, they would not be
a vehicle for potentially unlimited cash payments.
A subset of education-related benefits, namely,
cash academic or graduation awards and incentives, if
not capped by the NCAA, could potentially be unlimited and allow for payments indistinguishable from
those received in professional sports. Accordingly, limits on these awards or incentives may have the procompetitive effect of preventing professional-style unlimited cash payments. This alternative would allow

120a
the NCAA to place a limit on such awards, as long as
the limit is not less than the maximum amount of compensation that an individual student-athlete could receive in an academic school year in participation, championship, or special achievement awards (combined)
under Division I Bylaw, Article 16, and listed in Figures 16-1, 16-2, and 16-3 of the Division I Manual, J0024
at 0249-50. (These figures list the current caps.) If the
NCAA increased the current athletics participation
awards limit just described, any limits on academic or
graduation awards and incentives must be increased so
that they are never less than the new athletics participation awards limit. Allowing the NCAA to cap education-related awards and incentives at the athletics participation awards limit, which is an amount that has
been shown not to decrease consumer demand and not
to be inconsistent with the NCAA’s understanding of
amateurism, would enable the NCAA to prevent unlimited cash, demand-reducing payments. On the other
hand, the NCAA could decide to set higher limits, or no
limits at all, for academic or graduation awards and incentives.
Individual conferences could vote to set or maintain
limits on education-related benefits that the NCAA will
not be allowed to cap. Conferences could also set limits
on academic and graduation awards and incentives.
This would not have an anticompetitive effect because
no individual conference dominates nearly the entire
market, like the NCAA does. Rascher Direct Testimony Declaration ¶¶ 160-61. Market concentration would
be reduced in the absence of NCAA caps limiting education-related compensation and benefits described
above. Thus, the third alternative would be less restrictive than maintaining the current NCAA compensation scheme. Id. ¶¶ 162, 175.

121a
NCAA’s latitude to superintend college sports
would not be greatly impacted. This alternative would
affect only a small fraction of the NCAA’s rulemaking
jurisdiction, namely rules that limit education-related
compensation and benefits.
The third alternative as modified would be virtually as effective as the current rules in achieving the effect on the preservation of consumer demand for Division I basketball and FBS football that the Court found
here, and its implementation would not require significant increased costs.
1. Virtually as Effective
As discussed above, according to Defendants’ own
witnesses, consumer demand for Division I basketball
and FBS football is driven largely by consumers’ perception that student-athletes are, in fact, students.
Providing additional, even uncapped, education-related
compensation and benefits to student-athletes would
not affect student-athletes’ status as students. These
benefits are, by definition, related to education and
thus would be consistent with the values propounded
by the NCAA. The Principle of Amateurism in its constitution, quoted above, holds that amateur studentathletes should be motivated primarily by education.
Education-related compensation and benefits would
enhance the student-athletes’ connection to academics.
See, e.g., Perlman Dep. Tr. at 126-27 (“I think if you’re
paying them to play athletics, I think it is inconsistent
with the idea of what a student athlete is. I don’t think
it’s inconsistent to provide them with benefits that relate to the educational enterprise”); MAC Rule 30(b)(6)
witness (Jon Steinbrecher) Dep. Tr. at 189 (compensation above cost of attendance is not problematic because “the key point” is “linking what we’re doing to

122a
the pursuit of the educational opportunities of the individual involved”); Renfro Dep. Tr. at 84 (“I personally
don’t see the offer of a post graduate grant in aid as
something that violates the concept of amateurism[.]”);
Bowlsby Dep. Tr. at 13-14 (an inducement to stay in
school an extra year or to graduate “is worthy of consideration”).
Other evidence shows that providing additional education-related compensation would not negatively impact consumer demand. See, e.g., NCAA Rule 30(b)(6)
witness (Mark Lewis) Dep. Tr. at 269-70 (changes to
the NCAA rules regarding compensation and benefits
that have occurred in the last five years have not had
“any adverse impact on consumer demand” because
“they’re all tied to education”). Prohibitions or limitations on such benefits have not been shown to be necessary to preserve the distinction between college and
professional sports in that the benefits are inherently
limited in value and nature and can be provided in kind,
not cash; accordingly, they could not be confused with
professional-style unlimited cash payments. The natural experiments, discussed above, show that recent increases in student-athlete compensation, related and
even unrelated to education, have not decreased consumer demand for Division I basketball or FBS football. Dr. Hal Poret’s survey also supports this finding.
One of the scenarios he tested was offering scholarships
to complete an undergraduate or graduate degree at
any institution, which he found would not negatively
impact consumer demand. Poret Direct Testimony
Declaration ¶¶ 17, 19-24, 26, 59, 131. Dr. Isaacson’s survey does not speak to the possible effects of implementing this alternative, because he did not test any analogous scenarios.

123a
The academic and graduation awards and incentives that would be allowed with a cap in the same
amount as current caps on athletic performance awards
likewise will be virtually as effective as the current
compensation scheme. The amount will not be demandreducing because it will be in the same amount that is
allowed for athletic performance awards, which are
deemed to be consistent with amateurism and the
preservation of the distinction between college and professional sports. And because they are educationrelated, they will further the perception of the studentathletes as students.
Thus, this alternative set of rules will be as effective as the current set of challenged rules in preserving
consumer demand. It will also allow the NCAA to
maintain the distinction between college studentathletes playing for educational benefits and professional athletes playing for large cash salaries unrelated
to education. The education-related amounts that could
be expended under this alternative would be either inherently limited by the actual value of the benefit, or
limited by the NCAA at a level that has been shown
not to be demand-reducing or inconsistent with amateurism. The NCAA will be permitted to continue to
cap grants-in-aid at not less than the cost of attendance.
The association will remain free to bar or limit compensation and benefits that are unrelated to education, including cash or cash-equivalent awards for athletic performance. Conferences individually will be free to limit
any benefits that the NCAA could not.
2. No Significant Increased Costs
The Court finds that the implementation of this
third alternative as modified would not result in significant increased costs. To the contrary, because this al-

124a
ternative would result in the elimination of NCAA caps
on most education-related benefits, it would eliminate
the need to expend resources on compliance and enforcement in connection with such caps. The NCAA
engages in rule-making, interpretation, investigations,
and enforcement of its rules.32 It could employ its systems and resources to the extent it chooses to limit
cash or cash-equivalent academic or graduation awards
and incentives.
Individual conferences would not be required to
enact their own rules to limit any education-related
benefits that the NCAA would not be able to cap.
Even so, the Court finds no evidence that the costs that
could be incurred to do so, if any, would be significant.
Conferences are required to be “legislative bod[ies],”
Division I Constitution Article 3.3.1.1, and thus, they
already can and do enact their own rules. The scope of
the benefits that could not be capped by the NCAA under this alternative would be those related to education, which is a small fraction of the conduct that the
NCAA currently regulates and enforces. Any new
rulemaking activities by the conferences would be correspondingly limited.
32

Starting in August 2019, as a result of the findings and recommendations of the Commission on College Basketball chaired by
Dr. Condoleezza Rice, see P0060, the NCAA will add a body composed of “both external investigators with no school or conference
affiliations and select NCAA enforcement staff” to adjudicate independently cases involving potential violations of NCAA rules
that are deemed “complex.” Stip. Facts ¶ 9, Docket No. 1098 (internal quotation marks omitted). Examples of complex cases include alleged violations of core NCAA values such as prioritizing
academics and the well-being of college athletes. Id. The perceived need for this new enforcement mechanism is unrelated to
the changes mandated here, but this mechanism could certainly be
used to police them.

125a
Conferences are also required by the NCAA to
have compliance programs and are involved in ensuring
compliance with both NCAA and conference rules by
their members. The changes contemplated here would
not add to their enforcement burden. Conferences also
may require their members to enforce both conference
and NCAA rules. See, e.g., The Big 10 Handbook at
J0006 at 0013 (providing that it “shall be the responsibility of each member university” to “adhere to and enforce all Conference Rules and Agreements, and the
NCAA Constitution, Bylaws and Regulations and their
respective interpretations”). Thus, schools currently
engage in compliance efforts, including investigations,
and enforcement of NCAA and conference rules relating to student-athlete compensation and eligibility.33
Schools also currently interpret NCAA rules. P0146 at
0002. Implementing this alternative will impose little
or no additional burden on the schools.
Some defense witnesses testified that eliminating
all of the challenged NCAA limits would result in new
costs to the conferences and schools. See, e.g., Trial Tr.
(Scott) 1180; Trial Tr. (Smith) at 1520-23. The Court
finds that this testimony lacks specificity or support
and thus is speculative. Other evidence also outweighs
or undermines it.34 Additionally, this testimony hy33

The NCAA requires all of its members to comply with and
enforce its rules. See, e.g., Division I Constitution Article 1.3.2
(requiring member institutions to “apply and enforce” NCAA legislation about eligibility, financial aid, and recruiting, among other
matters); Division I Constitution Article 2.1 (requiring member
schools to maintain “institutional control”).
34

For example, Larry Scott testified that in the absence of
NCAA compensation limits, there would be “significant additional
infrastructure and expense” at the Pac-12 relating to “rule development.” Trial Tr. (Scott) at 1136-37. But other evidence shows

126a
pothesized the removal of all NCAA compensation limits, which diminishes its relevance in the context of implementing the third alternative as modified, whereby
only a subset of the challenged rules will be affected.35
Finally, to the extent that new enforcement costs
at the conference or school levels are incurred, the
NCAA could shift to its members some of the resources
it now spends on enforcement, so there would be no net
new costs. Trial Tr. (Scott) at 1240 (suggesting that
any new costs at the conference and school levels could
be offset by such distributions). In sum, the Court
finds that any new costs of implementing this alternative would not rise to the level of “significant.”
The Court notes that it asked Defendants several
times, during the closing argument hearing held on
December 18, 2018, and previously, to propose, based
on their superior knowledge of the NCAA and its
members and their functions, adjustments to the challenged rules or to Plaintiffs’ proposed less restrictive
alternatives that would be more workable from their
perspective. They offered none.

that the Pac-12 already has a system in place for passing and
amending bylaws relating to student-athlete financial aid and otherwise. See Pac-12 Handbook, J0010 at 0008, 0014, 0015, 0017-18.
35

Defendants contend in their opening statement that adopting any of Plaintiffs’ proposed alternatives would result in conference realignment, which would entail increased costs. As discussed above, conference realignment is common and the evidence
does not support a finding that adopting the third alternative
would result in conference realignment.

127a
CONCLUSIONS OF LAW
I.

LEGAL STANDARD UNDER SECTION 1 OF THE SHERMAN
ACT

Section 1 of the Sherman Act makes it unlawful to
form a “contract, combination in the form of trust or
otherwise, or conspiracy, in restraint of trade or commerce among the several States[.]” 15 U.S.C. § 1. “To
establish a claim under Section 1 of the Sherman Act,
Plaintiffs must show 1) that there was a contract, combination, or conspiracy; 2) that the agreement unreasonably restrained trade under either a per se rule of
illegality or a rule of reason analysis; and 3) that the restraint affected interstate commerce.” Cnty. of Tuolumne v. Sonora Cmty. Hosp., 236 F.3d 1148, 1155
(9th Cir. 2001) (citation and internal quotation marks
omitted).
Here, Plaintiffs challenge the NCAA rules that
generally (1) cap at the cost of attendance grants-in-aid
they may receive for their athletic services, and (2) limit the additional compensation and benefits that they
can receive in addition to a grant-in-aid athletic scholarship, which have a monetary value above the cost of
attendance. Plaintiffs contend that Defendants enact
these limits by exercising their monopsony power by
way of price-fixing agreements that are made and enforced through the NCAA’s bylaws. Plaintiffs contend
that they would receive more compensation in exchange for their athletic services in the absence of
these limits.
As discussed in the findings of fact above, on summary judgment the Court found no genuine dispute of
material fact as to the existence of an agreement among
Defendants in restraint of trade that affects interstate

128a
commerce, which satisfies the first and third elements
of a Section 1 claim. Specifically, Defendants did not
meaningfully dispute evidence showing that (1) the
compensation limits that Plaintiffs challenge are enacted by agreement of Defendants through the NCAA’s
legislative process and are embodied in NCAA rules
published in the NCAA Division I Manual; (2) Defendants enforce these rules by requiring all NCAA members to comply with them, and by punishing violations;
(3) these rules affect interstate commerce, because they
regulate transactions between Plaintiffs and their
schools with respect to Plaintiffs’ athletic services in
multiple states nation-wide; and (4) these transactions
are commercial because they regulate an essential
component of Division I basketball and FBS football.
Summary Judgment Order at 15, Docket No. 804; see
also O’Bannon II, 802 F.3d at 1065-66 (holding that the
NCAA’s compensation rules are restraints of trade that
regulate “commercial transaction[s]”).
As to the remaining element of a Section 1 claim,
which requires a showing that the challenged restraints
are unreasonable under either the per se rule or the
Rule of Reason, the Court held on summary judgment
that the NCAA’s regulations “must be tested under a
rule-of-reason analysis” as opposed to under the per se
rule. Summary Judgment Order at 15, Docket No. 804;
see also O’Bannon II, 802 F.3d at 1053 (holding that
“the NCAA’s amateurism rules … must be analyzed
under the Rule of Reason”).
Horizontal price-fixing agreements, those among
competitors, like the challenged rules in this case, “are
ordinarily condemned as a matter of law under an ‘illegal per se’ approach because the probability that these
practices are anticompetitive is so high … . In such circumstances a restraint is presumed unreasonable with-

129a
out inquiry into the particular market context in which
it is found.” Nat’l Collegiate Athletic Ass’n v. Bd. of
Regents of Univ. of Okla., 468 U.S. 85, 100 (1984)
(Board of Regents) (citation omitted). But where, as
here, a “certain degree of cooperation” is necessary to
market college sports, the Rule of Reason is appropriate. O’Bannon II, 802 F.3d at 1069 (quoting Board of
Regents, 468 U.S. at 117) (internal quotation marks
omitted).
II. ISSUE OR CLAIM PRECLUSION
As a threshold matter, Defendants argue that
Plaintiffs have not shown that this case is not precluded
by the Ninth Circuit’s ruling in O’Bannon II. The
Court denied Defendants’ motion for summary judgment that this action is barred by O’Bannon II under
the doctrines of res judicata36 and collateral estoppel.37
See Summary Judgment Order at 9-15, Docket No. 804.
Defendants invite the Court to revisit these issues, arguing that Plaintiffs must, but have failed to, show that
36

Res judicata prohibits the re-litigation of any claims that
were raised or could have been raised in a prior action. TahoeSierra Pres. Council, Inc, v. Tahoe Reg’1 Planning Agency, 322
F.3d 1064, 1077-78 (9th Cir. 2003). Three elements must be present for res judicata to apply: (1) an identity of claims; (2) a final
judgment on the merits; and (3) the same parties or their privies.
Id. at 1077.
37

Collateral estoppel “prevents a party from relitigating an
issue decided in a previous action if four requirements are met:
‘(1) there was a full and fair opportunity to litigate the issue in the
previous action; (2) the issue was actually litigated in that action;
(3) the issue was lost as a result of a final judgment in that action;
and (4) the person against whom collateral estoppel is asserted in
the present action was a party or in privity with a party in the
previous action.’ ” Kendall v. Visa U.S.A., Inc., 518 F.3d 1042,
1050 (9th Cir. 2008) (citation omitted).

130a
a new antitrust violation occurred since O’Bannon I or
that there has been any material change in the factual
basis for O’Bannon II.
It is not Plaintiffs’ burden to show that this action
is not precluded; instead, the burden of proving preclusion is on Defendants. See Karim-Panahi v. Los Angeles Police Dep’t, 839 F.2d 621, 627 n.4 (9th Cir. 1988)
(res judicata); Kendall v. Visa U.S.A., Inc., 518 F.3d
1042, 1050-51 (9th Cir. 2008) (collateral estoppel). Defendants failed to satisfy this burden on summary
judgment, and they have offered nothing new to warrant altering the Court’s summary judgment holding on
this issue.
In its Summary Judgment Order, the Court found
that material differences between this action and the
O’Bannon case prevent a finding that this action is precluded by that case. These include (1) that class members in the two actions are not in complete privity; and
(2) that the conduct and rules challenged, the rights
implicated, and the evidence presented and available
were not the same in both actions.38
The class in O’Bannon did not include, as does one
of the classes here, female student-athletes. The class
in O’Bannon was not limited to student-athletes in re38

See Costantini v. Trans World Airlines, 681 F.2d 1199,
1201-02 (9th Cir. 1982) (citation omitted) (holding that a single
cause of action for the purpose of applying res judicata exists in
successive lawsuits, if, among other things, both actions “involve
infringement of the same right,” and “substantially the same evidence” was presented in both actions); Cent. Delta Water Agency
v. United States, 306 F.3d 938, 953 (9th Cir. 2002) (holding that
collateral estoppel cannot be applied where the facts of the prior
action are merely “similar” to the ones in the second case) (citation
and internal quotation marks omitted).

131a
ceipt of an offer for a full grant-in-aid athletic scholarship; it included male Division I basketball and FBS
football student-athletes whose NIL were used or could
have been used in game footage or videogames licensed
or sold by the NCAA and its licensees, regardless of
whether they received any scholarship money.
O’Bannon II, 802 F.3d at 1055-56. By contrast, the
classes in this case include student-athletes who were
offered or received a full grant-in-aid athletic scholarship. No use of their NIL was necessary; therefore,
these classes are not limited to student-athletes whose
NIL were used or licensed. Additionally, the classes in
this case are limited to student-athletes who received
an offer for a full grant-in-aid from March 5, 2014, to the
date of final judgment in this action; few of the male
class members in this case would have been O’Bannon
class members because most would have been recruited
after the O’Bannon I trial, which ended in August 2014.
The crux of the O’Bannon case was the right to
student-athletes’ NIL. The plaintiffs sought relief as a
result of price-fixing conduct by the NCAA and its licensing partners that prevented them from benefiting
financially, through compensation from their schools or
from outside sources, from the use and licensing of
their NIL. The class members in O’Bannon were required to release the rights to their NIL, the use and
licensing of which had monetary value, to the NCAA as
a condition of eligibility to play in Division I basketball
and FBS football; this was the case regardless of
whether they received a grant-in-aid. The rules challenged in O’Bannon related to NIL rights and their
commercialization by the NCAA and its licensees, to

132a
the exclusion of student-athletes.39 See O’Bannon II,
802 F.3d at 1055 (“The gravamen of O’Bannon’s complaint was that the NCAA’s amateurism rules, insofar
as they prevented student-athletes from being compensated for the use of their NIL, were an illegal restraint
of trade under Section 1 of the Sherman Act, 15 U.S.C.
§ 1.”); Id. at 1072 (concluding that “the NCAA’s compensation rules fix the price of one component (NIL
rights) of the bundle that schools provide to recruits”).
The plaintiffs in O’Bannon did not challenge the limit
on a full grant-in-aid athletic scholarship, although the
limit was implicated in the less restrictive alternative
that the plaintiffs proposed and that this Court adopted.
In this case, by contrast, Plaintiffs seek relief from
price-fixing conduct by the NCAA, Conference Defendants, and other NCAA members that prevents
them from receiving compensation and benefits from
their schools in excess of certain limits in exchange for
their athletic services. The conduct at issue here is not
connected to NIL rights. The rules challenged in this
case, in addition to the limit on a grant-in-aid, include
those that limit other compensation and benefits that
student-athletes can receive on top of a full cost-ofattendance grant-in-aid. See Pls.’ Opening Statement
at 13-15 and Appendices A-C, Docket No. 868-3, for a
list of the challenged rules. They include those that
limit compensation and benefits related to education,
such as scholarships for undergraduate or graduate
study at other institutions. They also include rules that
limit compensation and benefits incidental to athletics
39

See O’Bannon I, Case No. 09-cv-3329, Pls.’ Trial Brief at 4,
Docket No. 172 (listing challenged rules); Case No. 09-cv-1967,
Third Am. Consolidated Complaint ¶ 359, Docket No. 832 (same).

133a
participation but are unrelated to education, such as
performance awards and travel expenses for studentathletes’ family members. These rules were not challenged in O’Bannon. Accordingly, neither these rules
nor the compensation and benefits that can be provided
pursuant to them were comprehensively addressed in
that case.
Some of the rules challenged in this case did not exist or have materially changed since the O’Bannon trial, those relating to reimbursement for travel expenses
for family members, student-athletes borrowing
against their future earnings to purchase loss-of-value
insurance, and payments to international studentathletes from their home countries.
While some NCAA rules were challenged in both
cases, these are core rules that address eligibility and
compensation in general terms.40 This overlap is a consequence of the interconnected nature of NCAA bylaws, and does not indicate that the two actions overlap
in terms of the specific and distinct conduct being challenged, or the rights affected. The fact that the limit on
the grant-in-aid is addressed in both cases also does not
preclude this action. The NCAA changed this limit before the Court’s injunction in O’Bannon went into effect, and the NCAA’s changed rule differs from the less
restrictive alternative that the Court found in
40

For example, challenged rules that are common to both
cases include Division I Bylaw 13.2.1 (prohibiting benefits and financial aid not permitted by the NCAA); Division I Bylaw 16.02.5
(prohibiting funds, awards, or benefits not permitted by the
NCAA); and Division I Bylaw 12.1.2.1 (listing prohibited forms of
“pay”). These rules must be read in conjunction with rules that
address compensation and benefits in more specific terms and in
more specific contexts.

134a
O’Bannon I with respect to the student-athletes who
would receive the relief and the source and type of the
compensation that would cover the difference between
the prior grant-in-aid limit and the cost of attendance.
Moreover, since O’Bannon, there have been material increases in permissible compensation above the
cost of attendance that is not related to education.
These increases are relevant to the question of whether
restrictions on student-athlete compensation are necessary to preserve consumer demand for college sports as
distinct from professional sports. These include the
payment by schools from SAF monies of $50,000 premiums for loss-of-value insurance against the loss of
future professional earnings in case of injury in college.
In January 2015, the NCAA began to pay up to $3,000
for family members of student-athletes to attend the
Final Four games and up to $4,000 to attend basketball
championships; the College Football Playoff committee
began to pay up to $3,000 for each competing athlete’s
family members to travel to that event. Studentathletes previously could receive performance awards
in the form of store-specific gift cards but can now receive these awards, in capped amounts, in the form of
Visa gift cards that can be used anywhere that accepts
Visa. Schools can now provide unlimited food to student-athletes.
Defendants note that some of the forms of compensation and benefits addressed in this case, such as Pell
grants, benefits from the SAF, and store-specific gift
cards, were mentioned or can be found in the record in
O’Bannon. This fact is not sufficient to support Defendants’ claim preclusion argument.
Because student-athlete compensation has expanded since O’Bannon, Defendants also argue that no new

135a
actionable conduct or material change in the factual basis of O’Bannon has occurred since O’Bannon I to justify a conclusion that this action is not precluded. This
argument misses the point. It is the fact that the prices
of student-athlete compensation are fixed, as opposed
to the amount at which these prices are fixed, that renders the agreements at issue anticompetitive. See
O’Bannon II, 802 F.3d at 1071 (“It is no excuse that the
prices fixed are themselves reasonable.”) (quoting Catalano, Inc, v. Target Sales, Inc., 446 U.S. 643, 647
(1980)) (internal quotation marks omitted). Defendants
do not dispute that the challenged rules embody
agreements among competitors that fix the prices of
student-athlete compensation. Accordingly, the Court
cannot dismiss Defendants’ “anticompetitive pricefixing agreement as benign,” see id., simply because
they contend that the fixed prices are more reasonable
than they used to be. See Associated Press v. United
States, 326 U.S. 1, 16 n.15 (1945) (“[T]he Sherman Act
cannot be evaded by good motives.”) (citation and internal quotation marks omitted).
The material factual differences discussed above
defeat Defendants’ preclusion arguments and warrant
examining the conduct challenged in this case under the
Rule of Reason. See Oltz v. St. Peter’s Cmty. Hosp., 861
F.2d 1440, 1449 (9th Cir. 1988) (“The rule of reason requires an evaluation of each challenged restraint in
light of the special circumstances involved. That the
analysis will differ from case to case is the essence of
the rule.”) (citation omitted). Whether the challenged
price-fixing conduct here is justified by a procompetitive effect must be proved, and not presumed. See
O’Bannon II, 802 F.3d at 1063-64.
In sum, because Plaintiffs raise new antitrust challenges to conduct affecting a different class, in a differ-

136a
ent time period, relating to rules and forms of compensation that are not the same as those challenged in
O’Bannon, the claims in this case are not precluded by
O’Bannon II.
III. THE RULE OF REASON
The Rule of Reason is intended for the analysis of
“agreements whose competitive effect can only be
evaluated by analyzing the facts peculiar to the business, the history of the restraint, and the reasons why
it was imposed.” Nat’l Soc. of Prof’l Eng’s v. United
States, 435 U.S. 679, 692 (1978). “[T]he purpose of the
analysis is to form a judgment about the competitive
significance of the restraint; it is not to decide whether
a policy favoring competition is in the public interest, or
in the interest of the members of an industry.” Id.; see
also Cont’l T. V., Inc, v. GTE Sylvania Inc., 433 U.S.
36, 49 (1977) (“Under this rule, the factfinder weighs all
of the circumstances of a case in deciding whether a restrictive practice should be prohibited as imposing an
unreasonable restraint on competition.”).
Several Ninth Circuit opinions have articulated
burden-shifting schemes to apply the Rule of Reason.
“Under the rule of reason burden-shifting scheme,
plaintiffs first must ‘delineate a relevant market and
show that the defendant plays enough of a role in that
market to impair competition significantly.’ ” Cnty. of
Tuolumne, 236 F.3d at 1150 (citation omitted). Second,
if the plaintiffs make that showing, the burden then
shifts to the defendants to offer evidence that a legitimate procompetitive effect is produced by the challenged behavior. Id. Third, if the defendants do so, the
burden then shifts back to the plaintiffs to demonstrate
that there are less restrictive alternatives to the challenged conduct. Id. Finally, if the plaintiffs fail “to

137a
meet their burden of advancing viable less restrictive
alternatives,” the court then will “reach the balancing
stage,” wherein the court “must balance the harms and
benefits” of the challenged conduct to determine
whether it is “reasonable.” Id. at 1160 (citing Phillip E.
Areeda and Herbert Hovenkamp, Antitrust Law: An
Analysis of Antitrust Principles and Their Application ¶ 1507b).
IV. RULE OF REASON: MARKET DEFINITION
Plaintiffs first must show that the challenged conduct has significant anticompetitive effects in the relevant market. “Proof that defendant’s activities had an
impact upon competition in the relevant market is ‘an
absolutely essential element of the rule of reason
case.’ ” Supermarket of Homes, Inc. v. San Fernando
Valley Bd. of Realtors, 786 F.2d 1400, 1405 (9th Cir.
1986) (citation omitted). The term “relevant market” in
this context “encompasses notions of geography as well
as product use, quality, and description. The geographic market extends to the area of effective competition
… where buyers can turn for alternative sources of
supply. The product market includes the pool of goods
or services that enjoy reasonable interchangeability of
use and cross-elasticity of demand.” Tanaka v. Univ. of
S. Cal., 252 F.3d 1059, 1063 (9th Cir. 2001) (citation and
internal quotation marks omitted).
As discussed in the findings of fact, Plaintiffs produced sufficient evidence on summary judgment to establish the existence of a relevant market comprising
national markets for Plaintiffs’ labor in the form of athletic services in men’s and women’s Division I basketball and FBS football, wherein each class member participates in his or her sport-specific market. In these
markets, the class members sell their athletic services

138a
to the schools that participate in Division I basketball
and FBS football in exchange for grants-in-aid and other compensation and benefits permitted by NCAA
rules on top of grants-in-aid. Because of the absence of
any viable substitutes for Division I basketball and
FBS football, Defendants hold monopsony power in all
of these markets and exercise that power to cap artificially the compensation offered to recruits. This is reflected in the high degree of concentration found in the
relevant market. Class members cannot obtain the
same combination of a college education, high-level television exposure, and opportunities to enter professional sports other than from Division I schools. See
O’Bannon I, 7 F. Supp. 3d at 965-68, 991-93 (finding
relevant market wherein Division I basketball and FBS
football schools compete to recruit elite football and
basketball players); O’Bannon II, 802 F.3d at 1056-57,
1070 (affirming relevant market found in O’Bannon I
on the ground that the NCAA did not “take issue with
the way that the district court defined” the relevant
market).
During summary judgment proceedings, Defendants did not request that the Court adopt an alternative
market definition, or point to any admissible evidence
to create a genuine issue of material of fact with respect to market definition. Although Defendants argued later that this Court should have considered or
adopted a multi-sided market definition, the Court rejected these arguments on the ground that they were
untimely, and on the ground that the only evidence to
support the belated multi-sided market definition was
inadmissible in any event. See generally Order Reaffirming Exclusion of Certain Expert Testimony by Dr.
Elzinga, Docket No. 1018.

139a
V. RULE OF REASON: ANTICOMPETITIVE EFFECTS
The requisite showing of significant anticompetitive effects calls for evidence that “the activity is the
type that restrains trade and that the restraint is likely
to be of significant magnitude.” Bhan v. NME Hosps.,
Inc., 929 F.2d 1404, 1413 (9th Cir. 1991). This can be
done by showing that “the defendant plays enough of a
role” in the relevant market “to impair competition significantly,” or by showing that the challenged restraint
“has actually produced significant anti-competitive effects,” such as by restricting output or fixing a price.
Id.; Board of Regents, 468 U.S. at 109 (“[W]hen there is
an agreement not to compete in terms of price or output, ‘no elaborate industry analysis is required to
demonstrate the anticompetitive character of such an
agreement.’ ” ) (citation omitted).
Because Defendants have near complete dominance
of, and exercise monopsony power in, the relevant
market, and because it is undisputed that the challenged restraints suppress competition and fix the price
of student-athletes’ services, the Court has found that
the anticompetitive effects of the challenged rules are
severe. On summary judgment, the Court found no
genuine issue of material fact that the challenged rules
cause significant anticompetitive effects in the relevant
market. Plaintiffs produced sufficient evidence on
summary judgment and at trial to show that the challenged rules amount to overt horizontal price-fixing
among competitors, because they essentially eliminate
price competition as to one key aspect of the recruitment of student-athletes in Division I basketball and
FBS football, namely the price of the services of student-athletes. See Board of Regents, 468 U.S. at 100
(noting that horizontal price-fixing agreements have a
“high” probability of resulting in anticompetitive ef-

140a
fects and are “ordinarily condemned as a matter of law”
under an illegal per se approach).
This evidence also established that the challenged
rules harm class members, because the rules deprive
them of compensation they would receive in the absence of the restraints. See O’Bannon II, 802 F.3d at
1071 (holding that NCAA compensation rules have anticompetitive effects because they “extinguish” one
form of competition among schools seeking to land recruits and deprive student-athletes of compensation
they would receive absent the rules) (citation and internal quotation marks omitted).
VI. RULE OF REASON: ASSERTED JUSTIFICATIONS FOR THE
CHALLENGED RESTRAINTS
Because Plaintiffs have established that the challenged rules restrain competition and have severe anticompetitive effects, the burden shifts to Defendants to
show that the challenged price-fixing conduct “brings
about some procompetitive effect in order to justify it
under the antitrust laws.” O’Bannon II, 802 F.3d at
1073 (emphasis omitted).
The only two asserted procompetitive justifications
for the challenged rules that survived summary judgment41 are (1) that the challenged rules promote amateurism, which in turn enhances consumer demand for
Division I basketball and FBS football; and (2) that the
41

The Court will not consider arguments relating to procompetitive justifications that it rejected on summary judgment. See
Summary Judgment Order at 23 n.7, Docket No. 804; see also
O’Bannon II 802 F.3d at 1072 (affirming the district court’s rejection of competitive balance and increased output procompetitive
justifications because the NCAA “offered no meaningful argument
that those findings were clearly erroneous”).

141a
challenged rules promote integration of studentathletes with their academic communities, which in
turn improves the quality of the college education that
student-athletes receive for their athletic services.
Consumer Demand for Amateurism
Defendants first contend that the challenged rules
are procompetitive because they promote the principle
of amateurism, which enhances consumer demand. Defendants argue that consumers value amateurism, and
that consumer demand for Division I basketball and
FBS football would deteriorate if student-athletes received more compensation. To support their contentions, Defendants rely on the expert opinions of Dr. Elzinga and Dr. Isaacson, and lay testimony by various
NCAA, conference, and school administrators regarding the preferences of viewers of college sports.
As a threshold matter, it is important to recognize
that the challenged limits on compensation cannot be
deemed procompetitive simply because they promote
or are consistent with amateurism. To be procompetitive, the challenged rules must have some procompetitive effect on the relevant market.
Although their theory is that the challenged rules
promote amateurism, Defendants did not offer an affirmative definition of amateurism. While Defendants
place great emphasis on the Principle of Amateurism,
which is described in the Division I constitution, the
principle does not mention or address compensation;
nor does it prohibit or even discourage compensation.
Accordingly, no link appears between this principle and
the challenged compensation limits.
Defendants argue that amateurism can be defined
based on what it is not, namely, amateurism is not “pay

142a
for play.” But the concept of “pay for play” does not
help define amateurism because this term itself is undefined.
Defendants have not pointed to any NCAA bylaws
that define amateurism, pay for play, or pay. In the bylaws, “pay” is defined only indirectly, by way of a list of
forms of compensation that the NCAA permits and
does not permit. A reading of these bylaws discloses no
principled, articulable difference between amateurism
and not amateurism, or “pay for play” and not “pay for
play.” The only thing that can be inferred is that compensation constitutes “pay for play” or “pay” if the
NCAA has decided to forbid it, and compensation is not
“pay for play” or “pay” if the NCAA has decided to
permit it.
The NCAA permits grants-in-aid up to the cost of
attendance. In addition, student-athletes can receive
cash or cash-equivalent compensation that exceeds the
cost of attendance by thousands of dollars. The NCAA
permits schools and conferences to pay studentathletes awards for their performance in their sport,
which can be paid in cash-equivalent Visa cards; student-athletes who reach high levels of competition can
receive up to $5,600 in such awards in a school year.
Because these awards are directly correlated with athletic performance, they appear, on their face, to be “pay
for play,” and thus, inconsistent with amateurism as
Defendants and their witnesses describe that term.
Yet, they are allowed. Also permissible are SAF payments in the thousands of dollars for varying purposes,
including for $50,000 premiums for loss-of-value insurance against future loss of professional wages.
The NCAA permits schools to provide per diem
payments to student-athletes for un-itemized expenses.

143a
It also permits schools to pay for family members’ travel expenses to attend certain events; separately, the
NCAA and the College Football Playoff committee
have paid thousands of dollars for family members to
travel to the Final Four, as well as the basketball and
FBS championships. The NCAA allows outside organizations to provide payments to certain student-athletes
for their performance; in the case of student-athletes
who do well in the Olympics or in international competitions, the payments that can be provided under current NCAA rules are unlimited.
Some of the compensation and benefits above the
cost of attendance that the NCAA currently permits
are related to education. For example, the NCAA
permits schools to provide student-athletes with funding for post-eligibility graduate school at any institution, although this is capped at $10,000 per student, two
students per school, per year. These are the Senior
Scholar Awards. It also permits schools to pay, with
SAF funds, for education-related items and expenses,
such as laptops and pre-eligibility tutoring, that are not
covered by the cost of attendance.
An individual student-athlete could receive all of
the aforementioned forms of compensation, in combination, without losing his or her status as an amateur or
eligibility to play in Division I sports. When combined,
this compensation can total thousands and even tens of
thousands of dollars above a full cost-of-attendance
grant-in-aid. Again, the Court does not mean to imply
that these payments should not be made. The point is
that student-athletes’ receipt of this compensation in
excess of the cost of attendance, some of which is related to education and some of which is not, has not led to
a reduction in consumer demand for college sports as a
distinct product, which continues apace.

144a
Defendants’ only economics expert on consumer
demand, Dr. Elzinga, did not even attempt to examine
whether a relationship exists between compensation
and consumer demand. He opines that this analysis is
not possible because amateurism has always existed
and the NCAA has always enforced it; he also opines
that any such analysis would be unnecessary in any
event because amateurism is not about whether student-athletes receive specific dollar amounts in compensation, but is instead about whether they are paid to
play, which is a concept that he does not define. Dr. Elzinga’s opinions and assumptions are contrary to the
record, which shows that the NCAA has not always enforced amateurism rules; that amateurism, and
amounts of permissible student-athlete compensation,
have changed materially over time; and that the
amounts of compensation that student-athletes receive
are very relevant to the determination of whether a
student-athlete is an NCAA amateur or not, because
the NCAA’s limits on certain forms of compensation
are set based on specific dollar amounts for that very
purpose. Accordingly, the Court found Dr. Elzinga’s
opinions to be unconvincing.
Defendants attempted to establish a connection between student-athlete compensation and consumer demand by way of the opinions of their survey expert, Dr.
Isaacson. His opinions, however, do not establish or
suggest that a relationship exists between the challenged rules and consumer demand.
The only economic analysis in the record that addresses the impact of changes to student-athlete compensation on consumer demand, that of Dr. Rascher,
shows that recent increases in student-athlete compensation, related and unrelated to education, have not decreased consumer demand. Dr. Rascher concluded, in

145a
fact, that revenues, which are an indicator of demand,
at the NCAA, conference, and school levels have increased since 2015, when class members’ permissible
compensation increased significantly as a result of the
change to the grant-in-aid limit that year and the expansion or creation of other benefits that schools can
provide on top of a full grant-in-aid. Accordingly, Dr.
Rascher’s findings suggest that additional increases in
compensation would not reduce consumer demand.
Dr. Rascher’s conclusions are corroborated by other evidence, including the opinions of Plaintiffs’ survey
expert, Dr. Poret, and some testimony from defense
witnesses.
Dr. Poret specifically tested whether providing
certain forms of additional compensation to studentathletes would affect future viewership or attendance
of basketball and football. He concluded that viewership and attendance would not be negatively impacted
if the scenarios he tested were implemented individually.
If limits on student-athlete compensation were
necessary to maintain consumer demand, one would
expect to see increases in compensation leading to decreases in consumer demand. The evidence described
above shows that actual increases in compensation have
not decreased demand, and it suggests that future increases in compensation likewise would not do so.
The challenged compensation limits do not appear
to be set by the NCAA based on considerations of consumer demand. The NCAA’s Rule 30(b)(6) witness,
Kevin Lennon, testified that he does not recall any instance in his more than thirty years with the organization in which a study on consumer demand was consid-

146a
ered by the NCAA membership when making rules
about compensation.
Defendants rely on lay witness testimony to try to
establish a connection between the challenged compensation rules and consumer demand. Most of this testimony is predicated on personal opinion and conversations with unidentified fans of college sports with whom
witnesses have spoken. Some of these witnesses testified that the challenged rules prevent conferences from
setting different rules on student-athlete compensation
based on their different values and resources; these
witnesses posited that changing the challenged rules
could negatively impact the consumer appeal of national tournaments and rivalries, or could result in conference realignment, all of which could negatively affect
consumer demand for college sports. But this testimony is unsupported by the weight of the evidence, which
shows that significant variance already exists among
conferences in terms of student-athlete compensation
schemes, resources, and performance, and that conference realignment has been frequent. None of this has
negatively affected consumer demand or revenues.
Some witnesses testified that consumers enjoy college sports because of the difference between college
sports and professional sports. Much of this difference
is based on the fact that student-athletes are students
playing for their school. But this does not in itself establish any connection between consumer demand and
the challenged rules. Indeed, student-athletes would
remain students even if their compensation were not
limited by the challenged rules. See O’Bannon II, 802
F.3d at 1073 (concluding that the opportunity to earn a
higher education “would still be available to studentathletes if they were paid some compensation in addition to their athletic scholarships. Nothing in the plain-

147a
tiffs’ prayer for compensation would make studentathletes something other than students and thereby
impair their ability to become student-athletes”).
Other distinctions between college and professional
sports are the amounts and types of compensation
players receive. The distinction, currently, cannot be
based on student-athletes receiving no compensation or
benefits above the cost of attendance and professionals
receiving large cash salaries, sometimes in the millions
of dollars. This is because student-athletes already receive moderate amounts in compensation and benefits
on top of a grant-in-aid without affecting the distinction
between college and professional sports. Instead, the
Court found that a distinction between college and professional sports arises from the fact that studentathletes do not receive unlimited cash payments, especially those unrelated to education, like those seen in
professional sports leagues.
Accordingly, the Court found that, when compared
with having no limits on compensation, some of the
challenged compensation rules may have an effect on
preserving consumer demand for college sports as distinct from professional sports to the extent that they
prevent unlimited cash payments unrelated to education such as those seen in professional sports leagues.
As will be discussed in more detail in the next section,
however, not all of the challenged rules in their current
form are necessary to achieve this procompetitive effect, and there is a less restrictive alternative to the set
of current challenged compensation restrictions.
The challenged compensation limits can be divided
into three categories: (1) the limit on the grant-in-aid
at not less than the cost of attendance; (2) compensation
and benefits unrelated to education paid on top of a

148a
grant-in-aid; (3) compensation and benefits related to
education provided on top of a grant-in-aid.
The Court found that the challenged limits in the
first and second categories are procompetitive relative
to having no limits, to the extent that they help maintain consumer demand for college sports as a distinct
product by preventing unlimited cash payments unrelated to education.
As for the limits in the third category, only some
have been have been shown to be procompetitive,
namely limits on academic or graduation awards and
incentives that are provided in cash or cashequivalents. These could become a vehicle for unlimited payments. The Court found that limits or prohibitions on most other benefits related to education that
can be provided on top of a grant-in-aid, such as those
that limit tutoring, graduate school tuition, and paid
internships, have not been shown to have an effect on
enhancing consumer demand for college sports as a distinct product, because these limits are not necessary to
prevent unlimited cash compensation unrelated to education. Educational benefits limited or prohibited by
these rules are distinct from professional-level compensation because they have a connection to education, are
paid to students, their value is inherently limited to
their actual cost, and they can be provided in kind, not
in cash. Defendants have offered no cogent explanation
for why limits or prohibitions on these educationrelated benefits are necessary to preserve consumer
demand. Some evidence instead suggests that the challenged limits on education-related compensation are
arbitrary.42 Accordingly, because no procompetitive
42

For example, when asked whether increasing the current
limit on Senior Scholar Awards from two students per school to

149a
justification for limiting these education-related benefits has been shown, limits on these benefits cannot be
included in a less restrictive alternative.
Integration
Defendants contend that the challenged rules have
a procompetitive effect because they promote the integration of student-athletes into their academic communities. Defendants posit that this integration improves
the college education that student-athletes receive for
their athletic services.
For this proffered justification to be viable, Defendants would have to establish (1) that the challenged
rules promote integration, and (2) that integration has a
procompetitive effect in the relevant market. As detailed in the findings of fact, Defendants did not meet
their burden to show that the challenged rules have an
effect on promoting integration. That alone defeats integration as a procompetitive justification.
The evidence shows that student-athletes benefit in
various ways from the college education they receive,
but Defendants have not shown that such benefits arise
out of the challenged compensation limits. Most of the
benefits that student-athletes can gain from attending
college are caused, instead, by the education itself and
by other rules and policies, such as those relating to academic eligibility requirements, tutoring, academic
five students per school would render the awards inconsistent with
amateurism, the NCAA’s Rule 30(b)(6) witness, Kevin Lennon,
provided no meaningful response other than to justify the current
limit on the basis that the membership decided that limiting the
awards to two students per school constituted a reasonable cap.
Trial Tr. (Lennon) at 1551-53. It could be raised from two to three.
Lennon Rule 30(b)(6) Dep. Tr. at 179.

150a
support, living conditions, and the scheduling of athletic
practice and events. None of these rules and policies,
which appear to be the driving force behind the integration that Defendants describe, are challenged here.
Accordingly, student-athletes would still enjoy the
benefits caused by the latter rules and policies even if
the challenged compensation limits were changed.
Defendants’ expert, Dr. Heckman, conceded that
additional compensation could improve outcomes for
student-athletes, belying the notion that the challenged
compensation limits, as they currently stand, are necessary to achieve positive student-athlete outcomes. Additionally, other evidence shows that student-athlete
achievement, as measured by graduation rates, has increased since 2015, when permissible athletics-related
compensation increased. This also suggests that the
challenged compensation limits are not necessary to
improve student-athlete academic outcomes. This evidence also undermines Dr. Heckman’s opinion that student-athletes would be incentivized to spend time on
athletics to the detriment of academics if they received
additional compensation.
Defendants also rely on testimony positing that additional compensation for student-athletes would create
a “wedge” between student-athletes and non-athletes,
and even among student-athletes if any additional compensation provided were not distributed equally. The
NCAA advanced the same theory in O’Bannon I. See 7
F. Supp. 3d at 980-81. There, this Court found that certain limited restrictions on student-athlete compensation “may help” prevent a wedge between studentathletes and others on campus, see id. at 980, and the
Ninth Circuit affirmed that finding, although it noted
that, on appeal, the NCAA focused all of its arguments

151a
regarding a procompetitive justification on its amateurism theory. O’Bannon II, 802 F.3d at 1059-60, 1072.
Here, the evidence that Defendants cite in support
of their “wedge” theory is even weaker than that presented in O’Bannon I, and it also is directly contradicted by evidence that was not available at the time of
O’Bannon I. This shows that student-athlete compensation increased since 2015 and this greater compensation, which can reach thousands or tens of thousands of
dollars above a full cost-of-attendance grant-in-aid, has
not resulted in increased separation between studentathletes and other students. This evidence distinguishes the factual record here regarding the “wedge”
theory from the record in O’Bannon I, and it justifies a
different conclusion with respect to the “wedge” theory
and integration as a procompetitive justification. Divisions among students exist and are inevitable as a result of factors that are unrelated to the challenged
rules. Further, the challenged rules may create or exacerbate a wedge because they result in some schools
spending money that would otherwise go to studentathlete compensation on frills, like extravagant, athletes-only facilities.
Because Defendants failed to show that the challenged rules have an effect on promoting integration,
Defendants’ integration justification fails.
VII. RULE OF REASON:
ALTERNATIVES
CHALLENGED RESTRAINTS

TO

THE

Defendants have sufficiently shown a procompetitive effect of some aspects of the challenged compensation scheme.43 These are the cost-of-attendance limit
43

Because Defendants have not shown that the challenged
rules can be justified on the ground that they promote integration,

152a
on the grant-in-aid, the limits on compensation and
benefits unrelated to education, and the limits on cash
or cash-equivalent education-related awards and incentives for academic achievement or graduation. The
procompetitive effect of these caps is preventing unlimited, professional-level cash payments, unrelated to education, that could blur the distinction between college
sports and professional sports and thereby negatively
affect consumer demand for Division I basketball and
FBS football. Defendants, however, have not shown a
procompetitive justification for caps on educationrelated benefits that are inherently limited by their actual cost and that can be provided in kind, not in cash,
such as rules that limit scholarships for graduate
school.
The burden shifts to Plaintiffs to show that there
are substantially less restrictive alternative rules that
would achieve the same procompetitive effect as the
challenged set of rules.
Where a restraint “is patently and inexplicably
stricter than is necessary to accomplish” demonstrated
procompetitive objectives, “an antitrust court can and
should invalidate it and order it replaced with a less restrictive alternative.” O’Bannon II, 802 F.3d at 1075
(emphasis omitted). To be viable, a less restrictive alternative must be “virtually as effective” in serving the
established procompetitive effect of the challenged restraints, and its implementation must be achieved
“without significantly increased cost.” See id. at 1074,
1076 n.19 (citation and internal quotation marks omitted). In the context of NCAA rules limiting studentathlete compensation, a court must afford the NCAA
the Court does not consider whether any proffered less restrictive
alternatives would promote integration.

153a
“ample latitude” to superintend college athletics, and
may not “use antitrust law to make marginal adjustments to broadly reasonable market restraints.” Id. at
1074-75 (citation and internal quotation marks omitted).
As discussed in the findings of fact, there is a less
restrictive alternative to the set of challenged rules
that meets these requirements. Under these alternative rules, the NCAA can continue to cap the grant-inaid at not less than the cost of attendance. The NCAA
can also continue to limit compensation and benefits,
paid in addition to the cost of attendance, that are unrelated to education. The association can continue to limit
academic or graduation awards or incentives, provided
in cash or cash-equivalent on top of a grant-in-aid, as
long as the limit is not less than the athletics participation awards limit.44 A lower cap is not necessary to
preserve consumer demand because athletics participation awards, at the current caps, have not been demand-reducing. In fact, the NCAA considers these
amounts consistent with amateurism.
While the
NCAA could reduce the athletics participation awards
limit in the future, it may not reduce academic or graduation awards or incentives to amounts lower than the
current athletics participation awards limit.
The
NCAA may increase athletics participation awards in
the future, but it must increase any limits on academic
or graduation awards and incentives so that such limits
are never lower than the limit on athletics participation
awards.
44

As discussed in the findings of fact, the athletics participation awards limit is the maximum amount of compensation that an
individual student-athlete could receive in an academic school year
in participation, championship, or special achievement awards
(combined) under Division I Bylaw, Article 16, and listed in Figures 16-1, 16-2, and 16-3 of the 2018-2019 Division I Manual, J0024.

154a
Defendants have not shown a procompetitive effect
for NCAA rules that restrict inherently limited, noncash, education-related benefits provided on top of a
grant-in-aid. Accordingly, such limits are not included
in the less restrictive alternative rules. The types of
inherently limited education-related benefits that are
uncapped as part of this alternative include those that
currently are prohibited or limited in some fashion by
the NCAA. These are listed in the findings of fact.
As discussed in the findings of fact, this alternative
would be virtually as effective as the challenged set of
rules in preserving the same contribution to consumer
demand for Division I basketball and FBS football, as a
product distinct from professional sports, that the current NCAA compensation scheme achieves. This is because this alternative expands education-related compensation and benefits only, and it does so in a way that
would not result in unlimited cash payments, untethered to education, similar to those observed in professional sports.
This alternative also would not require significant
new costs to implement, because it eliminates NCAA
caps on education-related benefits. This will eliminate
the need to expend resources on compliance and enforcement in connection with such caps. To the extent
that the NCAA, conferences, or schools choose to regulate compensation in any way that is permissible under
this alternative, they could employ existing rulemaking, interpretation, and enforcement structures to
do so. The NCAA could assist conferences and schools
in that undertaking, by reallocating the resources it
uses to enforce or interpret the NCAA caps that this
alternative eliminates, or otherwise.

155a
The alternative adopted here is consistent with the
teachings of O’Bannon II. As noted above, in that case,
the Ninth Circuit affirmed this Court’s conclusion that
the NCAA’s compensation limits relating to the use or
licensing of NIL violated the Sherman Act, and affirmed its order that the NCAA could not cap compensation for student-athletes’ NIL at an amount lower
than the cost of attendance. The circuit court reasoned
that (1) the evidence in that case did not “suggest[] that
consumers of college sports would become less interested in those sports” if this compensation were provided because it “would be going to cover [studentathletes’] ‘legitimate costs’ to attend school;” and (2) the
additional compensation “would have virtually no impact on amateurism” as the NCAA defined the concept
in that case. O’Bannon II, 802 F.3d at 1074-75. “By the
NCAA’s own standards, student-athletes remain amateurs as long as any money paid to them goes to cover
legitimate educational expenses.” Id. at 1075. The circuit court, however, vacated this Court’s order that the
NCAA could not limit the schools’ compensation in
trust to student-athletes for their NIL at an amount
lower than $5,000 per year. The majority found that
this Court erred in allowing student-athletes to be paid
cash untethered to their education expenses, even if
such payment was deferred, because that alternative
would not be “virtually as effective as the NCAA’s current amateur-status rule.” Id. at 1074.
The non-cash education-related benefits allowed
here, like the compensation approved by the court of
appeal in O’Bannon II, will go to cover legitimate education-related costs. As in O’Bannon II, there is no evidence here suggesting that uncapping non-cash education-related benefits would negatively affect consumers’ interest in Division I basketball and FBS football.

156a
According to defense witnesses, consumer demand for
Division I basketball and FBS football as distinct from
professional sports is driven by consumers’ perception
that student-athletes are students. See Board of Regents, 468 U.S. at 101-02 (noting that “[t]he identification of this ‘product’ [college football] with an academic
tradition differentiates [it]” from professional sports).
Additional education-related benefits, if anything,
would serve to enhance student-athletes’ connection to
academics. The natural experiments discussed in the
findings of fact, as well as the testimony of Plaintiffs’
survey expert, Dr. Poret, and some testimony by defense witnesses, also show that increasing educationrelated compensation and benefits would not reduce
consumer demand for Division I basketball or FBS
football. Defendants and their witnesses agree that the
types and amounts of compensation that the NCAA
currently permits schools to provide to studentathletes on top of a grant-in-aid are consistent with
what they describe as amateurism. Some of this currently permissible compensation on top of a grant-inaid, which can reach thousands and even tens of thousands of dollars above the cost of attendance, is related
to education, and some is not. It follows that allowing
limited non-cash education-related benefits on top of a
grant-in-aid is not inconsistent with what Defendants
describe as amateurism.
Nor is there evidence here that allowing limited academic awards would negatively affect consumers’ interest in Division I basketball or FBS football. The
NCAA will be permitted to limit academic and graduation awards and incentives that are provided in cash or
a cash-equivalent to a level that the record shows is not
demand-reducing or inconsistent with NCAA amateurism, namely the level at which athletics participation

157a
awards, which are provided in cash-equivalents, are
capped by the NCAA. The NCAA also will be permitted to continue to limit grants-in-aid at not less than
the cost of attendance and limit compensation and benefits unrelated to education.
Defendants rely heavily on the following language
from O’Bannon II: “The Rule of Reason requires that
the NCAA permit its schools to provide up to the cost
of attendance to their student athletes. It does not require more.” Id. at 1079. But this language from
O’Bannon II cannot be read to preemptively bar any
Rule of Reason challenge to any NCAA rule that restricts or prohibits student-athlete compensation. Such
a broad reading would be inconsistent with the circuit
court’s statement elsewhere in the opinion that, under
the Rule of Reason, the validity of each rule “must be
proved, not presumed.” Id. at 1064.
Further, this statement was made in the context of
the majority’s disapproval of allowing deferred cash
payments above the cost of attendance and “untethered
to educational expenses.” Id. at 1078. Based on the evidence in that case, the majority held that paying student-athletes any amount of cash above the cost of attendance, if unrelated to education, would “vitiate their
amateur status,” id. at 1077, whereas including additional compensation in a grant-in-aid up to the cost of
attendance would not.
New evidence presented in this case shows that
payments above the cost of attendance do not vitiate
student-athletes’ NCAA amateur status, even when
such payments are made in cash-equivalents, are unrelated to education, and can amount to thousands and
even tens of thousands of dollars. The NCAA permits
student-athletes to receive, above the cost of attend-

158a
ance, cash-equivalent payments for their athletic performance directly from their schools and conferences,
the cumulative value of which could reach $5,600 in an
academic school year. This evidence was not before the
Ninth Circuit in O’Bannon II. Moreover, the NCAA
also currently permits a variety of other payments
above the cost of attendance that have no tether to education, such as payments of $50,000 premiums for lossof-value insurance against loss of future professional
wages, thousands of dollars of SAF and AEF monies
that can be used in a wide variety of ways, and thousands of dollars of travel expenses for family members.
Defense witnesses have testified that these payments
are not inconsistent with amateurism. The economic
analyses discussed above show that consumer demand
has not been negatively affected.
The concern described in O’Bannon II that, if the
line of paying cash, non-education-related compensation
were crossed, there would be “no defined stopping
point,” id. at 1078-79, is inapplicable here. The alternative being adopted would remove NCAA caps on education-related benefits only. These benefits are inherently limited to their actual value, such as graduate
school tuition. Cash or cash-equivalent academic and
graduation awards and incentives would be limited to
the NCAA-approved amounts of athletics participation
awards. Thus, the alternative rules being adopted here
do have a stopping point, and that stopping point falls
within amateurism as Defendants described it in this
case.
Under these less restrictive rules, the NCAA
would retain the right to define these education-related
benefits and to regulate how schools provide them to
student-athletes. For example, the NCAA could require schools to pay the cost of such benefits directly to

159a
the educational institution or provider from which the
student-athletes will obtain the benefits. In the case of
education-related supplies, such as computers and science equipment, the NCAA could require schools to
pay for these items directly or to reimburse studentathletes for these expenses if adequate proof of purchase is shown.
The adoption of this alternative set of rules also
would not significantly impact the NCAA’s ability to
superintend college sports, because only a small fraction of the conduct that the NCAA regulates would be
affected. The NCAA will otherwise remain free to
manage college sports as it wishes.
These alternative rules are less restrictive than the
current compensation rules, and therefore less harmful
to competition in the relevant market. They will result
in increased competition among NCAA members and
increased education-related compensation for studentathletes.
VIII.

BALANCING

As discussed above, the Court has found and concluded that Plaintiffs have shown a less restrictive alternative to the challenged rules. Accordingly, the
Court can impose its remedy without weighing the anticompetitive effects of the challenged restraints
against their procompetitive benefits as a final balancing consideration.
Several Ninth Circuit cases describe the balancing
inquiry as being necessary as a final consideration only
if the court finds no viable less restrictive alternative.
For example, in County of Tuolumne, the Ninth Circuit explained that where “plaintiffs have failed to meet
their burden of advancing viable less restrictive alter-

160a
natives,” a court then “reach[es] the balancing stage,”
where it “must balance the harms and benefits of the
[challenged restraints] to determine whether they are
reasonable.” 236 F.3d at 1160 (citing Areeda ¶ 1507b at
397). Similarly, in Bhan, the circuit court described the
Rule-of-Reason inquiry as involving four steps, and
noted that, after the third step in which a plaintiff must
“try to show that any legitimate objectives can be
achieved in a substantially less restrictive manner,”
“[f]inally, the court must weigh the harms and benefits
to determine if the behavior is reasonable on balance.”
929 F.2d at 1413 (citing Areeda ¶ 1502 at 371-72).
An argument can be made that balancing should be
done at an earlier stage, and in the Ninth Circuit, the
Rule of Reason inquiry has been described in varying
ways. In Tanaka, the circuit court described it as involving three steps but also noted that a “restraint violates the rule of reason if the restraint’s harm to competition outweighs its procompetitive effects.” 252
F.3d at 1063. In Paladin Assocs., Inc, v. Mont. Power
Co., the circuit court described the Rule of Reason inquiry as “determin[ing] whether the anticompetitive
aspects of the challenged practice outweigh its procompetitive effects,” without mentioning any burdenshifting steps. 328 F.3d 1145, 1156 (9th Cir. 2003). In
Am. Ad Mgmt., Inc, v. GTE Corp., the court ruled,
“The fact finder must balance the restraint and any justifications or pro-competitive effects of the restraint in
order to determine whether the restraint is unreasonable.” 92 F.3d 781, 791 (9th Cir. 1996) (citation, internal
quotation marks, and emphasis omitted).
Some Supreme Court cases have described the
Rule of Reason inquiry without mentioning a burdenshifting framework at all. See, e.g., Leegin Creative
Leather Prods., Inc, v. PSKS, Inc., 551 U.S. 877, 885

161a
(2007) (under the rule of reason, “the factfinder weighs
all of the circumstances of a case in deciding whether a
restrictive practice should be prohibited as imposing an
unreasonable restraint on competition”) (citation and
internal quotation marks omitted).
Thus, Supreme Court and Ninth Circuit cases have
used various formulations of the Rule of Reason: three
steps followed by balancing, four steps including balancing, balancing at the second step, or eschewing a
burden-shifting test with defined steps altogether.
None of these cases has endorsed or required the use of
any particular formulation over any other.
The Court is not persuaded by Defendants’ contention that the mention of a three-step test by the Supreme Court in Ohio v. American Express Co., 138 S.
Ct. 2274, 2284 (2018) (analyzing challenged restraints
under the Rule of Reason using “a three-step, burdenshifting framework”) and by the Ninth Circuit in
O’Bannon II, 802 F.3d at 1060 (referring to the “third
and final” step), means that the Rule of Reason analysis
can end without balancing if a viable less restrictive alternative is not shown. Neither the Supreme Court nor
the Ninth Circuit has so held. In O’Bannon II, the
Ninth Circuit found a less restrictive alternative was
viable; accordingly, balancing as a final consideration
was not necessary in that case. See 802 F.3d at 1070.
The Supreme Court’s rule-of-reason analysis in American Express did not reach the balancing stage either,
because the plaintiffs had not satisfied their burden to
show that the conduct at issue had anticompetitive effects.
As can be observed in many citations above, the
Supreme Court and the Ninth Circuit frequently rely
on the treatises and other writings of Phillip E. Areeda

162a
and Herbert Hovenkamp in cases involving the Sherman Act. See, e.g., American Express, 138 S. Ct. at
2284 (citing Areeda & Hovenkamp). These scholars
have noted that a three-step burden-shifting framework and balancing “are hardly the same thing” because “the sequence of evidentiary steps, with its shifting burdens, is an attempt to avoid general balancing.”
See Areeda & Hovenkamp ¶ 1507d. Their view is that
balancing is appropriate as a final consideration where
no viable less restrictive alternative has been established. See id. (“A better way to view balancing is as a
last resort when the defendant has offered a procompetitive explanation for a prima facie anticompetitive
restraint, but no less restrictive alternative has been
shown … . The court must then determine whether the
anticompetitive effects made in the prima facie case are
sufficiently offset by the proffered defense.”).
If no balancing were required at any point in the
analysis, an egregious restraint with a minor procompetitive effect would have to be allowed to continue,
merely because a qualifying less restrictive alternative
was not shown. In this case, however, the Court has
found a viable less restrictive alternative and will enter
its injunction accordingly.
IX. SUMMARY OF LIABILITY DETERMINATIONS
For the reasons set forth above, the Court finds
and concludes that the challenged rules, in their current
form, unreasonably restrain trade in violation of Section 1 of the Sherman Act. The challenged rules constitute horizontal price-fixing agreements enacted and enforced with monopsony power. This essentially eliminates price competition as to one key aspect of the recruitment of student-athletes in Division I basketball
and FBS football, namely the labor that goes into these

163a
sports. As such, the challenged rules harm studentathletes by depriving them of compensation they otherwise would receive for their athletic services.
Defendants failed to show that the challenged rules
have an effect on promoting integration of studentathletes and their academic communities. While Defendants have shown that limiting student-athlete
compensation has some effect in preserving consumer
demand for Division I basketball and FBS football as
compared with no limit, Plaintiffs have shown that not
all of the challenged rules are necessary to achieve this
effect and that a less restrictive alternative set of rules
would be virtually as effective as the set of challenged
rules, without requiring significant costs to implement.
The less restrictive alternative would remove limitations on most education-related benefits provided on
top of a grant-in-aid, while allowing the NCAA to limit
cash or cash-equivalent awards or incentives for academic achievement or graduation to the same extent it
limits athletics awards. Limits on compensation and
benefits that are not related to education and a limit on
the grant-in-aid at not less than the cost of attendance
would remain.
X. REMEDY
The Sherman Act grants the power to district
courts to “prevent and restrain violations” of Section 1.
15 U.S.C. § 4. In accordance with the viable less restrictive alternative discussed above, the NCAA may
continue to limit the grant-in-aid at not less than the
cost of attendance, and to limit compensation and benefits that are unrelated to education provided on top of a
grant-in-aid. The NCAA may also limit academic or
graduation awards or incentives, provided in cash or
cash-equivalent, as long as the limit imposed by the

164a
NCAA is not less than the athletics participation
awards limit.
Current NCAA limits on other education-related
benefits that can be provided on top of a grant-in-aid
are invalidated. The NCAA may not limit these benefits in the future.
Each conference will continue to be able to limit
any compensation or benefits, including the educationrelated benefits that the NCAA will not be permitted
to cap, as long as it does so independently from other
conferences. Schools will remain free to set limits on
their own offers to student-athletes.
The NCAA will retain the right to define, in an exercise of discretion and good faith, education-related
benefits and to regulate how schools provide them to
student-athletes. The NCAA may also assist conferences and schools in enforcing any conference rules limiting educational benefits.
The Court will herewith issue an injunction, which
will take effect in ninety days but will be stayed pending the issuance of a mandate if a notice of appeal is
timely filed. The Court will retain jurisdiction over the
enforcement and amendment of the injunction.
CONCLUSION
There is a great disparity between the extraordinary revenue that Defendants garner from Division I
basketball and FBS football, and the modest benefits
that class members receive in exchange for their participation in these sports relative to the value of their athletic services and the contributions they make. Class
members contribute their elite talent and time, they
limit their educational options, and they risk their long-

165a
term health to create enormous financial value for Defendants.
Restricting non-cash education-related benefits and
academic awards that can be provided on top of a
grant-in-aid has not been proven to be necessary to
preserving consumer demand for Division I basketball
and FBS football as a product distinct from professional
sports. Allowing each conference and its member
schools to provide additional education-related benefits
without NCAA caps and prohibitions, as well as academic awards, will help ameliorate their anticompetitive effects and may provide some of the compensation
student-athletes would have received absent Defendants’ agreement to restrain trade.
The clerk shall enter judgment in favor of the
Plaintiff class. Plaintiffs shall recover their costs from
Defendants. The parties shall not file any post-trial
motions based on arguments that have already been
made.
IT IS SO ORDERED.
Dated: March 8, 2019

_________signature_________
Claudia Wilken
United States District Judge

167a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
No. 14-md-02541 CW
IN RE:
NATIONAL COLLEGIATE ATHLETIC
ASSOCIATION ATHLETIC GRANT-IN-AID
CAP ANTITRUST LITIGATION
Filed March 8, 2019
PERMANENT INJUNCTION
The Court, having considered the evidence presented at the bench trial in this matter and consistent
with its findings of fact and conclusions of law, hereby
orders as follows:
1.

Defendant National Collegiate Athletic Association, and its officers, agents, servants, employees,
and any person in active concert or participation
with them, including its member schools and conferences, who receive actual notice of this Order by
personal service or otherwise (hereinafter, the
NCAA), are hereby permanently restrained and
enjoined from agreeing to fix or limit compensation
or benefits related to education that may be made
available from conferences or schools to Division I
women’s and men’s basketball and FBS football
student-athletes on top of a grant-in-aid.

2.

The compensation and benefits related to education
provided on top of a grant-in-aid that the NCAA

168a
may not agree to fix or limit pursuant to paragraph
1 of this Order are the following: computers, science equipment, musical instruments and other
tangible items not included in the cost of attendance calculation but nonetheless related to the pursuit of academic studies; post-eligibility scholarships to complete undergraduate or graduate degrees at any school; scholarships to attend vocational school; tutoring; expenses related to studying
abroad that are not included in the cost of attendance calculation; and paid post-eligibility internships.
3.

The list of compensation and benefits related to education listed in paragraph 2 may be amended, at
any time, on motion of any party.

4.

Notwithstanding the foregoing paragraphs, the
NCAA may adopt, enact, or agree to, now or in the
future, a definition of compensation and benefits
that are “related to education” for the purpose of
complying with this injunction. If the NCAA
chooses to adopt, enact, or agree to any such definition, the NCAA may move to amend this injunction
to incorporate that definition. Additionally, notwithstanding the foregoing paragraphs, the NCAA
may adopt, enact, or agree to, now or in the future,
any constitutional provision, bylaw, rule, regulation, interpretation, or policy that regulates how
conferences or schools provide education-related
compensation and benefits to Division I women’s
and men’s basketball and FBS football studentathletes on top of a grant-in-aid.

5.

Notwithstanding the foregoing paragraphs, the
NCAA may agree, now or in the future, to fix or
limit academic or graduation awards or incentives

169a
that may be made available from conferences or
schools to Division I women’s and men’s basketball
and FBS football student-athletes on top of a grantin-aid. Any limit adopted, enacted, or agreed to by
the NCAA under this paragraph shall not, at any
time, be less than the maximum amount of compensation that an individual student-athlete could receive in an academic school year in participation,
championship, or special achievement awards
(combined) under Division I Bylaw, Article 16, and
listed in Figures 16-1, 16-2, and 16-3 of the 20182019 Division I Manual (hereinafter, the athletics
participation awards limit). Any limit adopted, enacted, or agreed to by the NCAA under this paragraph shall be increased in the event that the athletics participation awards limit is increased, to ensure that the limit on academic achievement or
graduation awards or incentives is never less than
the athletics participation awards limit.
6.

Notwithstanding the foregoing paragraphs, any
NCAA member conference may, individually, fix or
limit compensation or benefits related to education
that may be made available from that conference or
its member schools to Division I women’s and
men’s basketball and FBS football student-athletes
on top of a grant-in-aid. No limit set under this
paragraph shall be set pursuant to an agreement
with any other conference.

7.

Notwithstanding the foregoing paragraphs, any
NCAA member conference may, individually, fix or
limit academic or graduation awards or incentives
that may be made available from that conference or
its member schools to Division I women’s and
men’s basketball and FBS football student-athletes
on top of a grant-in-aid. No limit set under this

170a
paragraph shall be set pursuant to an agreement
with any other conference.
8.

Any party may seek modification of this Order, at
any time, by written motion and for good cause
based on changed circumstances or otherwise.

9.

The Court will retain jurisdiction over the enforcement and amendment of the injunction. If any
part of this Order is violated by any party named
herein or any other person, Plaintiffs may, by motion with notice to the attorneys for Defendants,
apply for sanctions or other relief that may be appropriate.

10. The injunction will take effect in ninety days but
will be stayed pending the issuance of a mandate if
a notice of appeal is timely filed.
IT IS SO ORDERED.
Dated: March 8, 2019

________signature___________
CLAUDIA WILKEN
United States District Judge

